<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-100, Part 4]
[From the U.S. Government Publishing Office]


                                                 S. Hrg. 111-100, Pt. 4
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1390

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2010 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                          JUNE 9 AND 16, 2009


         Printed for the use of the Committee on Armed Services























DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                         2010--Part 4  AIRLAND
















                                                  S. Hrg. 111-100 Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1390

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2010 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                          JUNE 9 AND 16, 2009


         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-623 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 


















                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
KAY R. HAGAN, North Carolina         SAXBY CHAMBLISS, Georgia
MARK BEGICH, Alaska                  RICHARD BURR, North Carolina
ROLAND W. BURRIS, Illinois

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                       Tactical Aviation Programs
                              june 9, 2009

                                                                   Page

Architzel, VADM David, USN, Principal Deputy, Office of the 
  Assistant Secretary of the Navy (Research, Development, and 
  Acquisition)...................................................     3
Shackelford, Lt. Gen. Mark D., USAF, Military Deputy, Office of 
  the Assistant Secretary of the Air Force For Acquisition.......    17
Trautman, Lt. Gen. George J., III, USMC, Deputy Commandant for 
  Aviation, United States Marine Corps...........................    25
Gibson, Maj. Gen. Marke F., USAF, Director of Operations, Deputy 
  Chief of Staff for Operations, Plans and Requirements, 
  Department of the Air Force....................................    26
Myers, RADM Allen G., USN, Director, Warfare Integration/Senior 
  National Representative, Office of the Chief of Naval 
  Operations.....................................................    27

 Army Modernization and Management of the Future Combat Systems Program
                             june 16, 2009

Chiarelli, GEN Peter W., USA, Vice Chief of Staff of the Army....    83
Thompson, LTG N. Ross, III, USA, Military Deputy to the Assistant 
  Secretary of the Army for Acquisition, Logistics, and 
  Technology, and Director, Acquisition Career Management........    85
Ahern, David G., Director, Portfolio Systems Acquisition, Office 
  of the Under Secretary of Defense for Acquisition, Technology, 
  and Logistics..................................................   102
Francis, Paul L., Managing Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................   108

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

                              ----------                              


                         TUESDAY, JUNE 9, 2009

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                       TACTICAL AVIATION PROGRAMS

    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, McCaskill, 
Hagan, Begich, Inhofe, Chambliss, and Thune.
    Majority staff member present: Creighton Greene, 
professional staff member.
    Minority staff members present: David M. Morriss, minority 
counsel; and Christopher J. Paul, professional staff member.
    Staff assistants present: Mary C. Holloway and Brian F. 
Sebold.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Roger Pena, assistant to 
Senator Hagan; David Ramseur, assistant to Senator Begich; 
Anthony J. Lazarski, assistant to Senator Inhofe; Lenwood 
Landrum and Sandra Luff, assistants to Senator Sessions; and 
Jason Van Beek, assistant to Senator Thune.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The subcommittee will come to order. I 
thank everyone for being here. A special thank you and welcome 
to our witnesses who are here with us today. It is against the 
backdrop of the continued bravery and exemplary performance of 
the American Military in Iraq and Afghanistan and in fact 
throughout the world that we convene this session of the 
Airland Subcommittee to discuss the President's future of 
aviation programs, particularly tactical aviation (TACAIR) 
programs. This has become an annual meeting for the Airland 
Subcommittee. Every year we're faced with the challenge of 
balancing a number of competing demands for limited resources 
including a balance between current operations and future 
modernizations, all of it to fulfill as best we can our 
constitutional responsibility to enable the men and women of 
the American Military to provide for the common defense. 
Because of the pressure on our budget and the pressure on our 
military this is a particularly difficult year in which we try 
to strike exactly the right balance.
    The subcommittee and the full committee hope to markup, to 
prepare our authorization bill if possible by the end of this 
month. So what we hear today and what we learn today would be 
of specific and tangible effect on the deliberations of this 
subcommittee as we will report and recommend to our colleagues 
on this program, so they appreciate the extraordinary group of 
witnesses we have before us. I'm going to abbreviate my 
statement and just say briefly that among the issues that we 
want to talk about are, of course, the F-22A, the F/A-18, 
structure issues about the Joint Strike Fighter (JSF) 
development progress and the impact of the decision on the F-22 
and the President's budget and the increase in the pace of 
development of the JSF, what impact that will have on that 
program, and also the question of the alternate engine for the 
JSF. These are difficult and important questions, but we know 
that the witnesses before us today can help illuminate our path 
forward and therefore we thank you for being here.

                STATEMENT OF SENATOR JOHN THUNE

    Senator Thune. Thank you, Mr. Chairman. I want to thank our 
panelist and join you in welcoming our witnesses here today to 
discuss TACAIR programs contained within the President's budget 
request for fiscal year 2010. The fiscal year 2010 budget is an 
integral part of a much longer term process that will help 
insure defense dollars are spent wisely to address the threats 
that we face today and will likely face tomorrow. I understand 
there are additional issues that must be addressed, which will 
be informed by a number of ongoing reviews including the 
defense review. The committee looks forward to being briefed on 
the full range of those issues and how they will affect future 
budget decisions.
    While the President's fiscal year 2010 budget submission 
represents a snapshot of the Services' overall requirements, it 
also raises several questions about our military's TACAIR 
programs. First, the Navy has vastly expanded its estimate of 
size of the so-called fighter gap, putting the shortfall of 
fighter planes at 243 aircraft by 2018. Is the Navy taking 
appropriate action to mitigate that gap and the operational 
implications of that gap? Can the Navy maintain adequate 
carrier air wings to satisfy the needs of 11 aircraft carriers?
    Second, during hearings on last year's budget request, the 
Air Force likewise testified that due to new estimates of the 
legacy fighter force, the current F-22 Raptor and JSF 
procurement plans would likely leave a gap of up to 800 fighter 
aircrafts by 2024. Is the Air Force taking appropriate actions 
to mitigate that gap?
    Third, given Secretary Gates' decision to end the F-22 
Raptor production at 187 aircraft and provide $1 billion for 
modernization of the A-10, F-16 Falcon, and F-15 Eagle strike 
fighter aircraft, is the Air Force effectively 
institutionalizing and enhancing our capabilities to fight the 
wars we're in today and address the scenarios we're most likely 
to face in the future while hedging against other 
contingencies?
    Fourth, the Secretary's purposed commitment to the JSF also 
requires us to confront serious questions about high cost and 
affordability. The F-35 variants for the Navy, Marine Corps, 
and Air Force all will cost more to procure than to replace the 
older tactical aircraft. Those costs have increased 47 percent 
since 2001 from $65 million to $105 million per aircraft. Given 
very limited flight testing and production processes and the 
degree of technology risks in the F-35 JSF program, is it wise 
to accelerate buying those aircraft only to have procurement 
costs increase later?
    Fifth, the Combat Air Force Restructure Plan allows the Air 
Force to bridge to the predominantly fifth general force of the 
future. Did the Air Force get it right regarding the decision 
to accelerate the retirement of 250 strike fighters and does 
the plan properly weigh the benefits of retiring aircraft 
nearing their expected service life against the near-term risk 
to our national security?
    Finally, the President's proposal to delay the next 
generation bomber pending the outcome of the nuclear review and 
in light of arms control negotiations. How is the 
administration's position on the next generation bomber 
reconciled with prior statements Secretary Gates has made on 
the military need to continue that program and its decision to 
move forward on another program, the Ohio Submarine Replacement 
Program, given that both programs will be informed by those 
same documents?
    I look forward to hearing from our witnesses, Mr. Chairman, 
on each of these issues and others and thanks again to our 
witnesses for being here. Thank you, Mr. Chairman.
    Senator Lieberman. Thank you very much, Senator Thune. 
Let's go right to the witnesses and if we have the order right, 
we'll begin with Admiral Architzel and then we'll go to General 
Shackelford. Thanks for being here Admiral.

   STATEMENT OF VADM DAVID ARCHITZEL, USN, PRINCIPAL DEPUTY, 
   OFFICE OF THE ASSISTANT SECRETARY OF THE NAVY (RESEARCH, 
                 DEVELOPMENT, AND ACQUISITION)

    Admiral Architzel. Thank you. Mr. Chairman, Senator Thune, 
and distinguished members of the subcommittee, it's an honor to 
appear before you today to discuss the Department of the Navy's 
TACAIR programs. I would like to submit my statement for the 
record.
    Senator Lieberman. Without objection.
    Admiral Architzel. The Department of the Navy's acquisition 
teams develop, test, and acquire the country's naval aviation 
weapon systems; balancing performance schedule and cost 
effectiveness. Therefore, our fiscal year 2010 budget supports 
the Navy and Marine Corps joint forces capable of meeting the 
wide spectrum of threats to our Nation both today and in the 
future. The Department continues the development and low rate 
initial production (LRIP) of the F-35 Lightning II, the E-2D 
Advanced Hawkeye, the CH-53K Heavy Lift Replacement aircraft, 
the P-8A Poseidon, unmanned aviation, and new strike weapons 
capabilities. We will procure our first full rate production 
EA-18 Growler this year and continue procurement of the F/A-18 
E/F Hornet, the V-22, T-6B Joint Primary Aircraft Training 
System, UH-1 and AH-1Z helicopters, and MH-60R/S helicopters. 
In total, Navy and Marine Corps aviation will procure 98 
tactical and fixed-wing aircraft, 100 rotary-wing aircraft, and 
5 Vertical Takeoff and Landing Tactical Unmanned Aerial 
Vehicles (VTUAVs) for a total of 203 aircraft for this fiscal 
year 2010 funding. The Navy is committed to funding and 
fielding the JSF as a highly capable fifth-generation multi-
mission strike fighter. The JSF is in its 8th year of design, 
development, and testing. Three system design and development 
(SDD) aircraft are in ground and flight tests. All F-35 
variants are projected to meet their respective key performance 
parameters (KPPs). The F135 engine has completed some 11,300-
plus test hours and on 16 different engines through mid-April 
2009.
    Systems integration testing continues on plan via flight 
tests, a flying lab, and over 150,000 hours of ground labs 
testing. A fully integrated mission systems jet will fly in 
2009.
    The F/A-18 E/F Super Hornet and the EA-18 Growler alliance 
continue delivering a superior capability to the warfighter, on 
cost and on schedule. We have delivered 383 Super Hornets and 
11 Growlers to the fleet and procured 529 of those aircraft 
total through April 2009.
    The program continues to make technological advances in 
concert with the required spiral development plan. Earlier this 
year, we deployed our first and second F/A-18E/F squadrons with 
the new APG-79 active electronically scanned array radar aboard 
CVN-76 and CVN-73 with outstanding results; this concludes a 
significant realized increase in reliability and performance. 
I'd like to emphasize the good news acquisition story of the 
EA-18 Growler, built in an integral fashion with Lot 30 F/A 
18Fs. It became a part of the multi-year plan initially with 
the Hornets and is also in leverage in the fiscal year 2010 
single year buy of that Hornet.
    With operational tests complete, we have delivered 13 
aircraft to Whidbey Island and are on track for initial 
operating capability (IOC) later this year. In fiscal year 2010 
we will procure 22 production aircraft of Growlers. The E-2D 
Advanced Hawkeye program has completed over 92 percent of the 
system development and demonstration program and operational 
assessment and currently has two aircrafts in flight test. This 
program is absolutely critical to the Navy in maintaining our 
continued superiority in TACAIR operations against defense 
threats.
    Funding reductions resulted in the loss of two aircraft in 
fiscal year 2009 and major perturbations in budget 
appropriations, as was experienced in fiscal year 2009, would 
not allow the success that is demanded by today's fiscal 
environment and this committee.
    Another good news story is the P-8A Poseidon acquisition 
program. We are leveraging the efficiencies of the commercial 
production product, Boeing 737, to realize a technologically 
advanced product in a shortened acquisition time line. This 
aircraft will be delivered only 9 years after program 
initiation and will be both capable and affordable.
    In fiscal year 2010 we will procure six LRIP-1 aircraft. 
The program will commence flight tests later this year and IOC 
in fiscal year 2013. This weapons system fills a critical need, 
replacing legacy P-3 maritime patrol aircraft in the fleet of 
tomorrow.
    Lastly, we remain committed to the vision to meld unmanned 
and manned aircraft systems in the future of naval aviation by 
exploring, producing, and delivering shore- and sea-based 
systems such as short takeoff unmanned aircraft, vertical 
takeoff unmanned aircraft, and the Broad Area Maritime 
Surveillance Unmanned Airlift System (BAMS). The VTUAV has 
completed its shipboard landing tests aboard the USS McInerney, 
FFG-8, and the BAMS demonstrator has deployed and commenced 
operations within U.S. Central Command (CENTCOM) area of 
responsibility (AOR).
    Our current Navy Unmanned Carrier Aviation System 
demonstration efforts include maturing technologies for actual 
aircraft carrier catapult launches and recoveries in the 
future, as well as operation in carrier-controlled air space.
    I'd like to close by emphasizing our commitment to 
advancing state-of-the-art acquisition excellence. One of the 
cornerstones of our improvement activities is the Department's 
six-gate, two-pass governance process. We are seeing 
improvements in our ability to assess program risk and status 
and we are making better decisions that will lead to more 
capable and more affordable weapons systems.
    It is an honor to testify before the subcommittee today and 
I welcome your questions regarding the Department of Navy's 
aviation programs.
    [The joint prepared statement of Admiral Architzel, General 
Trautman, and Admiral Myers follows:]
Joint Prepared Statement by VADM David Architzel, USN; Lt. Gen. George 
          J. Trautman III, USMC; and RADM Allen G. Myers, USN
    Chairman Lieberman, Senator Thune, and distinguished members of the 
subcommittee, thank you for providing us with this opportunity to 
appear before you to discuss the Department of the Navy's aviation 
programs. Your Navy/Marine Corps team remains engaged around the world, 
and naval aviation is in the fight, every day, in support of our forces 
in harm's way. For nearly 8 years, we have been at an extraordinarily 
high operational tempo, and we will stay at that tempo as long as our 
Nation requires it. Your naval service is serving honorably and well, 
and we are guided by our tradition and history while we keep an eye on 
our future. The significant accomplishments of those who serve this 
great Nation are a direct reflection of the tireless efforts and the 
consistent support of the military by this subcommittee. Thank you for 
your dedication, and for your oversight.
                    naval aviation programs overview
    The fiscal year 2010 President's budget implements a 
recapitalization strategy for new capabilities and initiatives, reduced 
operating costs, and sustainment of legacy fleet aircraft that are 
performing magnificently in current operations. We continue to work 
with industry in seeking ways to reduce costs such as contracting 
strategies on the F/A-18E/F airframe, the H-1 airframe, the F-35, the 
MH-60R/S, and the MV-22. As an example of our dedication to stewardship 
of the public's trust and funding, we are implementing a `prototype' 
strategy on the Joint Air-to-Ground Missile (JAGM) to ensure high 
technology readiness and reduced risk prior to entering system 
development and demonstration (SDD). The Department continues the 
development and low rate procurement of the F-35, both the B and C 
models, and continues the development of the E-2D Advanced Hawkeye, the 
EA-18G, the CH-53K Heavy Lift Replacement aircraft, unmanned aircraft 
systems, and new strike weapons capabilities. In total, with our fiscal 
year 2010 funding, Navy/Marine Corps aviation will procure 98 
additional tactical and fixed-wing aircraft, 100 rotary-wing aircraft, 
and 5 VTUAVs for a total of 203 aircraft.
              tactical aircraft/tactical aircraft systems
F-35 Joint Strike Fighter
    The fiscal year 2010 President's budget requests $1.7 billion in 
research, development, test, and evaluation (RDT&E) and $4.7 billion in 
Aircraft Procurement, Navy (APN) for 20 Joint Strike Fighter (JSF) 
aircraft (16 F-35B and 4 F-35C) and associated spares. The commonality 
designed into the joint F-35 program will minimize acquisition and 
operating costs of Navy and Marine Corps tactical aircraft, and allow 
enhanced interoperability with our sister Service, the United States 
Air Force, and the eight partner nations participating in the 
development of this aircraft. This aircraft will give combatant 
commanders greater flexibility across the range of military operations. 
A true fifth-generation aircraft, the F-35 will enhance precision 
strike capability through unprecedented stealth, range, sensor fusion, 
improved radar performance, combat identification and electronic attack 
capabilities compared to legacy platforms. It will also add 
sophisticated electronic warfare capabilities, as compared to the 
legacy platforms it will replace, and will tie together disparate units 
scattered across the battlefield, in real time. The F-35C carrier 
variant (CV) complements the F/A-18E/F Block II and EA-18G in providing 
survivable, long-range strike capability and persistence over the 
battlefield. The F-35 will give the ESG  and  CSG  commanders  a  
survivable  ``Day-One''  strike  capability  in  a  denied  access  
environment  that  cannot  be  accomplished  by  current  legacy  
aircraft. The  F-35B short take-off vertical landing (STOVL) variant 
combines the multi-role versatility and strike fighter capability of 
the legacy F/A-18 with the basing flexibility of the AV-8B. Having 
these capabilities in one aircraft will provide the Joint Force 
Commander and the MAGTF Commander unprecedented strategic and 
operational agility.
    The Marine Corps' tactical aviation (TACAIR) fixed-wing platforms, 
used for direct support to our ground combat marines in the fight, are 
the AV-8B Harrier, the F/A-18 A+/C/D Hornet and the EA-6B Prowler. 
These aircraft are approaching the end of their planned service lives, 
and the Marine Corps, through careful service life extension programs, 
has managed these legacy platforms to bridge our aviation force until 
future airframes come on line. The Marines' F-35B will replace both the 
AV-8B and F/A-18 A+/C/D, as well as fill a large portion of the EA-6B 
mission as part of a networked system of systems. The Marine Corps 
intends to leverage the F-35B's sophisticated sensor suite and very low 
observable (VLO), fifth-generation strike fighter capabilities, 
particularly in the area of data collection, to support the Marine Air-
Ground Task Force (MAGTF) well beyond the abilities of today's strike 
and EW assets.
    Three SDD jets (AA-1, BF-1, and BF-2) are in flight testing. The 
remaining SDD jets and ground test articles, plus low rate initial 
production (LRIP) I and LRIP II aircraft, are in various stages of 
production. The SDD jets are setting new standards for quality and 
manufacturing efficiencies that improve with each jet. In flight 
testing, the initial conventional takeoff and landing (CTOL) aircraft 
(AA-1) has demonstrated superb performance and reduced program risk, 
with 81 sorties (111 flight hours) flown through April 20, 2009. BF-1, 
the first STOVL flight test jet, first flew in June 2008, on the 
schedule established 2 years prior. BF-1 has flown 14 flights (13 
hours), and is currently on the hover pit, undergoing vertical engine 
operations. BF-2 first flew February 2009 and returned with no flight 
discrepancies noted. BG-1 static test results are favorable. The F135 
engine has completed 11,300+ test hours on 16 engines through mid-April 
2009. Software is 74 percent complete, with 13 million lines of code 
released including Block 0.5 mission systems, per the spiral 
development plan/schedule and with record-setting code-writing 
efficiencies. Software demonstrates stability across multiple mission 
system subsystems.
    Systems integration testing continues on plan via flight tests, a 
flying lab and over 150,000 hours of ground labs testing. A fully 
integrated mission systems jet will fly later this year. The second 
production lot contract was signed below the cost model prediction. 
LRIP III contract negotiations are near complete, and LRIP IV advance 
procurement funding is on contract. All F-35 variants are projected to 
meet their respective key performance parameters. The F-35 plan for 
incremental blocks of capability balances cost, schedule and risk.
F/A-18 E/F Super Hornet
    The  fiscal  year  2010  President's  budget  requests  $1.1  
billion  in  APN  for  nine  F/A-18 E/F Block II aircraft. The F/A-18E/
F continues to transition into the fleet, improving the survivability 
and strike capability of the carrier air wing. Super Hornets and legacy 
F/A-18A-D Hornets have conducted more than 80,000 combat missions in 
support of Operations Iraqi Freedom (OIF) and Enduring Freedom (OEF) 
since September 11, 2001. While deployed both on the ground and at sea 
aboard our aircraft carriers, F/A-18s have dropped 4,600 precision 
ordnance Joint Direct Attack Munitions and more than 19,000 laser-
guided munitions, and have shot countless rounds of 20mm ammunition 
during strafing runs. These aircraft continue to provide vital 
overwatch and direct support to our troops on the ground in Iraq and 
Afghanistan.
    The Super Hornet provides a 40 percent increase in combat radius, 
50 percent increase in endurance, and 25 percent increase in weapons 
payload over our older, legacy Hornets. Over 449 F/A-18E/Fs will have 
been procured through fiscal year 2009. The program is on track to 
complete procurement of the program of record of 506 aircraft by 2012. 
The Super Hornet has used an incremental development approach to 
incorporate new technologies, such as the Joint Helmet Mounted Cueing 
System, Advanced Targeting Forward Looking Infra-Red, with shared real-
time video, Shared Reconnaissance Pod System and Multifunctional 
Information Distribution System data-link. The APG-79 active 
electronically scanned array (AESA) radar system, in the Block II 
aircraft, has completed operational testing, achieved full rate 
production (June 2007) and material support date (December 2008). Four 
fully operational AESA-equipped F/A-18E/F squadrons have been 
transitioned and two  squadrons  have  been  deployed  with  full  
integrated  logistics  support. The  F/A-18E/F fiscal year 2010 budget 
request also includes $102.0 million in APN to implement commonality, 
maintain capabilities and improve reliability and structural safety.
F/A-18 A/B/C/D (Legacy) Hornet
    The fiscal year 2010 President's budget request is $277.7 million 
in APN for the continuation  of  the  systems  upgrade  programs  for  
the  F/A-18  platform. As  the  F/A-18  program  transitions  to  the  
F/A-18E/F and JSF, today's inventory of 624 F/A-18 A/B/C/Ds will 
continue to comprise half of the Navy's strike fighter inventory until 
2013. Included in this request is the continued procurement of recently 
fielded systems such as the Joint Helmet Mounted Cueing System, 
Advanced Targeting Forward-Looking Infrared (FLIR), Multi-Function 
Information Distribution System and a Digital Communications System. 
The Marine Corps continues to upgrade 56 Lot 7-9 F/A-18A models and 30 
Lot 10/11 F/A-18C models to a Lot 21 F/A-18C avionics aircraft 
capability with digital communications and a tactical data link. The 
Marine Corps anticipates programmed upgrades to enhance the current 
capabilities of the F/A-18C/D with digital communications, tactical 
data link and tactical reconnaissance systems. This upgrade ensures 
that our F/A-18s remain viable and relevant in support of tactical air 
integration and expeditionary maneuver warfare.
    The Marines are planning for and expect the F/A-18(A+/C/D) to 
remain in the active inventory until 2023. The Marines are also 
employing the Litening targeting pod on the F/A-18A+/C/D aircraft in 
expeditionary operations including OIF and pending employment in OEF. 
When combined with data link hardware, the Litening pod provides real-
time video to ground forces through Remotely Operated Video Enhanced 
Receiver (ROVER) workstations. Continued analysis of TACAIR inventories 
will continue throughout 2010, in the QDR and beyond to determine the 
health of the legacy F/A-18A-D fleet.
Airborne Electronic Attack (AEA)/EA-18G Growler
    The fiscal year 2010 President's budget request is $55.4 million in 
Research, Development, Test, and Evaluation, Navy (RDT&E,N) for the 
completion of SDD and $1.6 billion in APN for 22 full rate production 
EA-18G Lot 4 aircraft. The EA-18G continues its development as the 
Navy's replacement for the EA-6B AEA aircraft. The EA-18G will replace 
carrier-based Navy EA-6B aircraft by 2013. A total quantity of 27 
aircraft will be procured in LRIP. The Navy is using the F/A-18E/F 
single year procurement SYP contract to buy the Lot 4 aircraft in 
fiscal year 2010. The program began operational evaluation in fall 
2008. The Fleet Replacement Squadron (FRS) has achieved ready for 
training (RFT) and the first deployable EA-18G squadron is on schedule 
for a August 2009 safe for flight, leading to initial operating 
capability (IOC) in fiscal year 2009 and full operating capability 
(FOC) in fiscal year 2012. The EA-18G program of record is 88 aircraft.
Airborne Electronic Attack (AEA)/EA-6B Prowler
    The EA-6B is in near-continuous use in Iraq and Afghanistan today 
in support of our troops on the ground as DOD's only tactical 
electronic attack aircraft performing communications jamming and 
information operation missions. The program's key issue is current 
readiness of the EA-6B. The fiscal year 2010 President's budget request 
is $40.0 million in APN for procurement of critical airborne electronic 
attack (AEA) products and continuing EA-6B readiness improvements, to 
increase operational availability and reduce operating cost of this 
low-density/high-demand aircraft. EA-6B upgrades include procuring 32 
low-band transmitters to provide a new jamming capability, replacing 
aging transmitters to be employed on legacy EA-6B and new EA-18G 
aircraft. The budget request also provides for operational safety and 
cost-wise readiness improvement initiatives to ensure availability and 
safety of the aging EA-6B aircraft.
    The Navy and Marine Corps remain fully committed to the EA-6B as we 
continue to enhance our legacy capabilities. The EA-6B continues to 
maintain an extremely high deployment tempo, supporting operations 
against growing and diverse irregular warfare threats. The EA-6B, when 
deployed to Iraq, has the highest utilization rate of any aircraft in 
our inventory: five times its peacetime utilization. The fiscal year 
2010 budget requests $11 million for EA-6B operational sustainment. 
Ongoing structural improvements and the planned Improved Capabilities 
III upgrades have extended the aircraft's service life, and will 
deliver increased capability through its program of record of 2016.
    The fiscal year 2010 President's budget request is $128 million of 
RDT&E, Navy (RDT&E,N) for Next Generation Jammer (NGJ) analysis of 
alternatives and technology maturation. The JSF will leverage this 
remarkable asset when it comes on line. NGJ will begin competitive 
technology maturation efforts to mature technology to system level 
prototypes in preparation for engineering and manufacturing development 
phase. NGJ will combat evolving electronic attack communication and 
radar targets, and will adopt an adaptable, modular, and open 
architecture philosophy to enable future growth.
AV-8B Harrier
    The AV-8B continues to be widely deployed in support of OIF and 
OEF. Each Marine Expeditionary Unit that sails does so with embarked 
AV-8Bs. The Harrier recently ended a highly successful 6-year rotation 
in Iraq, and now are in the vanguard of the Marine Expeditionary 
Brigade deploying into Afghanistan. We intend to make use of its 
weapons, sensors and basing flexibility in that austere environment.
    Fiscal year 2010 budget requests $20.9 million RDT&E funds to 
support development of the AV-8 Engine Life Management Plan (ELMP)/
Engine Monitoring System, Tactical Moving Map Capability, the Readiness 
Management Plan (RMP), and Digital Improved Triple Ejector Racks 
(DITER). The DITER effort will increase the digital weapons carriage 
capability of the Harrier to better support combat operations. The 
fiscal year 2010 budget also requests $35.7 million procurement funding 
for the Open Systems Core Avionics Requirement, ELMP upgrades, and the 
RMP, which addresses aircraft obsolescence and deficiency issues 
associated with sustaining the current AV-8B fleet. The Litening 
targeting pod also will be upgraded, to better support the Marine 
Corps' warfighter on the ground. When combined with data link hardware 
and the Rover ground station, the Litening pod adds a new dimension to 
precision fires and to intelligence, surveillance, and reconnaissance 
(ISR). Finally, the AV-8B program is upgrading 1 day attack aircraft to 
a night attack configuration as part of the attrition recovery effort 
needed to address significant legacy inventory shortfalls until we 
transition to the F-35B.
Strike Fighter Trends
    Our aviation plan balances aviation capabilities through cost-wise 
investments in recapitalization, sustainment, and modernization 
programs. One of the issues we will be dealing with in the Quadrennial 
Defense Review (QDR) process is the implications of naval inventory 
trends. We are updating the inputs to the predictive model and will 
have an updated assessment for evaluation during the QDR.
    F/A-18A/B/C/D aircraft are reaching life limits and will require 
extensions to bridge the gap to JSF. The Service Life Assessment 
Program (SLAP) assessed the airframe's potential for life extension. 
The SLAP analytical data necessary to determine extension to 10,000 
flight hours was released in May 2008. Estimated cost data to support 
the extension was released in November 2008. A budget quality rough 
order of magnitude cost for engineering change proposals is in 
development to support the Service Life Extension Program.
    A combination of addressing variables and mitigating strategies 
will lead to a solution for this issue. We will continue to optimize 
and balance our inventory while investing in the future.
                          fixed-wing aircraft
P-8A Poseidon
    The future of the Navy's maritime patrol force includes plans for 
sustainment, modernization, and re-capitalization of the force. The 
fiscal year 2010 President's budget request is $1.162 billion for 
development and $160.5 million for advanced procurement of the P-3 
replacement aircraft, the P-8 Poseidon. Fiscal year 2010 development 
funding will support the continued development of the P-8A and 
associated test. Fiscal year 2010 procurement funding will support the 
procurement of the first six LRIP P-8A aircraft which are scheduled to 
begin delivery in February 2012 and advanced procurement for subsequent 
lots of LRIP. The program is on track for fielding in late fiscal year 
2013 when the first squadron will have transitioned and be ready to 
deploy forward in support of the combatant commander.
    The program completed the Interim Program Review in April 2009 and 
awarded the advanced acquisition contract for low rate initial 
production advanced procurement. Boeing is currently building the fifth 
of eight test aircraft. These first five test articles (three flight 
test aircraft and two ground test articles) are on schedule for 
delivery in accordance with the revised plan designed to recover from 
the 2 month machinist strike that interrupted progress last fall. The 
first flight of the first flight test article occurred on April 25, 
2009, in Seattle, WA. The start of flight testing is on-schedule to 
commence in the fourth quarter of this fiscal year.
P-3C Orion
    The P-3 is being sustained to keep the aircraft a viable warfighter 
until it is replaced by P-8. Results of the P-3 Service Life Assessment 
Program revealed the need for an aggressive approach to P-3 airframe 
sustainment. The accumulation of two decades of heavy demand by the 
combatant commanders, to include OEF and OIF, has resulted in advanced 
fatigue. In fiscal year 2010, $485.2 million is requested to sustain 
the P-3C until transition to the P-8A Multi-Mission Maritime aircraft. 
More than half of this amount ($349.6 million) is for Special 
Structural Inspections-Kits (SSI-K), which will allow for airframe 
sustainment to support the CNO's P-3 Fleet Response Plan, as well as 
supporting EP-3E requirements which are executed within the P-3 SSI-K 
program.
    In December 2007, ongoing refinement of the model used to calculate 
wing stress indicated that the lower wing surface of the P-3 aircraft 
had fatigue beyond standards for acceptable risk resulting in the 
grounding of an additional 39 P-3 aircraft; 4 more aircraft have since 
been grounded, 2 in calendar year 2008 and 2 in March 2009. Key 
elements of the sustainment approach are strict management of 
requirements and flight hour use, special structural inspections to 
keep the aircraft safely flying, and increased use of simulators to 
satisfy training requirements. In fiscal year 2010, a systems 
sustainment and modernization budget of $135.6 million is requested to 
continue to address a multitude of mission essential efforts to replace 
obsolete components, integrate open architecture technology, and 
leverage commonality.
EP-3 Aries Replacement/Sustainment
    The Navy plans to recapitalize its aging EP-3E fleet with a land-
based, manned, airborne intelligence, surveillance, reconnaissance, and 
targeting platform, called EP-X, to meet maritime requirements. In 
fiscal year 2010, the President's budget request is $12.0 million in 
RDT&E,N funds for this effort to support studies focused on 
capabilities, documentation, and technology development. In fiscal year 
2010, the President's budget request is $46.2 million in RDT&E,N and 
$92.5 million in APN to address EP-3E SIGINT sensor and communications 
equipment obsolescence issues that are necessary to keep the EP-3E 
viable until the replacement platform is fielded, and to develop 
follow-on capabilities that can be migrated to the EP-X. This funding 
supports procurement associated with obsolescence upgrades, and 
engineering development for JCC Spiral 3 and Recapitalization 
Capabilities Migration (RCM).
E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye (AHE) is a critical enabler of 
transformational intelligence, surveillance, and reconnaissance 
capability by providing robust overland and littoral detection and 
tracking of current and future aircraft and cruise missile-type 
targets. The E-2D Advanced Hawkeye replaces the current E-2C Hawkeye 
aircraft. The radar for the Advanced Hawkeye will provide enhanced 
capability in the overland and the littoral environment, in addition to 
the open ocean environment, while improving performance against clutter 
and small targets, adding transformational surveillance and theater air 
and missile defense capabilities. In fiscal year 2009 Congress 
appropriated $385.7 million in APN-1 for two LRIP Lot I aircraft and 
advanced procurement for fiscal year 2010 LRIP Lot II aircraft. This 
funds one fewer aircraft than the number requested in the fiscal year 
2009 President's budget request and underfunds advanced procurement for 
fiscal year 2010 LRIP Lot II aircraft. An `operational assessment' was 
completed in first quarter fiscal year 2009 to support a Milestone C 
decision in third quarter 2009. Fiscal year 2010 President's budget 
requests $364.557 million in RDT&E,N for continuation of SDD and 
$606.169 million in APN-1 for two LRIP Lot II aircraft and advanced 
procurement for four fiscal year 2011 LRIP Lot III aircraft.
KC-130J Hercules
    The Marine Corps' KC-130J Hercules aircraft are invaluable 
workhorses, deployed continuously in support of OIF and OEF. These 
aircraft primarily provide multi-mission tactical aerial refueling, but 
also provide fixed-wing assault support through standard cargo and 
aerial delivery missions to dispersed units. Soon, these aircraft will 
increase their warfighting contribution with the incorporation of 
``Harvest Hawk,'' which provides support for ground forces through a 
roll-on/roll-off ISR/weapon system.
    The recent combat introduction of the aerial-refuelable MV-22, 
combined with the retirement of the legacy KC-130F/R fleet last year, 
requires accelerated procurement of the KC-130J. The Marine Corps is 
programmed to procure a total of 63 KC-130J aircraft by the end of 
fiscal year 2015. To date, 34 new aircraft have been delivered and 13 
more are either on contract, or in contract negotiations, for a total 
of 47. This is still four aircraft short of the inventory objective of 
51 KC-130Js for the active force. Ultimately, the Marine Corps will 
seek to replace our 28 Reserve component KC-130T aircraft with KC-
130Js, thus necking down our aerial refueling force to a single type/
model/series of aircraft.
    The Navy intends to replace its aging C-130T aircraft with 25 KC-
130J as the most cost effective means for addressing growing 
obsolescence and supportability issues.
T-6B Joint Primary Air Training System (JPATS)
    The T-6 is the primary flight training aircraft for Navy and Marine 
Corps pilots and naval flight officers, replacing the T-34C. The 
current requirement is for 315 aircraft, of which 162 aircraft have 
been procured and 52 aircraft delivered to date. The fiscal year 2010 
President's budget request includes $266.5 million to procure 38 
aircraft under an Air Force contract. We are also dedicated to 
sustainment of the TH-57, the training helicopter for Navy and Marine 
Corps helicopter pilots, and the T-45, the training jet for our future 
jet pilots and naval flight officers.
                  rotary-wing and tilt-rotor aircraft
V-22 Osprey
    The MV-22B Osprey is now combat-tested and ready for deployment 
anywhere throughout the world. As our premier medium lift assault 
support platform, the Osprey brings unprecedented range, speed, and 
survivability to the warfighter, in a platform  that  far  exceeds  the 
 capabilities  of  the  CH-46E  it  is  replacing. The  MV-22B has been 
supporting our marines in combat continuously since October 2007, with 
the third successive squadron recently completing a highly successful 7 
month rotation in support of OIF just last month. In Iraq, Osprey 
squadrons have logged over 9,000 flight hours, carried over 40,000 
passengers, and lifted over 2 million pounds of cargo while flying 
every mission profile assigned by the Multi-National Force-West 
Commander.
    As we continue to explore the tremendous capabilities of tilt-rotor 
aircraft and look forward to employing Osprey both aboard ship and in 
new theaters of operation, we are learning valuable lessons with 
respect to reliability and maintainability. Like other types of 
aircraft in the early operational phase of their lifecycles, the MV-22 
has experienced lower-than-desired reliability of some components and 
therefore higher operations and support costs. With the cooperation and 
support of our industry partners, we are tackling these issues head on, 
with aggressive logistics and support plans that will increase the 
durability and availability of the parts needed to raise reliability 
and concurrently lower operating costs of this aircraft.
    The fiscal year 2010 President's budget request includes $2.3 
billion in APN for procurement of 30 MV-22s and continued development 
of follow-on block upgrades. Fiscal year 2010 is the third year of the 
V-22 MYP contract. Our MYP strategy supports a continued cost reduction 
and affordability trend, provides a stable basis for industry, and best 
supports the needs of the warfighter. The fiscal year 2010 
appropriations will fully fund Lot 14 and procure long-lead items for 
Lot 15 under the V-22 multi-year contract.
    V-22 capability is being increased and fielded over time via a 
block upgrade acquisition strategy. MV-22B Block A aircraft are now 
predominantly used in the training squadrons. Block B aircraft are 
being fielded with our operational squadrons and continue to be 
delivered via the current MYP. Block C aircraft will provide additional 
mission enhancements, primarily in the areas of environmental control 
systems upgrades, weather radar, and mission systems improvements. The 
targeted delivery for Block C aircraft is Lot 14, fiscal year 2012. The 
CV-22 variant provides a capability that will augment the MC-130 in the 
Air Force/Special Operations Command inventory for special operations 
infiltration, extraction, and resupply missions. CV-22 Block 0/10 is a 
CV-unique configuration for Special Operations Capabilities  to  
include  multi-mode  radar  and  electronic  countermeasures  upgrades. 
CV-22 Block 20 will provide an enhanced CV-unique configuration with 
planned communications and aircraft system performance upgrades. The 
CV-22 program has completed IOT&E and a successful trans-Atlantic 
operational deployment in support of an exercise in Africa.
AH-1Z/UH-1Y
    The H-1 Upgrades Program will replace the Marine Corps' AH-1W and 
UH-1N helicopters  with  state-of-the-art  AH-1Z  and  UH-1Y  models. 
The  legacy  fleet  of  AH-1W and UH-1N aircraft have proven enormously 
effective over decades of heavy use, and as these aircraft reach the 
end of their service lives we look forward to expanding utility and 
attack helicopter capabilities. The new Z and Y model aircraft will 
begin our process of linking the battlefield into a coherent whole. On 
the future battlefield, the Strikelink system will tie these airframes, 
their sensors and their weapons systems together with ground combat 
forces and fixed-wing aircraft, while weapons systems such as the 
Advanced Precision Kill Weapon System II (APKWS II) will provide the 
lethality in support our ground forces need.
    The fiscal year 2010 budget requests $32.8 million in RDT&E,N for 
continued product improvements and $780.4 million in APN for 16 UH-1Y 
and 12 AH-1Z aircraft. The program is a key modernization effort 
designed to resolve existing safety deficiencies, enhance operational 
effectiveness, and extend the service life of both aircraft. 
Additionally, the 84 percent commonality between the AH-1Z and UH-1Y 
will significantly reduce life-cycle costs and logistical footprint, 
while increasing the maintainability and deployability of both 
aircraft. The program will provide the Marine Corps with 226 AH-1Z 
helicopters and 123 UH-1Y models through a combination of 
remanufacturing and new production. This represents an increase of 69 
aircraft above the previous inventory objective of 280 aircraft. The 
revised objective is driven by the need to increase our active duty 
light attack helicopter squadrons (HMLAs) from six to nine over the 
next several years as part of the Marine Corps' directed increase in 
force structure and manning.
    The UH-1Y aircraft achieved initial operational capability in 
August 2008 and full rate production in September 2008. The first three 
lots of low rate production aircraft have been delivered. The final 
phase of OPEVAL for the UH-1Y was completed and the aircraft was deemed 
operationally effective and suitable. AH-1Z development is continuing 
and the final phase of OPEVAL is scheduled to conclude in fiscal year 
2010. We are developing the capability to fabricate new some of the AH-
1Z aircraft to reduce the number of AH-1W aircraft removed from service 
for remanufacturing and to support the increased inventory objective 
which exceeds the quantity of existing AH-1W airframes. Fifty eight AH-
1Zs will be built new. This covers 46 additional aircraft for 
increasing inventory objective and twelve aircraft to cover required 
routine maintenance inspection cycles along with forecasted airframe 
lifetime fatigue and attrition rates
MH-60R and MH-60S
    The fiscal year 2010 President's budget requests $943.3 million for 
24 MH-60R aircraft and $82.0 million in RDT&E,N for continued 
replacement of the Light Airborne Multi-Purpose System MK III SH-60B 
and carrier-based SH-60F helicopters with the MH-60R. The $82.0 million 
is to continue development of the Ku-band data link, automatic radar 
periscope detection and discrimination program, which is a fleet-driven 
capability upgrade to the APS-147 Radar, and Mode V interrogation 
capability in its identification friend-or-foe system. The MH-60R is 
used in both the anti-submarine warfare (ASW) with its dipping sonar, 
sonobouys and torpedoes, and the surface warfare (SUW) roles with its 
electronics surveillance measures system, multimode radar with inverse 
synthetic aperture radar (ISAR), FLIR system, and Hellfire missiles. It 
has demonstrated three to seven times the capability in the ASW role 
and significant increases in its SUW capability over legacy systems. 
The MH-60R program is post-Milestone III, having received approval for 
full-rate production in 2006. The first operational squadron, HSM-71, 
established in 2007, is deploying in Carrier Strike Group Three with 
the USS John C Stennis (CVN-74). The MH-60R program has just finished 
installing its first pre-planned product improvement set of upgrades to 
include Link-16 and the multi-spectral targeting system (MTS) FLIR in 
time to make the first deployment.
    The fiscal year 2010 President's budget requests $493.0 million in 
APN for 18 MH-60S aircraft and $49.1 million in RDT&E,N funds for the 
MH-60S, to continue development of the organic airborne mine 
countermeasures (Block II) and the armed helicopter (Block III) 
missions. The MH-60S is the Navy's primary combat support helicopter 
designed to support carrier and expeditionary strike groups. It will 
replace four legacy platforms with a new H-60 variant. The basic MH-60S 
reached IOC and full rate production in 2002. Armed helo configuration 
reached IOC in June 2007 and AMCM is scheduled to reach IOC in fiscal 
year 2010. The MH-60S armed helicopter configuration is also on its 
first carrier deployment with the USS Stennis. HSC-8 is currently 
operating eight helicopters, including six aircraft in the armed helo 
configuration, adding the MTS targeting FLIR, Link-16, self defense 
equipment, two .50 caliber crew served weapons, and eight Hellfire 
missiles.
    The Army and Navy are executing a joint platform multi-year 
contract that includes both the MH-60R and MH-60S airframes along with 
the Army's UH-60M. The Navy is also executing a multi-year contract for 
integration of mission systems into the MH-60R.
CH-46E Sea Knight
    The venerable CH-46E continues to perform well, and is poised to 
maintain operational relevancy through its projected retirement in 
2018. The fiscal year 2010 budget requests $35.9 million targeted at 
safety enhancements in dynamic components, avionics, and aircraft 
survivability equipment. These will sustain the health of  the  
airframe  as  the  Marine  Corps  progresses  through  the  transition  
to  the  MV-22 Osprey. This fleet of helicopters will be over 50 years 
old when they retire, yet they are still relevant, still engaged in the 
fight, and still the workhorse of assault support to the Marine 
rifleman.
CH-53K Heavy Lift Replacement Program
    In fiscal year 2010 the President's budget requests $554.8 million 
RDT&E,N to continue SDD of the CH-53K, which will replace the Marine 
Corps' current heavy-lift helicopters, the CH-53E ``Super Stallion'' 
and the CH-53D ``Sea Stallion.'' In the past year the CH-53K program 
conducted its preliminary design review, has begun producing long-lead 
items in preparation for building test articles under the SDD contract, 
and is scheduled to conduct critical design review in fiscal year 2010.
    The legacy CH-53E was built for sustained shipboard operations, 
entered service in 1981, and continues to demonstrate its value as an 
expeditionary heavy-lift platform. This aging but very relevant 
helicopter is in high demand, making significant contributions to 
missions in Afghanistan, Iraq, and the Horn of Africa; and disaster 
relief operations around the world. Expeditionary heavy-lift 
capabilities will continue to be critical to successful land- and sea-
based operations in future anti-access, area-denial environments, 
enabling sea basing and the joint operating concepts of force 
application and focused logistics.
    As a design evolution of the CH-53E, the new-build CH-53K will 
fulfill land- and sea-based heavy-lift requirements not resident in any 
of today's platforms, and contribute directly to the increased agility, 
lethality, and persistent presence of Joint Task Forces and Marine Air-
Ground Task Forces. The CH-53K will transport 27,000 lbs. external 
cargo out to a range of 110 nautical miles, nearly tripling the CH-
53E's lift capability under similar environmental conditions while 
fitting under the same shipboard footprint. The CH-53K will also 
provide unparalleled lift capability under high altitude, hot weather 
conditions similar to those found in Afghanistan, thereby greatly 
expanding the commander's operational reach. Maintainability and 
reliability enhancements of the CH-53K will significantly decrease 
recurring operating costs, and will vastly improve aircraft efficiency 
and operational effectiveness over the current CH-53E. Additionally, 
survivability and force protection enhancements will increase 
protection dramatically, for both aircrew and passengers, thereby 
broadening the depth and breadth of heavy lift operational support to 
the JTF Commander. Until fielding begins, we will upgrade and maintain 
our CH-53D and CH-53E fleet for heavy lift support to our warfighters.
VH-71 Presidential Helicopter Replacement Aircraft
    The fiscal year 2010 President's budget recommends that the VH-71 
program be cancelled. The Department of the Navy is developing options 
for a follow-on program. The fiscal year 2010 budget requests $30.0 
million for pre-MS A risk reduction activities, capability based 
assessments, CONOPS development, trade study analysis, specification 
development, system concept development and threat analysis leading to 
a late fiscal year 2010/early fiscal year 2011 material development 
decision for a VH-71 follow on program. In addition, the fiscal year 
2010 President's budget requests $55.2 million to address fiscal year 
2010 VH-71 cancellation costs.
VH-3D/VH-60N Sustainment
    The fiscal year 2010 budget requests an investment of $42 million 
to continue programs that will ensure the aging legacy Presidential 
fleet remains viable until its replacement  is  fielded. These  
programs  include  the  Lift  Improvement  for  the  VH-3D and the 
Cockpit Upgrade Program and Structural Enhancement Program for the VH-
60N. Increased future investment in both aircraft will be required to 
ensure continued safe and reliable executive transportation until a 
replacement aircraft is fielded.
         survivability, support and command and control systems
Integrated Defensive Electronic Countermeasures
    Integrated Defensive Electronic Countermeasures (IDECM) Block 3/
ALE-55 completed initial operational test and evaluation in December 
2008. Based on the requirement to correct deficiencies identified 
during test, IDECM Block 3 full-rate production decision is now planned 
for fiscal year 2010 following verification of correction to 
deficiencies. Additional LRIP awards were approved for fiscal years 
2009 and 2010. The President's budget requests $25.8 million in 
Ammunition Procurement for 401 ALE-55 fiber optic towed decoys (FOTDs) 
in fiscal year 2010. $40.3 million in aircraft procurement (APN-5) is 
requested for the procurement of 10 ALQ-214 on-board radio frequency 
jamming systems (IDECM Block 2), 53 electronic frequency converters and 
other associated aircraft hardware for FOTD integration. IDECM Block 4 
is a modification to the ALQ-214 that will enable its use on F/A-18C/D 
aircraft, in addition to F/A-18E/F aircraft. IDECM Block 4 will replace 
the obsolete ALQ-126B on-board jammer, currently installed on F/A-18C/D 
aircraft. The President's budget requests $65.5 million in RDT&E in 
fiscal year 2010 for IDECM Block 4 development and test.
Aircraft Survivability Equipment
    To prevent current technology from lagging behind the threat, 
science and technology are developing next-generation helicopter 
survivability equipment. For fiscal year 2010, the Department of the 
Navy has requested $8.8 million for continued Directed Infrared 
Countermeasures (DIRCM) hardware procurement and $64.7 million for 
Joint Allied Threat Awareness System (JATAS) development to provide a 
state-of-the-art missile warning detection and cueing system. We will 
thus pace the threat of advanced anti-aircraft systems proliferation. 
Funds obligated to date for DIRCM have been used for development and 
procurement of 64 systems, which began delivery in October 2008. The 
remaining unfunded portion is for an additional 83 DIRCM systems, which 
equates to 2 years of production capacity, in 2009 and 2010.
Infrared Countermeasures
    The Navy has a multi-faceted approach to providing aircrew 
protection against current and next generation IR-guided Manportable 
Air Defenses. The fiscal year 2010 President's budget requests $63.7 
million in RDT&E,N for the execution of the JATAS technology 
demonstration efforts.
Joint Precision Approach and Landing Systems
    Joint Precision Approach and Landing Systems (JPALS) is a Global 
Positioning System-based precision approach and landing system that 
will replace aging and obsolete aircraft landing systems with a family 
of systems that is more affordable and will function in more 
operational environments, and support all Department of Defense land- 
and sea-based applications. JPALS will provide this capability by being 
rapidly deployable, survivable and interoperable among the U.S. 
Services and with U.S. allies, as well as with civil aircraft and 
landing facilities. JPALS will eventually support unmanned and highly 
automated aircraft, and will be able to operate during restricted 
emission control conditions. Milestone B was achieved third quarter 
2008 with a subsequent engineering and manufacturing development (EMD) 
contract awarded. The fiscal year 2010 President's budget requests 
$139.3 million in RDT&E,N in continued support of the EMD phase of the 
program.
                                weapons
    In an era of continuing global uncertainty and shifting threats, 
the Department of the Navy is developing and deploying air-to-air and 
strike weapons to enhance our warfighter's capabilities in an evolving 
and uncertain security environment. The naval aviation fiscal year 2010 
President's budget request for each new weapon or weapon system 
modification program is directed towards deterring potential 
aggressors, power-projection, sea-control, or other maritime and 
expeditionary warfare security objectives. Our budget provides 
resources for weapon systems that directly support troops deployed in 
the field--as well as weapon systems that will shape our plans to 
address potential near-peer competitors.
    The Navy/Marine Corps weapons programs take into account the 
lessons-learned from ongoing combat operations as well as the results 
of our research, development, and test efforts. The resulting fiscal 
year 2010 weapons budget provides for a portfolio of affordable weapons 
programs that is balanced between solutions to address Overseas 
Contingency Operations (OCO) threats and development of new military 
capabilities.
Tactical Tomahawk BLK IV Cruise Missile
    The Navy supports the continued procurement of this combat-proven, 
deep-attack weapon in order to meet ship-fill loadouts and potential 
combat requirements. The Block IV Tactical Tomahawk missile is in a 
full-rate production status and in fiscal year 2010 the President's 
budget requests $283.1 million for an additional 196 Block IV weapons 
and associated support.
Direct Attack Moving Target Capability
    In response to an urgent requirement identified by the combatant 
Commander in Iraq and Afghanistan, the Department of the Navy approved 
a rapid deployment capability (RDC) in fiscal year 2007 to develop the 
direct attack moving target capability, known as DAMTC. DAMTC improves 
our ability to attack and strike moving targets by leveraging highly 
successful, congressionally-supported procurement of dual-mode systems. 
The fiscal year 2010 President's budget requests $46.4 million to 
transition the RDC to a formal acquisition program, support a 
competitive acquisition strategy, and acquire 2,099 additional weapons 
from a single source through competition at reduced costs.
Joint Standoff Weapon (JSOW)
    The combat proven JSOW family of Joint Navy and United States Air 
Force air-to-ground weapons continues on cost and schedule to develop a 
JSOW-C-1 variant. JSOW-C-1 adds a `moving target capability' to the 
highly successful baseline JSOW-C variant with the addition of a data 
link and guidance software improvements. The fiscal year 2010 
President's budget requests $10.0 million for telemetry crypto-key 
modernization and continued JSOW-C-1 development and $145.3 million for 
JSOW-C-1 production totaling 430 all-up-rounds to fill our weapons 
magazines that remain below approved Non-Nuclear Ordnance Requirements.
Small Diameter Bomb II (SDB II)
    The Department of the Navy is partnering with the United States Air 
Force on the development of the Small Diameter Bomb II (SDB II) 
program. SDB II provides an adverse weather, day or night standoff 
capability against mobile, moving, and fixed targets, and also allows 
for target prosecution while minimizing collateral damage. SDB II is of 
special interest to the Department as it will be integrated into the 
`internal carriage' of both Navy and Marine Corps variants of the JSF. 
SDB II acquisition consists of a competitive development, risk 
reduction phase between two industry teams with a down-select at 
Milestone B estimated in early fiscal year 2010. The fiscal year 2010 
President's budget requests $43.9 million of RDT&E for the continued 
development of this joint program.
Joint Air-to-Ground Missile
    JAGM will become the next-generation, forward firing precision-
guided missile capable of being launched from Navy/Marine Corps fixed-
wing, rotary-wing, and unmanned platforms. The Department of the Navy, 
in conjunction with the United States Army as the executive service, 
received formal approval from USD(AT&L) to proceed with the development 
of the JAGM in January 2008. The JAGM request for proposal was released 
in March and proposals were received in May. In September 2008, fixed-
price incentive contracts were awarded.
    During the 27-month technology development phase, the two competing 
contractors will carry their design through a system-level preliminary 
design review (PDR) phase and conduct prototype ground launches of 
their missiles. The intent behind this competitive prototyping during 
the technology development phase is to improve the probability of 
overall program success and reduce program costs. To support this 
critical development program, the fiscal year 2010 President's budget 
requests $81.6 million of RDT&E to implement this acquisition strategy.
Hellfire Weapon System
    While the Department of the Navy develops JAGM, we are requesting 
continued support for legacy Hellfire weapons. Hellfire continues to be 
a priority weapon, providing our Navy/Marine Corps warfighters the 
ability to attack targets in the caves of Afghanistan as well as the 
urban canyons of Baghdad. The fiscal year 2010 President's budget 
requests $133.1 million for 1,578 weapons with a mix of thermobaric, 
blast/fragmentation, and anti-armor warheads to provide the maximum 
operational flexibility to our warfighters.
Advanced Anti-Radiation Guided Missile (AARGM)
    The AARGM development program transforms the legacy High-Speed 
Anti-Radiation Missile (HARM) into an affordable, lethal, and flexible 
time-sensitive strike weapon system. AARGM adds multi-spectral 
targeting capability with supersonic fly-out to destroy sophisticated 
enemy air defenses and expand upon the traditional anti-radiation 
missile target set. The program has completed all design reviews, began 
its formal test program in fiscal year 2007, was approved for low rate 
initial production  (LRIP)  in  fiscal  year  2008,  and  is  scheduled 
 to  be  deployed  on  the  F/A-18 Hornet in 2010. The fiscal year 2010 
President's budget requests $9.2 million for the development and test 
program and $48 million for production.
Advanced Precision Kill Weapon System II (APKWS II)
    The Department of the Navy assumed program authority for the APKWS 
II on September 30, 2008. Congress appropriated funding and approved an 
above threshold reprogramming request in fiscal year 2008 for the 
Marine Corps to complete SDD. The fiscal year 2010 President's budget 
requests $5.0 million in RDT&E funding to complete development and 
testing for subsequent fielding in fiscal year 2011. In the past year, 
we saw successful transfer of the laser-guided 2.75'' rocket contract 
from the Department of the Army to the Department of the Navy. This 
initiative will provide an unprecedented precision capability to our 
current unguided (and thus less accurate) rockets fired from attack 
helicopters. Congressional support in fiscal year 2008, with both a $6 
million addition and approval of a $13 million reprogramming request, 
provided the $19 million in fiscal year 2009 that will complete 
development of this critical weapon in anticipation of the 
procurement's beginning in 2010. The program is on schedule and on 
budget, and will meet the needs of our warfighters in theater right 
now.
Sidewinder AIM-9X Air-to-Air Missile
    The joint Navy/Air Force (Navy led) AIM-9X Sidewinder missile is 
the newest variant in the Sidewinder family. The Sidewinder missile is 
the only short-range infrared air-to-air missile integrated on USN/USAF 
strike fighter aircraft. This fifth generation-9X weapon incorporates 
high off-boresight acquisition capability and thrust vectoring to 
achieve superior maneuverability, and provides increased sensitivity 
through an imaging infrared focal plane array seeker and advanced 
processing. The fiscal year 2010 President's budget requests $2.3 
million for RDT&E efforts, and $56.8 million for production of 161 all-
up-rounds, captive air training missiles, and associated hardware.
Advanced Medium-Range Air-to-Air Missile (AMRAAM) AIM-120
    AMRAAM is a joint Navy/Air Force (Air Force led) advanced, medium 
range missile that counters existing aircraft and cruise missile 
threats with advanced electronic attack capabilities operating at high/
low altitudes from both beyond visual range and within visual range. 
AMRAAM provides an air-to-air first look, first shot, first kill 
capability working within a networked environment in support of the 
Navy's Sea Power-21 theater air and missile defense mission area. The 
fiscal year 2010 President's budget requests $3.6 million for RDT&E 
efforts and $145.5 million for production of a combined total of 79 
all-up-rounds, captive air training missiles and associated hardware.
                       unmanned aircraft systems
    Overseas contingency operations continue to emphasize unmanned 
aircraft systems (UAS). The fiscal year 2010 budget reflects our 
commitment to a focused array of UAS that will support targeting and 
fires as well as enhance intelligence, reconnaissance, and surveillance 
missions with persistent, distributed, and netted sensors. The naval 
services have recently adopted the joint categorization of UAS into 
distinct groups that identify systems by weight, speed, and altitude. 
In addition to the five programs of record noted below, a number of 
small, specialized systems in the Group 1 and 2 categories are being 
supported to meet the urgent needs of the warfighter (i.e. Gasoline 
Micro Air Vehicle, Raven-B, WASP III Micro-UAS, and Scan-Eagle).
Marine Corps Tactical UAS (MCTUAS)
    The Army's RQ-7B Shadow UAS is a Group 3 system procured as an 
interim replacement for the RQ-2B Pioneer UAS until a suitable Group 4 
UAS can be fielded in fiscal year 2015. The fiscal year 2010 
President's budget requests $1 million RDT&E and $56.8 million APN for 
continued product improvement and procurement of the RQ-7B. The 
transition to the RQ-7B Shadow began in fiscal year 2007 with the 
procurement of two systems and was augmented in fiscal year 2008 with 
the procurement of nine Shadow systems (five baseline systems and four 
global war on terror-funded systems). The Marine Corps will procure 13 
systems. The Shadow UAS provides rapid fielding of a capability that 
meets urgent Marine Corps operational requirements and brings immediate 
interoperability and commonality between Army and Marine Corps units 
operating side by side in Iraq and Afghanistan.
UAS/Small Tactical Unmanned Air Systems
    The fiscal year 2010 President's budget requests $37.4 million in 
RDT&E ($18.6 million Navy, $18.8 million Marine Corps, with a $6.0 
million fiscal year 2010 OCO request pending) and $13.8 million in PMC 
for the UAS/Small Tactical Unmanned Air Systems (STUAS) program that 
will address Marine Corps and Navy targeting and ISR capability 
shortfalls identified in the OCO and currently supported by costly 
service contracts. The Group-3 UAS will provide persistent, ship- and 
land-based targeting and ISR support for tactical level maneuver 
decisions and unit level force defense/force protection. The Milestone 
B decision to enter engineering and manufacturing development is 
scheduled for the fourth quarter of fiscal year 2009 with IOC planned 
in 2012. UAS/STUAS plans to begin source selection fourth quarter 
fiscal year 2009 for a contract award to coincide with the Milestone B 
decision. Fiscal year 2010 PMC is planned to procure a STUAS/Tier II 
system as an early operational capability, which consists of four air 
vehicles and two ground control stations.
Broad Area Maritime Surveillance UAS
    The fiscal year 2010 President's budget requests $465.8 million 
RDT&E,N to continue SDD of the Broad Area Maritime Surveillance (BAMS) 
UAS. The Milestone B decision for the BAMS UAS program occurred on 
April 18, 2008. The program conducted the first major design review, 
systems requirements review, in January 2009. The BAMS UAS program will 
meet the Navy requirement for a persistent ISR capability as well as 
providing a communication relay capability. The BAMS UAS is a larger 
Group-5 system which will be a force multiplier for the Fleet 
Commander, enhancing situational awareness of the battlespace and 
shortening the sensor-to-shooter kill chain. BAMS UAS will work as an 
adjunct to the new P-8A Multi-Mission Aircraft (MMA) to provide a more 
affordable, effective and supportable maritime ISR option than current 
ISR aircraft provide. The Navy also procured two Air Force Global Hawk 
UASs in fiscal year 2003 for demonstration purposes and to perform risk 
reduction activities for the BAMS Program. One of the two Global Hawk 
UAS, renamed the BAMS-demonstrator (BAMS-D) has been recently deployed 
to the CENTCOM theater of operations.
Fire Scout UAS
    The fiscal year 2010 President's budget requests $25.6 million 
RDT&E to continue development of the Fire Scout UAS and $77.6 million 
APN for the production of five Fire Scout MQ-8B aircraft and three ship 
control stations. The Fire Scout is a Vertical Takeoff and Landing 
Tactical Unmanned Aerial Vehicle (VTUAV) designed to operate from all 
air-capable ships, carry modular mission payloads, and operate using 
the Tactical Control System and Tactical Common Data Link. The Fire 
Scout UAS is a medium-to-large sized Group-4 system that will provide 
day/night real time ISR and targeting as well as communication-relay 
and battlefield management capabilities to support core Littoral Combat 
Ship mission areas of ASW, MIW and ASUW for the Naval forces. The 
fiscal year 2010 RDT&E budget request included funding to integrate a 
maritime search radar system that will significantly increase 
surveillance capability of the MQ-8B. Due to delays in the Littoral 
Combat System (LCS) program, the Department is certifying the MQ-8B 
system on the FFG-8 USS McInerney in order to meet Fleet requirements 
to deploy this capability, as planned, in fiscal year 2009. An above 
threshold reprogramming request for $22.8 million to the fiscal year 
2008 RDT&E budget was approved by Congress to support the Fire Scout 
FFG integration. The Fire Scout Program will continue to support 
integration and testing as a mission module on LCS. Deploying this 
capability in fiscal year 2010 on the USS McInerney will provide much 
needed new capability to operating forces and also reduce LCS 
developmental and operational test risks. Developmental testing of Fire 
Scout with the USS McInerney is in process. The Navy continues to 
cooperate with the Army on their Class IV UAS and with the Coast Guard 
for their ship based UAS planning. The Navy and Army have achieved over 
90 percent commonality in the Fire Scout air vehicle.
Unmanned Combat Air System
    The fiscal year 2010 President's budget requests $311.2 million of 
RDT&E budget to continue the Navy Unmanned Combat Aircraft System (Navy 
UCAS) efforts to develop a large Group-5, carrier-suitable, long range, 
low observable, penetrating, persistent, unmanned aircraft system 
capability to conduct ISR/strike missions in denied access 
environments. The Navy UCAS efforts consist of continuation of the UCAS 
carrier suitability demonstration (UCAS-D) along with the initiation of 
acquisition planning and associated technology development. The UCAS-D 
effort will mature technologies associated with unmanned carrier-
suitability, including launch, recovery, and carrier controlled 
airspace integration, to the technology readiness levels required for a 
potential follow-on acquisition program. The demonstration will include 
catapult launch and arrested landings aboard an aircraft carrier. 
Additionally, the program will demonstrate autonomous aerial refueling 
using the same unmanned systems from the carrier suitability 
demonstration. The demonstrations will be complete in fiscal year 2013 
though additional technology maturation will be required before 
entering a potential follow-on acquisition program. Northrop-Grumman, 
prime contractor for the UCAS carrier suitability demonstration, is 
currently on track for an early fiscal year 2010 first flight.
                                summary
    The fiscal year 2010 President's budget reflects considerable 
effort in identifying solutions to the challenges faced in the 
Department's aviation programs through a balance between sustaining 
fielded capabilities, as they are employed in the OCO and continued 
forward presence worldwide, and a substantive recapitalization effort 
that will deliver significantly better capabilities to the war fighter. 
The naval aviation team continues to work aggressively to identify 
efficiencies in the development, testing, procurement and sustainment 
of platforms, components, and weapons systems in order to ensure that 
investments made result in quality products and services provided to 
the fleet. Since 2001, the Navy and Marine Corps have been fighting 
shoulder to shoulder overseas, supporting an extremely high operational 
tempo in two theaters while growing our force, introducing new aircraft 
and systems, and looking beyond the current fight to how we will shape 
the naval aviation structure of the future.
    In closing, Mr. Chairman, we thank you for the opportunity to 
testify before your subcommittee regarding the Department of the Navy's 
aviation procurement programs. We look forward to your questions.

    Senator Lieberman. Thanks, Admiral. I appreciate it. Good 
beginning.
    Now we'll go to Lt. Gen. Mark D. Shackelford, USAF, 
Military Deputy, Office of the Assistant Secretary of the Air 
Force for Acquisition.

   STATEMENT OF LT. GEN. MARK D. SHACKELFORD, USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
                          ACQUISITION

    General Shackelford. Thank you, sir.
    Chairman Lieberman, Ranking Member Thune, distinguished 
members of the subcommittee, thank you for calling this hearing 
and for the opportunity to provide you with an update on Air 
Force modernization efforts. Your Air Force is fully engaged in 
operations across the globe, in overseas contingency operations 
and providing support to the combatant commanders to enable 
them to successfully execute their missions.
    As we prepare for the upcoming year, we will be assessing 
how the fiscal year 2010 budget aligns with our standing 
operational requirements, along with the upcoming needs of the 
entire Air Force. We frame our decisions and recommendations 
using the Secretary of the Air Force's and Chief of Staff of 
the Air Force's top five priorities list to ensure we are 
aligned with the desires of our senior leadership.
    We understand your focus today is on the fourth priority, 
modernizing our air and space inventories, organizations, and 
training. We are prepared to discuss how our rapidly aging 
aircraft fleet drives our urgent need to find a balance between 
the acquisition of new inventory and the ongoing sustainment of 
the current fleet.
    The Secretary and Chief of Staff of the Air Force have made 
recapturing acquisition excellence their fifth priority. Last 
month they approved the Air Force acquisition improvement plan. 
This plan focuses our efforts and serves as our strategic 
framework for the critical work of modernizing and 
recapitalizing our air, space, and cyber systems. It builds on 
lessons learned from past shortfalls in our procurement 
processes. But more importantly, it establishes five 
initiatives that ensure rigor, reliability, and transparency 
across the Air Force acquisition enterprise.
    Those five initiatives are: revitalizing the Air Force 
acquisition workforce, improving the requirements generation 
process, instilling budget and financial discipline, improving 
Air Force major systems source selections, and establishing 
clear lines of authority and accountability within acquisition 
organizations.
    Your Air Force stands ready to win today's joint fight and 
plan for tomorrow's challenges. I thank the subcommittee for 
allowing me to appear before you today and for your continued 
support of the Air Force. I request our combined written 
statement be submitted for the record and I look forward to 
your questions.
    [The joint prepared statement of General Shackelford and 
Major General Gibson follows:]
  Joint Prepared Statement by Lt. Gen. Mark D. Shackelford, USAF, and 
                      Maj. Gen. Marke Gibson, USAF
                            i. introduction
    Chairman Lieberman, Ranking Member Thune, and distinguished members 
of the subcommittee, thank you for calling this hearing, and for the 
opportunity to provide you with an update on the Air Force 
modernization efforts and other matters that are important to our Air 
Force and to the Nation. Your Air Force is fully engaged in operations 
across the globe, engaged in overseas contingency operations (OCO) and 
providing support to the combatant commanders to enable them to 
successfully execute their missions. As we prepare for the upcoming 
year, we will be assessing how the fiscal year 2010 budget aligns with 
the standing operational requirements along with the upcoming needs of 
the entire Air Force. We frame our decisions and recommendations using 
the SECAF/CSAF top five priorities list to ensure we are aligned with 
the desires of our senior leadership. We understand your focus today is 
on the fourth priority, which is modernizing our air and space 
inventories, organizations and training. We are prepared to discuss our 
rapidly aging aircraft fleet that drives our urgent need to find a 
balance between the acquisition of new inventory and the ongoing effort 
of sustainment of our current fleet. We look forward to a discussion on 
how best to interlace the requirements and the available resources that 
have been allocated in order to execute the National Military Strategy.
                         ii. winning the fight
    When it comes to winning today's fight your Air Force is ``All 
In.'' When we say ``All In,'' that covers a lot of ground. We, along 
with our sister Services, partner with the joint and coalition team to 
bring airpower wherever it is needed. The current operations in Iraq, 
Afghanistan, and the Horn of Africa highlight over 18 consecutive years 
of planning, resourcing and executing combat missions. Since OCO began 
in 2001, your Air Force has flown over 80 percent of the coalition's 
combat sorties in support of Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF). These missions provide the joint and 
coalition team with global airlift; aero-medical evacuation; air-
refueling; command and control; close air support (CAS) to ground 
operations; strike; intelligence, surveillance, and reconnaissance 
(ISR) and electronic warfare. We have flown over 385,000 mobility 
sorties dedicated to moving equipment and troops to and from the 
Central Command (CENTCOM) area of responsibility (AOR).
    The total air and space effort takes its toll on our equipment and 
people as we continue to maintain the high operations tempo over time. 
We currently have over 208,000 airmen contributing 24/7 to combatant 
command operations, including 35,800 airmen who are deployed to 
locations worldwide. When adding in the non-combat operations including 
humanitarian relief missions both globally and at home, and the air 
sovereignty alert (ASA) operations, the effects on the Air Force assets 
are tangible and measurable and are reflected in some of the problems 
we see in maintaining the current fleet. In direct support of the ASA 
mission, your Air Force has flown over 54,410 total sorties under 
Operation Noble Eagle, including 39,390 fighter sorties, 11,290 air 
refueling sorties, and 1,826 airborne early warning sorties. As a 
testament to the total force, the Air National Guard has flown more 
than 70 percent of these sorties and currently operates 16 of 18 Air 
Sovereignty Alert sites.
    As we continue to accomplish our current mission sets and plan for 
future threats, we must remain mindful of the increasing age and costs 
of operating our air fleet. When approaching critical budget decisions, 
we face the same challenge of balancing between risk and operational 
necessity as we do when apportioning sorties. Our Air Force leadership 
is scrutinizing programs and budgets to find acceptable solutions to 
meet growing demands that are competing for limited amounts of funding.
                iii. combat air forces restructure plan
    The Air Force intends to retire legacy fighters to fund a smaller 
and more capable force and redistribute savings for higher priority 
missions. Under the combat air forces (CAF) restructuring plan, the Air 
Force will accelerate the retirement of approximately 250 aircraft, 
which includes 112 F-15s, 134 F-16s, and 3 A-10s, over and above the 5 
fighters previously scheduled for retirement in fiscal year 2010. The 
CAF restructure will result in cost savings of $355 million in fiscal 
year 2010 and $3.5 billion over the next 5 fiscal years. The savings 
would fund advanced capability modifications to remaining fighters and 
bombers. Additionally, funds would go toward procuring munitions for 
joint warfighters, to include the small diameter bomb (SDB), hard-
target weapons and the AIM-120D and AIM-9X missiles. Remaining funds 
would be dedicated to procuring or sustaining critical intelligence 
capabilities, such as the advanced targeting pod, as well as enabling 
technologies for tactical air controllers and Special Operations 
Forces.
    The CAF restructuring plan, which will require appropriate 
environmental analyses, would enable the Air Force to use reassignment 
and retraining programs to move approximately 4,000 manpower 
authorizations to emerging and priority missions such as manned and 
unmanned surveillance operations and nuclear deterrence operations. 
This realignment would include the expansion of MQ-1 Predator, MQ-9 
Reaper and MC-12 aircrews; the addition of a fourth active-duty B-52 
squadron; and the expansion of Distributed Common Ground System and 
information processing, exploitation and dissemination capabilities for 
continued combatant commander support in Afghanistan and Iraq, among 
other adjustments.
               iv. status of combat aircraft acquisition
    The following information provides updates on Air Force combat 
aircraft modernization:
A-10
    The A-10 provides the Joint Force Commander lethal, precise, 
persistent, and responsive firepower for CAS and combat search and 
rescue (CSAR). It has performed superbly in Operations Desert Storm, 
Allied Force (OAF), OEF, and OIF. However, the age of the A-10 and high 
operations tempo have taken a toll on the fleet. In the Fall of 2006, 
the Air Force Fleet Viability Board (FVB) recommended that the Air 
Force upgrade 242 thin-skin center wing A-10 aircraft with thick-
skinned wing replacements; this program is currently designing the new 
wing and installs will begin in fiscal year 2011. Last fall, 
approximately 240 A-10s were grounded due to wing cracks. An inspect 
and repair program was implemented that has reduced the number still 
grounded to approximately 60; we anticipate these will all return to 
flying by the end of June 2009. Additionally, A-10 landing gear 
failures have resulted in a program for replacing failure-prone parts. 
The Air Force is currently upgrading 347 A-10s to the ``C'' 
configuration through the Precision Engagement (PE) modification and 
anticipates completion by the end of fiscal year 2011. This 
modification enables J-Series weapons, such as Joint Direct Attack 
Munitions (JDAM) and Wind Corrected Munitions Dispenser (WCMD); 
integrates a digital data link and advanced targeting pods with video 
downlink; replaces monochrome cockpit displays with color multi-
function displays; installs new pilot throttle and stick controls; adds 
a moving map capability and a mass-memory upgrade; and doubles current 
DC power. Additionally, we have integrated beyond line of sight radios 
into the A-10 for faster communication with ground units, forward 
controllers, and C2 centers.
F-15 A-D
    The average age of the F-15 A-D fleet is over 25 years old and the 
average age of the F-15E fleet is over 16 years old. However, analysis 
suggests that Air Combat Command can manage the fleet through scheduled 
field/depot inspections under an individual aircraft tracking program.
    The F-15A-D fleet has returned to flying status after engineering 
analysis confirmed they are safe for flight. Of the 407 aircraft in the 
inventory, only 9 were grounded due to the longeron crack. The Air 
Force repaired five, and four were retired due to their proximity to 
planned retirement. The five aircraft were repaired in 2008 at a cost 
of approximately $235,000 each using organic materials and labor at 
Warner-Robins Air Logistics Center.
    Based on the recommendation of Boeing and depot engineers, the Air 
Force has instituted recurring inspections of F-15 longerons every 400 
flight hours to detect cracks before they become catastrophic. Analysis 
confirms that this interval is very conservative and will avoid a 
mishap such as the one that occurred on 2 November 2007. Additionally, 
the Air Force will conduct a full-scale fatigue test, aircraft 
teardown, and improved structural monitoring to help establish the 
maximum F-15 service life and more effectively manage structural health 
of the fleet. We expect these efforts to successfully enable the 176 F-
15C/D long-term ``Golden Eagles'' to operate safely and effectively 
through 2025.
F-15E
    The F-15E fleet, which was not affected by the longeron crack, 
continues to provide  support  for  ongoing  operations  in  
Afghanistan  and  Iraq. Like  the  A-10,  the  F-15E performed superbly 
in Operations Desert Storm, Allied Force, OEF, and OIF. The Air Force 
has been working hard to improve the F-15E's ability to rapidly engage 
and destroy time sensitive targets by adding secure radios and data 
links for faster communications with ground units and forward 
controllers; by integrating the latest precision weapons that not only 
hit a target accurately but are designed to reduce collateral damage; 
by adding a helmet mounted cueing system that will reduce the F-15E's 
time to engage a target by up to 80 percent; and by adding a state-of-
the-art, active electronically scanned array (AESA), radar system that 
not only addresses sustainment issues with the current system but will 
give the F-15E advanced capabilities to identify and engage targets, 
share real-time information with other aircraft, and protect itself 
from enemy threats. The Air Force plans for the F-15E to be an integral 
part of the Nation's force through at least 2035.
F-16
    Our F-16s, the bulk of the fighter fleet, are undergoing a 
structural upgrade program to replace known life-limited structural 
components. Due to the use of more stressing mission profiles, this 
upgrade program is required to maintain the original design airframe 
life of 8,000 flight hours. Wing pylon rib corrosion, a known problem 
with the F-16 aircraft, is an issue we monitor closely. This corrosion 
can prevent the F-16s from carrying pylon-mounted external fuel tanks 
which limits their effective combat range. We currently inspect F-16 
aircraft every 800 hours to monitor for this problem. In partnership 
with industry, the Air Force has recently developed and certified an 
effective repair allowing repair of affected aircraft at the unit in a 
single day instead of requiring a lengthy wing overhaul at the depot.
    As of 15 May 2009, maintainers have repaired 41 wings at 4 units 
worldwide, restoring those aircraft to full mission capability. We will 
award a long-term support contract within the next 2 months which will 
further enhance the ability of units to obtain repairs for their 
aircraft.
    In other inspections, maintainers have found bulkhead cracks in 
approximately 37.5 percent (149 of 397) of our Block 40/42 F-16 
aircraft. Eight-four aircraft have been repaired and 5 aircraft have 
had the bulkheads replaced with 19 more in progress. As of 12 May 2009, 
three Block 40/42 F-16 aircraft were in non-flying status awaiting 
bulkhead repair or replacement. An additional 57 aircraft continue to 
fly with increased inspection requirements to measure crack growth. We 
will continue to monitor this situation closely. Similarly to the F-15, 
the Air Force will start conducting a full-scale durability test for 
the F-16 in fiscal year 2011 to help establish the maximum service life 
and more effectively manage structural health of the fleet. The Common 
Configuration Implementation Program (CCIP) is a top F-16 priority and 
will enable the maintenance of a single operational flight program 
configuration on the Block 40/42/50/52 F-16s. The Block 50/52 
modification is complete and the Block 40/42 modification will be 
complete in fiscal year 2010. It combines several modifications 
including a new mission computer, color displays, air-to-air 
interrogator (Block 50/52 only), Link-16, and Joint Helmet Mounted 
Cueing System. The F-16 is expected to be a capable element of the 
fighter force well into 2024.
Fifth-Generation Fighters
    Fifth-generation fighters like the F-22A and the F-35 are key 
elements of our Nation's defense and ability for deterrence. As long as 
hostile Nations recognize that U.S. airpower can strike their vital 
centers with impunity, all other U.S. Government efforts are enhanced, 
which reduces the need for military confrontation. This is the timeless 
paradox of deterrence; the best way to avoid war is to demonstrate to 
your enemies, and potential enemies, that you have the ability, the 
will, and the resolve to defeat them.
    Both the F-22A and the F-35 represent our latest generation of 
fighter aircraft. We need both aircraft to maintain the margin of 
superiority we have come to depend upon, the margin that has granted 
our forces in the air and on the ground freedom to maneuver and to 
attack. The F-22A and F-35 each possess unique, complementary, and 
essential capabilities that together provide the synergistic effects 
required to maintain that margin of superiority across the spectrum of 
conflict. The Office of the Secretary of Defense-led 2006 QDR Joint Air 
Dominance study underscored that our Nation has a critical requirement 
to recapitalize TACAIR forces. Legacy 4th generation aircraft simply 
cannot survive to operate and achieve the effects necessary to win in 
an integrated, anti-access environment.
F-22A Future Capabilities and Modifications
    The F-22A Raptor is the Air Force's primary air superiority 
fighter, providing unmatched capabilities for air supremacy, homeland 
defense and cruise missile defense for the Joint team. The multi-role 
F-22A's combination of speed, stealth, maneuverability and integrated 
avionics gives this remarkable aircraft the ability to gain access to, 
and survive in, high threat environments. Its ability to find, fix, 
track, and target enemy air- and surface-based threats ensures air 
dominance and freedom of maneuver for all joint forces.
    Similar to every other aircraft in the U.S. inventory, there is a 
plan to regularly incorporate upgrades into the F-22A to ensure the 
Raptor remains the world's most dominant fighter in the decades to 
come. The F-22A modernization program consists of two major efforts 
that, together, will ensure every Raptor maintains its maximum combat 
capability: the Common Configuration program and a pre-planned product 
improvement (P3I) program (Increments 2 and 3). We are currently in 
year 6 of the planned 13-year program.
    As of 1 May 2009, the Air Force has accepted 139 F-22A aircraft, 
out of a programmed delivery of 183. Most of these aircraft include the 
Increment 2 upgrade, which provides the ability to employ Joint Direct 
Attack Munitions (JDAM) at supersonic speeds and enhances the intra-
flight data-link (IFDL) to provide connectivity with other F-22As. The 
Air Force will upgrade the F-22A fleet under the JROC-approved 
Increment 3 upgrade designed to enhance both air-to-air and precision 
ground attack capability. Raptors from the production line today are 
wired to accept Increment 3.1, which when equipped, upgrades the APG-77 
AESA radar to enable synthetic aperture radar ground mapping 
capability, provides the ability to self-target JDAMs using on-board 
sensors, and allows F-22As to carry and employ eight SDBs. The Air 
Force will begin to field Increment 3.1 in fiscal year 2011. Future F-
22As will include the Increment 3.2 upgrade, which features the next 
generation data-link, improved SDB employment capability, improved 
targeting using multi-ship geo-location, automatic ground collision 
avoidance system (Auto GCAS) and  the  capability  to  employ  our  
enhanced  air-to-air  weapons  (AIM-120D  and  AIM-9X). Increment 3.2 
should begin to field in fiscal year 2015.
    The current F-22A modernization plan will result in 34 Block 20 
aircraft used for test and training, 63 combat-coded Block 30s fielded 
with Increment 3.1, 83 combat-coded Block 35s fielded with Increment 
3.2, and 3 Edwards AFB-test coded aircraft. Consideration is also being 
given to upgrade the 63 Block 30s to the most capable Block 35 
configuration.
F-22A Procurement Plans
    The F-22A production program has delivered 22 ``zero defects'' 
aircraft to date and is currently delivering Lot 7 aircraft ahead of 
scheduled contract delivery dates at a rate of about two per month. Lot 
7 Raptors are the first lot of the 3-year multiyear procurement 
contract awarded in the summer of 2007. The Air Force completed F-22A 
deliveries to Elmendorf Air Force Base (AFB), AK, and we are currently 
underway with deliveries to Holloman AFB, NM, with expected completion 
in January 2011.
    When the plant delivers the last Lot 9 aircraft in December 2011, 
we will have completed the program of 183 Raptors. The average unit 
cost for the 60 aircraft in the multiyear procurement was $142.6 
million. Should Congress decide to fund the 4 additional Lot 10 Raptors 
in the Overseas Contingency Operations supplemental request, the unit 
flyaway cost without tail-up costs will be approximately $153.2 
million. The unit flyaway cost is estimated to be $10.6 million higher 
due to higher material costs for a much smaller lot buy, loss of the 
multiyear procurement savings in parts and labor, inflation, and in-
line incorporation of pre-planned product improvements, including SDB 
capability, ability to retarget JDAMs, and the ability to map ground 
targets with the synthetic aperture radar. This average does not 
include tail-up costs of $147 million.
F-35
    The F-35 program will develop and deploy a family of highly 
capable, affordable, fifth-generation strike fighter aircraft to meet 
the operational needs of the Air Force, Navy, Marine Corps, and allies 
with optimum commonality to minimize life cycle costs. The F-35 was 
designed from the bottom-up to be our premier surface-to-air missile 
killer and is uniquely equipped for this mission with cutting edge 
processing power, synthetic aperture radar integration techniques, and 
advanced target recognition. The F-35 also provides ``leap ahead'' 
capabilities in its resistance to jamming, maintainability, and 
logistic support. The F-35 is currently in the 8th year of a 13-year 
engineering and manufacturing development (EMD) phase.
    The F-35 is projected to meet all key performance parameters (KPP) 
and as of 10 May 2009, AA-1 has completed 84 test flights, including a 
deployment to Eglin AFB. The first system design and development (SDD) 
short take-off and vertical landing (STOVL) aircraft, BF-1, has 
completed 14 flights. The second SDD STOVL aircraft, BF-2, had its 
first flight in February 2009. The Cooperative Avionics Test Bed (CAT-
B) continues to provide unprecedented risk reduction at this stage in a 
major weapon system not seen in any legacy program. In December 2008, 
the Defense Acquisition Executive (DAE)-approved full funding for seven 
conventional take-off and landing (CTOL) aircraft and engines, plus 
sustainment and associated equipment as part of the low rate initial 
production (LRIP) Lot 3 acquisition decision memorandum. In addition, 
the DAE approved full funding for seven STOVL aircraft plus sustainment 
and associated equipment contingent upon successful completion of the 
F135 Pratt & Whitney lead engine stress test, flight test engine 6 
proof test and receipt of full STOVL flight clearance, which occurred 
on 30 January 2009. The fiscal year 2010 President's budget provided 
funding for 10 CTOL, 16 STOVL, and 4 CV aircraft for operational test.
Joint Strike Fighter Alternative Engine Program
    Presidential budget 10, released earlier this month, did not fund 
the development and procurement of the alternative engine program for 
the Joint Strike Fighter. The Air Force and Navy are executing the 
funding appropriated by Congress in the 2009 budget to continue the 
F136 program.
    The cost to continue F136 engine development is approximately $1.8 
billion through fiscal year 2015. In addition, the Department of 
Defense will have to fund the production of GE engines to get the 
suppliers on equal footing in the amount of approximately $2.8 billion. 
Continued funding for the F136 engine carries cost penalties to both 
F135 and F136 engines for reduced production line learning curves and 
inefficient economic order quantities. The department has concluded 
that maintaining a single engine supplier provides the best balance of 
cost and risk. Our belief is the risks associated with a single source 
engine supplier are manageable due to improvements in engine technology 
and do not outweigh the investment required to fund a competitive 
alternate engine.
Unmanned Aircraft Systems (UAS)
    MQ-9A Reaper
    The MQ-9 Reaper is a ``hunter-killer'' remotely piloted aircraft 
capable of automatic cueing and prosecuting critical, emerging time-
sensitive targets with self-contained hard-kill capability. SDD for the 
first increment began in fiscal year 2005 and additional SDD efforts 
are currently ongoing. An interim combat capability aircraft deployed 
to CENTCOM in September 2007 and, even though not yet at IOC, more  
have  continued  to  deploy. There  are  now  12  U.S.  and  2  United  
Kingdom  MQ-9s supporting OEF operations. The MQ-9 has military-
standard 1760-based stores management capability, an FAA-certified 
engine and GBU-12/AGM-114 Hellfire weapon capability now, and an 
anticipated 500-lb. JDAM (GBU-38) capability in July 2009. As part of 
the fiscal year 2010 President's budget, the Air Force requests funding 
to procure 24 MQ-9A Reapers.
Missile Programs
    Joint Air-to-Surface Stand-off Missile
    The Joint Air-to-Surface Stand-off Missile (JASSM) is the Nation's 
only stealthy, conventional, precision, launch-and-leave, stand-off 
missile capable of being launched from fighter and bomber aircraft. The 
JASSM achieved an initial operational capability on B-52, B-1, F-16 and 
B-2 and puts adversary's center-of-gravity targets at risk even if 
protected by next-generation air defense systems.
    The Air Force postponed the JASSM fiscal year 2009 production 
contract due to unsatisfactory flight tests of the Lot 5 JASSM 
production missiles. Of the 10 flight tests, we considered 6 to be 
complete successes. To address issues discovered during the JASSM test 
program to date, we are taking a pause in fiscal year 2010 missile 
production in order to incorporate reliability improvements on Lot 6 
missiles, and will conduct a 16-shot flight test in the late summer/
early fall 2009 timeframe to verify JASSM is on track to achieve our 
established reliability goal of 90 percent.
    As part of the fiscal year 2010 President's budget, the Air Force 
is not requesting any funds for procurement of missiles, but rather is 
requesting procurement funds only to continue reliability and retrofit 
activities.
Legacy Bomber Fleet
    The Air Force bomber fleet exemplifies how we continue to sustain 
and modernize legacy aircraft as they are passed from one generation of 
crew force to the next.
B-1
    The B-1 provides the Joint Force Commander massive firepower 
potential coupled with a significant loiter capability perfectly suited 
for the inconsistent tempo of today's ongoing operations. Added to this 
is the B-1's unique supersonic dash potential which allows a single 
aircraft to perform as a roving linebacker over large portions of the 
overall AOR. Once solely a nuclear deterrent, the Air Force has 
refocused the B-1's capabilities through modernizing its current 
conventional lethality.
    A perfect example of the B-1's potential was realized by adding an 
advanced targeting pod to the platform's sensor suite. In an 
exceptional display of acquisition effectiveness, in 2007 the Air Force 
and our corporate partners responded to AFCENT's highest Urgent 
Operational Need requirement by energizing a fast-track development and 
procurement timeline. With the help of supplemental funding, by June 
2008 the 34th Bomb Squadron out of Ellsworth AFB, SD, was able to 
deploy a full complement of Sniper-equipped B-1 bombers to support both 
OEF and OIF operations without a single break in daily combat 
operations. The program continues in 2009 to outfit the remaining fleet 
and incorporate laser-guided weapons as well as integrating pod data 
directly into the avionics system, allowing for direct machine-to-
machine transfer of targeting data. As stated by the Combined Force Air 
Component Commander, ``The Sniper pod on the B-1 Bomber is amazing.''
    This new capability means the B-1 is even more in demand for 
current operational taskings. The non-stop overseas contingency 
operations are taking a toll on the overall fleet. Currently in fiscal 
year 2009, the Air Force is addressing five different issues which 
would have meant potentially grounding aircraft if they were not 
addressed. As a baseline to many of these sustainment modifications, 
the Air Force also embarked on its largest cockpit and communications 
modernization for the B-1 since its inception. Begun in 2005, the B-1 
Fully Integrated Data Link (FIDL) program infuses a tactical Link-16 
data link and a Joint Range Extension (JRE) Beyond Line of Sight (BLOS) 
data link into an entirely overhauled modern cockpit. This system of 
modifications removes legacy monochrome displays and incorporates a 
series of color multifunction displays capable of displaying a wide 
array of fused data at all crew stations. Although the B-1 FIDL program 
has suffered several setbacks, through the continued persistence of Air 
Force and congressional support the program is now turning the corner 
and progressing toward completion. This upgrade will not only help 
protect the B-1 parts from obsolescence, it will evolve an already 
capable conventional platform into a networked provider of precision 
firepower.
B-2
    The B-2 Spirit advanced technology bomber provides a lethal 
combination of stealth, range, payload, and precision engagement. The 
B-2 remains the world's sole long-range, low observable bomber, and the 
only platform capable of delivering 80 independently targeted GBU-38s.
    B-2 availability has steadily increased over the past 5 years, due 
in large part to focused efforts to enhance low observable maintenance 
such as the highly successful Alternate High Frequency Material 
program. However, it still faces increasing pressures to upgrade 
avionics originally designed over 20 years ago. The three-increment 
Extremely High Frequency Satellite Communications and Computer Upgrade 
program (EHF SATCOM and Computer Upgrade) seeks first, in Increment 1, 
to upgrade the Spirit's flight management computers as an enabler for 
future avionics efforts. Increment  2  integrates  the  Family  of  
Beyond-line-of-sight  Terminals  (FAB-T) along with a low observable 
antenna to provide secure, survivable strategic two-way communications, 
while Increment 3 will connect the B-2 into the global information 
grid. Increment 1 of EHF SATCOM and Computer Upgrade is currently in 
EMD and on track to begin procurement in fiscal year 2011 for fleet 
installation beginning at the end of fiscal year 2013.
    The B-2 is also replacing the original radar antenna and upgrading 
selected radar avionics as part of the Radar Modernization Program 
(RMP) to change the radar operating frequency. RMP recently recovered 
from development challenges and has been approved to enter production. 
The LRIP contract for the first six production radar kits was signed on 
29 December 2008, with the second and final buy for the remaining seven 
shipsets slated for later this year. Seven radar shipsets were also 
bought during development and are currently being installed in fleet 
aircraft to round out the 20 aircraft B-2 fleet; the developmental 
units will be retrofitted to the final production configuration. Thanks 
in large part to congressional support, the RMP acquisition strategy 
was modified to include both life-of-type component buys to avoid 
diminishing manufacturing issues during the production run, and advance 
procurement to recover 5 months of the schedule lost while resolving 
the RMP integration issues during development.
B-52
    The B-52 Stratofortress is our Nation's oldest frontline long-range 
strategic bomber, with the last airframe entering service with the 
United States Air Force in 1962. Given the expected service life of the 
aircraft, the B-52 airframes will be the longest operationally employed 
powered war machine in history, far surpassing the lifespan of any 
other single model land, sea or air weapon system. For more than 40 
years B-52s  have  been  the  backbone  of  the  strategic  bomber  
force  for  the  U.S. The  B-52 is capable of dropping or launching the 
widest array of weapons in the U.S. inventory, including gravity bombs, 
cluster bombs, precision guided missiles and JDAMs. Updated with modern 
technology, the B-52 will be capable of delivering the full complement 
of Joint developed weapons and will continue into the 21st century as 
an important element of our Nation's defenses.
    The Air Force has invested in B-52 modernization programs to keep 
the platform operationally relevant by adding satellite and nuclear 
survivable and secure wideband high data rate communications; Sniper 
and Litening advanced targeting pods; aircraft computer and data 
transfer unit upgrades; and integration of smart weapons to improve 
conventional warfare capability.
    Together with the B-1 and the B-2, the B-52 serves as a key 
component of the U.S.' long-range bomber force. It has earned respect 
as a highly capable conventional and nuclear combat platform during the 
Cold War, the Vietnam War, Operation Desert Storm, OAF, OIF, OEF, and 
frequently deploys to Guam to provide a continuous bomber presence 
mission in the Pacific. The B-52 continues to serve the Nation well as 
it has during its long and distinguished history, and we have provided 
significant support across the Future Years Defense Program in 
recognition of its value.
                               v. closing
    Your Air Force stands ready to win today's joint fight and plan for 
tomorrow's challenges. We are committed to working together to 
determine the right procurement, sustainment and retirement strategy to 
ensure we are prepared for the current fight as well as posturing for 
future demands. Dominance of air, space, and cyberspace continues to be 
requisite to the defense of the United States. We appreciate your 
continued support and look forward to working in concert to ensure our 
decisions enable us to strengthen our Air Force to meet future 
requirements.

    Senator Lieberman. Thanks, General.
    Without objection, we'll submit all the statements for the 
record.
    General Trautman, do you have a statement?

  STATEMENT OF LT. GEN. GEORGE J. TRAUTMAN III, USMC, DEPUTY 
      COMMANDANT FOR AVIATION, UNITED STATES MARINE CORPS

    General Trautman. I do, sir.
    Senator Lieberman. Please proceed.
    General Trautman. Mr. Chairman, Senator Thune, 
distinguished members of the subcommittee, it is a pleasure for 
me to be here as the leader of marine aviation to discuss the 
President's 2010 budget submission. The Commandant and I are 
extremely grateful for the exceptional way this subcommittee 
and Congress support the men and women who volunteer to serve 
in our Marine Corps during this time of war.
    With marines in the fight every day, my focus is on 
supporting our deployed forces by striving for operational 
excellence while managing risk to our air crew and those we 
support. Our older aircraft have performed well in sustained 
combat operations and they continue to do so, but we are 
wearing them out.
    While waging the current fight, we in Marine Corps aviation 
are also embarking on significant transitions to new aircraft 
and our family of unmanned aerial systems. These aircraft and 
systems will give us the operational capabilities we need to 
fulfill our vision of a fast, lethal, expeditionary force that 
is ready for the uncertainties of future combat operations, yet 
has the staying power of engagement in the most austere 
conditions imaginable.
    Two of our key transition efforts promise to change the way 
we project  Marine  Corps  combat  power  in  the  future.  
First,  the  MV-22 Osprey has recently finished three highly 
successful combat rotations to Iraq and last month the fourth 
Osprey squadron sailed toward the fight with the Marine 
Expeditionary Unit that will be deployed for the next 6 to 7 
months.
    The Osprey has transformed the way we are fighting in a 
manner akin to the introduction of the helicopter in the middle 
of the last century. We can now project combat-loaded marines, 
soldiers, or special operators from a sea base or any forward 
site deep into the battle space, at the speed of a KC-130, and 
we can do it at altitudes above ground level and the threat 
that resides on the ground that has claimed so many helicopters 
in Afghanistan, Iraq, and elsewhere. Then we can land that 
payload anywhere it is needed, just like a helicopter.
    With its speed, range, and survivability, the MV-22 is 
truly a game-changer. Another game-changer will be the F-35B 
short takeoff and vertical landing variant of the JSF. In the 
fall of 2012 when the Marine Corps stands up its first 
operational squadron, this  fifth  generation  stealth  
aircraft  will  begin  replacing  our  FA-18s, AV-8s, and EA-
6Bs with a single platform that will exceed the operational 
capabilities of any tactical aircraft being flown today.
    The JSF gives us the operational agility we need to support 
the joint force in the hybrid battles that loom off our 
Nation's bow. Most importantly, we intend to leverage the 
unprecedented sensor capability this machine offers for the 
benefit of the entire marine air-ground task force, allowing us 
to accelerate the decision cycle and fight smarter than ever 
before.
    Just over 3 short years from now, our operational 
commanders will  be  able  to  combine  the  effects  of  these 
 two  machines,  the  MV-22 Osprey and the F-35 Lightning II, 
from a sea or land base to unleash a tempo, agility, and speed 
of action that has never been possible in the past. Regardless 
of the future threats we will face, our unwavering mission 
remains to be the Marine Corps' aviation force in readiness 
across the full spectrum of combat operations.
    My pride in the accomplishments of our marines past and 
present and the staying power of our military families is only 
exceeded by my confidence that we are properly poised to meet 
our future challenges.
    Thank you for this opportunity to speak with you today and 
I look forward to answering any questions that you may have. 
Thank you, sir.
    Senator Lieberman. Thank you, General.
    General Gibson.

   STATEMENT OF MAJ. GEN. MARKE F. GIBSON, USAF, DIRECTOR OF 
  OPERATIONS, DEPUTY CHIEF OF STAFF FOR OPERATIONS, PLANS AND 
           REQUIREMENTS, DEPARTMENT OF THE AIR FORCE

    General Gibson. Yes, sir. Thank you. Chairman Lieberman, 
Ranking Member Thune, and distinguished members of the 
subcommittee, I would also like to thank you for calling this 
hearing and for the opportunity to provide you with an update 
on Air Force operations and other matters that are important to 
our Air Force and to our Nation.
    The current operations in Iraq, Afghanistan, and in the 
Horn of Africa highlight over 18 consecutive years of planning, 
resourcing, and executing combat missions. Since 2001 your Air 
Force has flown over 80 percent of the coalition's combat 
sorties in support of Operation Iraqi Freedom and Operation 
Enduring Freedom (OEF). These missions provide the joint 
coalition team with global airlift; air medical evacuation; air 
refueling; command and control; close air support; strike; 
intelligence, surveillance, and reconnaissance (ISR), and 
electronic warfare.
    We have flown over 385,000 mobility sorties dedicated to 
moving equipment and troops to and from the CENTCOM AOR. 
Twenty-four/seven, your Air Force is providing a preponderance 
of the flying assets supporting the combatant commanders, 
enabling them to successfully execute their missions both in 
the AOR overseas and in homeland defense.
    But this total air, cyber, and space effort takes its toll 
on our equipment and people, and we continue to maintain high 
operating tempo over time. We currently have over 208,000 
airmen contributing to the combatant commander operations, 
including nearly 36,000 airmen who are deployed to locations 
worldwide.
    We are fully committed to the joint fight as we continue to 
transform our Service into a smaller, more flexible and lethal 
force across the spectrum of operations.
    I thank the subcommittee for allowing me to appear before 
you today and for your continued support to our Air Force. I 
look forward to answering your questions.
    Senator Lieberman. Thanks very much, General.
    Finally, Admiral Myers. Thanks for being here.

   STATEMENT OF RADM ALLEN G. MYERS, USN, DIRECTOR, WARFARE 
INTEGRATION/SENIOR NATIONAL REPRESENTATIVE, OFFICE OF THE CHIEF 
                      OF NAVAL OPERATIONS

    Admiral Myers. Thank you. Mr. Chairman, Senator Thune, 
distinguished members of the subcommittee, thank you for this 
opportunity to appear before you today to discuss Navy 
aviation.
    I am delighted to share this time with my colleagues from 
the Navy, Air Force, and the Marine Corps to convey the 
contributions of Navy aircraft in our Armed Forces. Our 
aviation community, comprised of aircraft, ships, and weapons 
systems, has proven to be a stabilizing force with the capacity 
to span the globe. If we could look back to the days following 
September 11, just 3 weeks after the attack, two carriers, the 
Enterprise and the Carl Vinson, were in theater ready to 
provide continuous strikes and close air support. In fact, the 
Enterprise reversed course while she was steaming out of 
theater. No need to refuel and no need of immediate 
replenishment; that strike group commander, with the best 
trained crews in the world, ready to respond. The Navy carrier-
based F-18s provided the first tactical air strikes in country.
    Our response and support of the events of September 11, 
OEF, continues today. In fact, recently the Chief of Naval 
Operations (CNO) cited a statistic concerning the contributions 
of our carrier fleet that I would like to emphasize, that a 
single Navy aircraft carrier provides 46 percent of the fixed-
wing aircraft sorties in Afghanistan. That one carrier provides 
close air support, airborne reconnaissance, and electronic 
attack to our troops in contact with the enemy. By the way, the 
response time for those troops in contact with the enemy is 
often less than 10 minutes.
    Augmenting carrier support to our troops ashore, the Navy 
also deploys land-based airborne electronic attack via the EA-
6B. These aircraft conduct critical missions that support U.S. 
forces and support offensive operations.
    Is it really any wonder that in moments of crisis you hear 
the phrase, ``Where are the carriers?" Often the first to 
arrive in response to a crisis, the carrier strike group 
provides the credible capability, assured access, speed, 
agility, and persistence needed without reliance on 
infrastructure ashore.
    Sea power provides persistent combat power ashore while 
facilitating partnerships at sea, as we've seen off the Horn of 
Africa with our combined task forces. Sea power is disrupting 
insurgents on land as well as disrupting smuggling and piracy 
at sea. Our fixed- and rotary-wing Navy assets have been 
engaged in counterpiracy operations around the Horn of Africa. 
During the Maersk Alabama incident, the first U.S. military 
asset on the scene was a Navy P-3 and our helicopters have been 
integral in the apprehension of a number of pirates by 
providing the necessary surveillance to locate, track, and 
intercept vessels on behalf of the visit, board, search, and 
seizure teams.
    Our carriers and the ships remain on station around the 
world, providing presence in other places as well: the 
Caribbean, the Mediterranean, the Pacific, the South China Sea, 
the Indian Ocean, and the Red Sea. Our forces provide effects 
ashore and at sea, strengthening relationships and building 
regional stability.
    The fiscal year 2010 President's budget maintains our 
ability to meet wartime needs for today and contend with future 
security challenges. The aircraft that are fighting today's war 
are being recapitalized or sustained to ensure relevancy 
against a full spectrum of threats. We're thankful to our 
predecessors for investing in programs that we are benefiting 
from today and those that will meet the future security 
challenges of tomorrow.
    Our budget continues the development of the F-35, the E-2D 
Advanced Hawkeye, the P-8, unmanned aviation, and new strike 
weapons capabilities. The Department of the Navy will produce 
98 additional tactical and fixed-wing aircraft, 100 rotary-wing 
aircraft, and 5 VTUAVs, for a total of 203 aircraft.
    I would like to offer my appreciation to the committee. 
Without this committee's tireless devotion and significant 
contributions, the great successes of our force would not be 
possible. We are truly grateful.
    Thank you for the opportunity to appear before you today 
and thank you for your support for what we do today and what we 
will do tomorrow. I look forward to your questions. Thank you.
    Senator Lieberman. Thanks very much, Admiral.
    We really have a good turnout of members of the 
subcommittee this afternoon, which is the most tangible 
expression one could ask of the interest in the TACAIR 
question. So we'll do 7-minute rounds for questioning.
    Admiral Architzel, I want to start with a few overview and 
future-oriented questions. Last year at the comparable hearing, 
we were told that there was a potential strike fighter 
shortfall for the Navy of 125 aircraft in the 2017 timeframe. 
But last week at the full committee, the CNO said that the 
Department of the Navy is now projecting the shortfall could be 
as high as 250 aircraft. I wonder if you could describe what 
happened to lead to that doubling of that shortfall, and to 
comment on the shortfall.
    Admiral Architzel. Mr. Chairman, thank you. You're correct 
that in the Presidential budget 2009 year the strike fighter 
inventory projections used numbers of 69 for the Navy and 125 
for the overall Department of the Navy.
    Senator Lieberman. Right.
    Admiral Architzel. Those are based on a model developed at 
Naval Air Systems Command, which projects based on a number of 
factors what the aircraft total would be in the out years. 
Using that model, it peaked, by the way, in 2017 to give you 
the numbers you just quoted, sir.
    In that model at that time there were a number of 
assumptions made. Some of those assumptions assumed that we 
would continue to operate with 10 carrier wings, which we fully 
expect to do. With that comes 40 strike fighter squadrons, and 
the Navy would have 35 strike fighter squadrons augmented with 
5 from the Marine Corps. Marine Corps aviation is essentially 
19 strike fighter squadrons and will grow with 2 cadre 
squadrons to 21.
    Some other assumptions in that model were that, while we 
would have legacy aircraft, we would be able to fly legacy 
aircraft to 10,000 hours. That would have been a total of 623 
legacy Hornets that could reach 10,000 hours.
    Senator Lieberman. Right.
    Admiral Architzel. It also assumed that we would have full 
production of the then-projected E and F line of 506 strike 
fighters. We also had a projection of what's called the high 
flying hour inspection, which would occur at 8,000 hours, which 
would allow us to take it to 8,600 hours for Hornets without 
having to do major structural, depot-level repairs.
    That high flying hour inspection in that model, in that 
number, was projected to be a 5 percent dropout rate. In other 
words, of the airplanes you inducted into that inspection, 
which is a 6-month inspection and requires about $474,000 to 
complete, it would be about 5 percent of airplanes that 
wouldn't pass that inspection. So in other words, the vast 
majority would.
    Also, we assumed in that model at that time the ramp rate 
would go to 50 aircraft for the Navy per year.
    As we went forward in time, we learned more about the 
legacy airplanes, we learned more about production rates, we 
learned more about the model, and the model gets adjusted and 
reworked. The latest information that would be the most timely 
that I have now would be that that shortfall would still be 
there. It might be slightly different because we're taking 
steps to mitigate that shortfall, as you can imagine.
    So what has changed? One thing that would be changed is 
that we believe that the dropout rate to 10,000 hours for the 
inspection is not 5 percent; it would be much higher, more like 
95 percent. In other words, we won't get those airplanes to 
10,000 hours just by inspection. We're going to have to do some 
serious level depot work to get them there.
    So that number comes down from 623 to around 295 that we 
believe we could get to 10,000 hours through the Service Life 
Extension Program (SLEP). The other 191 aircraft we would take 
through the high flying hour inspection and expect 8,600 hours 
on them. Keep in mind, if we don't do a high flying hour 
inspection the airplanes would basically drop off the line at 
8,000 hours.
    We do still plan on the full program of record which was 
established to be 506 E and Fs, and we do expect to be able to 
press forward with that. So it explains why the numbers change 
slightly over the year-to-year or model runs, sir, as you go 
forward with those assumptions that are in there.
    But the Navy is committed to manage our strike fighter 
inventory through four principal ways: to manage the JSF to 
make sure we get the ramp rate; to make sure absolutely that we 
get the IOC for the Marine Corps in 2012 for the B variant; and 
for the Navy in 2015 for the C.
    We also want to make sure that we maintain program-related 
engineering and logistics to make sure we maintain and sustain 
our airplanes that we have, the legacy Hornets and the E and F 
as well, to get the most utilization out of them.
    We also want to make sure that we go through the Service 
Life Assessment Program (SLAP)-SLEP. SLAP is the assessment; 
SLEP is the actual depot-level maintenance. There is a 
considerable amount of work to be done, and that is programmed 
to be done between 2012 and 2018 or 2019 to keep our force 
levels up.
    Finally, as I mentioned, the high flying hour inspection as 
we get from 8,000 to 8,600 hours.
    All this is based on the operation of our Navy and our 
tactical Air Force. I would point to today, while I can't 
predict what the future would be, and we will learn more 
through the Quadrennial Defense Review (QDR) about force 
structure, et cetera, but today we have seven carriers 
operating at sea. Four of them are deployed. Two of them are 
doing workups. George Herbert Walker Bush is off the coast 
doing fleet carrier qualifications (CQ). So you have seven 
aircraft carriers at sea today, with six air wings embarked, 
and also replacement air groups operating off the seventh.
    In the future, we want to be able to maintain and do 
everything we can from an acquisition standpoint, from a 
technical standpoint, in the Naval Air Systems Command to 
support that fleet in the future.
    Senator Lieberman. I think you were ready for that 
question. That was a very thorough answer.
    Let me ask this question. Would you accept the 250 aircraft 
below requirements number? I want you to help us understand, 
because in all the discussion about spending on defense I 
think, particularly on these programs, there's not an 
appreciation, if one accepts the Department of Defense's (DOD) 
definition of what's required, that we are on a course that is 
going to put us way below requirements. So my question really 
is, are we going to be capable of, in the case of the Navy for 
instance, maintaining the fleet response plan of being able to 
surge to 5 or 6 carriers within 30 days of notification, 
followed by another carrier within 90 days, if the Navy is 250 
aircraft below requirements?
    Admiral Myers. Thank you, Mr. Chairman. If you don't mind, 
I think I can address part of your question.
    Senator Lieberman. Good.
    Admiral Myers. A year ago I was in front of this committee 
and talked about the challenges of the strike fighter shortfall 
and that we were projecting for the U.S. Navy a 69 aircraft 
shortfall if we were able to get all of the legacy Hornets 
through SLEP or up to 10,000 hours. These are 6,000-hour 
aircraft that have been extended to 8,000 hours. Admiral 
Architzel just mentioned we have a method to get them from 
8,000 to 8,600 hours. It's called the high flying hour 
inspection. It's heavy on the inspection and meant to be light 
on the maintenance required. Those aircraft we think can get 
from 8,600 hours all the way out to 10,000.
    So the bracket that I briefed last year was 69 aircraft if 
we could get all the aircraft we needed to 10,000 hours. That 
would be our shortfall. If we got none of those aircraft to 
10,000 hours, then it would be 243. That's basically the range 
that we were working in a year ago.
    Now, what's changed since last year? Admiral Architzel 
mentioned that we have aircraft that are going through the high 
flying hour inspection. We finished our analysis program and we 
have 38 aircraft that entered the high flying hour inspections 
and we have the first aircraft just approaching 8,000 hours to 
try to see how it is we're going to get those to 8,600 hours.
    In that inspection, meant to be about 5 or 6 months worth 
of work in the depot, they looked at 159 focus areas or hot 
spots. As Admiral Architzel also mentioned, the intent or the 
expectation was that we would be able to inspect and we'd have 
about a 5 percent fallout rate, and then we'd return those to 
the fleet with another 600 hours.
    What we found is there is an additional 60 hot spots on 
those 38 aircraft. Nine of them have completed the inspection, 
and it's increased the time to get through that depot from 
11,000 man-hours to about 24,000 man-hours. So we're already 
starting to see that it's going to be a lot of work to get 
these aircraft at least to the 8,600 hour point.
    To get beyond 8,600 hours, we're going to have to do an 
extension for the aircraft, and we're in the process of 
understanding where we are on the high flying hour inspection 
and trying to manage what parts we need so that we can start 
inducting the right aircraft into the service life extension 
within the next couple years.
    We think we're going to be SLEP-ing aircraft through about 
2018.
    So what has happened in the last year is we have the 
analysis and a little bit more information and we know that we 
can get aircraft to 10,000 hours. So our challenge is to make 
sure that we program enough in Program Objective Memorandum 
2012, because that's when we think we're going to need the 
money, to actually take about half of the legacy Hornets from 
8,000 to 8,600 hours to 10,000 hours.
    Then we would wind up with a strike fighter shortfall for 
the U.S. Navy of about 70 aircraft.
    Senator Lieberman. By which year?
    Admiral Myers. That peaks in about 2015. It starts in about 
2013. So what we're discovering by looking at these aircraft in 
the high flying hour inspection is that they're not passing as 
quickly, so we're going to have a shortfall a little earlier.
    Senator Lieberman. Okay. My time is up. I'd just say 
briefly, your explanation is very thorough and I think the 
point is that we're pushing you hard and you're pushing the 
aircraft that you have hard to meet the requirements, because 
we're not replenishing rapidly enough. I think at some point 
therefore it makes it very difficult for the Navy to meet the 
response plans that you have to crises that we may confront.
    I'll come back to this in my next round. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Let me direct this to all of our witnesses, but I want to 
get a general reaction or observation with respect to the 2010 
defense budget request, in which the President and Secretary 
Gates have stated that they intend to reshape the priorities of 
the defense establishment. In so doing, they propose to cut 
dramatically or cancel various major weapons systems.
    In terms of the TACAIR portfolio, are there any aspects of 
that plan with which you have any difficulty? [No response.]
    Don't jump. [Laughter.]
    General Trautman. Well, I'll start, sir, since I'm probably 
the happiest with it. I think the exact correct thing to do is 
to accelerate and move forward to the F-35, the JSF. If you 
look across the board at how much is being spent on TACAIR in 
this time of other needs, I think that's exactly the right 
thing to do.
    Admiral Architzel. I would say that as we go into the 
challenges of the future, whether it be irregular warfare, 
hybrid warfare, or conventional warfare, the carrier capability 
and its embarked air wings can meet the fight and be able to 
provide the full spectrum availability to meet the challenges 
that exist that you mentioned in all those areas, and believe 
exists within the carrier air wings of today and will in the 
future.
    So I would answer the same way as I did before about 
supporting the next generation strike fighter, but also 
ensuring that we maintain our legacy Hornets and air wings as 
well as we go forward.
    General Shackelford. Senator, if I might, I believe the 
strategy in the new budget largely relies on a re-analysis of 
what the future threat looks like coming from the QDR, which 
will have whatever effect it has on our future weapons systems 
procurement. In the mean time, as we look at what the Air Force 
is capable of bringing to bear in the next 5 to 10 years, we 
don't see any risk of shortfall there. We do believe, as was 
stated prior, that ramp-up in production of the F-35 is 
absolutely critical to recapitalize our Air Force capability.
    We have a number of new programs in progress which were 
unaffected by the new budget, to sustain existing weapons 
systems. We have no major heartburn.
    Senator Thune. Anybody else care to comment?
    General Gibson. Senator Thune, I'll just piggyback on 
General Shackelford's comment about the view of the strategic 
risk in the relatively near term in what's termed the combat 
air forces redux within the Air Force, taking some of those 
savings, I think it's $355 million this year and about $3.5 
billion over the Future Years Defense Program (FYDP), to 
reinvest that into some of our fourth generation and improve 
capabilities both in the aircraft and in some of the enhanced 
weapons that they'll be able to carry in the near term.
    So I think it was a conscious decision to start working 
that gap now.
    Senator Thune. This I guess I would direct to General 
Shackelford and General Gibson. But what's your view of the 
proposal to end the production of the F-22 fighter aircraft at 
187?
    General Shackelford. Sir, you're familiar with the numbers 
that have been presented by our chief and our secretary. We 
believe that the end of the production of the F-22, as the 
Secretary of Defense has stated, is the end of the program of 
record. The capability that we get out of those 187 F-22s we 
believe is sufficient for the type of threat that the Secretary 
of Defense is addressing in the future.
    Again, as we look at fifth-generation capability we're 
going to wind up leveraging the F-35's capabilities as those 
numbers build in the future. If we had a concern with it, it 
would lie in the area of sustaining the fleet. The 187 F-22s 
provide excellent combat capability. To sustain that fleet over 
a long period of time may become a challenge.
    Senator Thune. How about the proposal to terminate the 
combat search and rescue replacement helicopter (CSAR-X) 
program?
    General Shackelford. Yes, sir. In the case of CSAR-X, the 
Secretary of Defense was concerned that we didn't have it right 
in terms of the requirements for that platform, particularly in 
context of the approach we were taking to take what are 
essentially existing helicopters and spend a large amount of 
money on development to specialize them for the CSAR-X 
missions.
    Now, he did not cancel the CSAR-X mission. He did cancel 
the program. That gives us an opportunity to work with the 
Office of the Secretary of Defense (OSD) staff this summer in a 
study to come back and relook at those requirements and how it 
might best be addressed, given other rotary-wing capabilities 
and the larger body of rotary-wing capability across DOD.
    Senator Thune. Finally, your view of the proposed 
suspension of the Next Generation Bomber?
    General Shackelford. Similar to the helicopter, sir, the 
Secretary had concerns about the requirements for the bomber, 
particularly in the area of nuclear capability and whether or 
not it would be unmanned. Likewise, through the QDR we're going 
to go back and relook at those requirements and make sure we 
have them right for what he foresees the type of strategic 
bomber capability he wants DOD to have in the future. Based on 
the outcome of the QDR, we'll move forward as appropriate with 
the program.
    Senator Thune. Let me move back to the fighter gap. Without 
the benefit of the Air Force's having conducted a service life 
assessment as the Navy has with regard to its strike fighter 
capability, do you have a sense of what the probable extent of 
the Air Force's fighter gap is? I think you've sort of answered 
that question in response to Senator Lieberman's question and 
in some of your opening statements.
    But I guess my question comes back to the extent to which 
buying more quantities of some of the legacy aircraft, such as 
F-16s and F-15Es, might help mitigate on a cost-effective basis 
the shortfall in the Air Force over the intermediate- to long-
term.
    General Gibson. Sir, I think one of the earlier testimonies 
put that gap at nearly 800 at around 2024. With the 
acceleration proposed with the F-35 buy ramping up to 80 and 
possibly even higher, we think that that greatly mitigates that 
risk in the out years. We also have a number of aircraft--the 
legacy aircraft that we have now--that in that timeframe are 
extended on or about those dates, that could possibly be 
extended if required.
    The QDR is currently relooking at what those numbers will 
need to be in future scenarios. So we think at this time it's 
manageable, and the idea of going back and purchasing more 
fourth generation systems is not seen as buying us into the 
future capability that we'll require.
    Senator Thune. I see my time has expired, Mr. Chairman. 
I'll come back in another round.
    Senator Lieberman. Okay, thanks, Senator Thune.
    Senator Begich, thanks for being here.
    Senator Begich. Mr. Chairman, I'm going to yield to Ms. 
McCaskill. I know she has to catch a train, so I wanted to give 
her my time for right now.
    Senator Lieberman. That's very gracious of you.
    Senator McCaskill. Isn't he nice?
    Senator Lieberman. He is nice.
    Senator Begich. I'm making a note of this.
    Senator McCaskill. Believe me, that means I owe you one.
    Senator Begich. That's right.
    Senator Lieberman. You elicited that testimony from me. I 
was not prepared for it.
    Senator McCaskill. There you go.
    Thank you very much, Senator Begich. I appreciate it.
    Let me drill down a little bit on the testimony that I 
heard as I came in. My understanding is, Admiral, that you're 
saying that our manhours to take the Hornet to 8,600 hours have 
increased from 11,000 to 24,000 manhours, or to get them to 
10,000 it's increased?
    Admiral Myers. That's for the high flying hour inspection, 
ma'am.
    Senator McCaskill. So what you're saying is that the 
original estimate of when the gap was going to be most acute 
may have to be moved forward because of the number of hours 
it's taking to extend?
    Admiral Myers. Yes, ma'am. What's happening is, those 
aircraft are pulled out of the inventory so that we can do the 
inspection before they get to 8,600 hours. What we thought was 
going to take a matter of about 6 to 8 months is now taking 
upwards of 11 months in order to get those aircraft back to the 
fleet.
    Now, I want to caveat that. There's only 38 aircraft that 
have gone into the high flying hour inspection and only 9 have 
come out. So this is our early snapshot, but based on that 
insight we're taking a look at our models and we project that 
we're going to have a shortfall. We don't have a shortfall 
today, but we think that, based on the number of aircraft and 
the rate that they're flying and when they're going to have to 
be inspected prior to 8,000 hours, that it'll start to pull 
them out of the inventory earlier than we anticipated.
    Senator McCaskill. We know now that the JSF is 55 percent 
over the 2001 estimate. We know it's at least 2 years behind 
schedule. We know that all the technologies on it have not yet 
matured. What I'm trying to get to here is that there seems to 
be a strong factual basis that we're not going to get to where 
we want to be on the JSF soon enough or at the price that we 
had hoped, and that we have--I think I'm quoting the Admiral--
``the backbone of our ability to push power ashore, the F-
18''--that is on schedule.
    We keep talking about the QDR, why there isn't more of an 
acknowledgment of the cost savings that we would get with the 
multi-year at this point. I think if you had to guess at this 
point, based on where we are with the JSF and where we are with 
the F-18, that the number 70 is wildly optimistic; that in fact 
it is going to be significantly over 70. If we know that, why 
wouldn't we want to get the billion dollars in savings and do 
the multi-year?
    Admiral Architzel. Let me take it from an acquisition 
standpoint if I could, Senator. Thank you for the question. 
First off, to understand the strike fighter inventory 
management, the issue we're talking about is getting the 
Hornets to fill an area until we can get the JSF in numbers to 
replace. The Navy stands strongly behind the JSF program and 
the capability it brings as a fifth-generation fighter.
    It is projected to make all of its KPPs. As you pointed 
out, the most recent master schedule, whether it's the A, B, or 
C variant, has some delay. But at the same time, changes to the 
program are not what we have seen on other legacy programs in 
development.
    We believe it will make the 2012 and 2015 deliveries for 
the Navy. However, we need to manage not just the JSF; we have 
to manage the Hornets, which is not just the legacy Hornets; 
the E and F as well. If we look at the SLEP-SLAP program and we 
talk about what we're going to do and the time we would need 
it, it's based on when those airplanes would reach 8,000 hours. 
That begins in the numbers we're talking about, where it would 
make a difference to SLEP those aircraft, those are from about 
2012 to 2018.
    The fly rate we project today could change with the QDR, it 
could change with a lot of things, it could change with how we 
manage our force levels. But using what we have today, we would 
say that we're going to have about 295 aircraft that we would 
want to SLEP, as I mentioned, and we'll take another 191 
aircraft and run them through a high flying hour inspection 
program that would allow us to maintain the strike fighters we 
need as projected at that time.
    I believe we're managing across the inventory both to 
preserve the JSF we need in the future as well as to ensure we 
have the capability of our carrier wings that we'll need as we 
bring on the JSF. But the Navy stands firmly behind the JSF.
    There have been challenges in the program, as you 
mentioned. This is a critical year for that program. The JSF 
this year is finishing up the SDD. We're also increasing ramp 
rates on the airplane, and we're also going forward and 
starting the test profiles in earnest on the airplane. So it's 
a very stressing time for the program. But the program is 
moving forward in all variants and we have confidence that it 
will meet the numbers and the performance we need out of that 
aircraft.
    Senator McCaskill. I certainly understand that the Navy 
stands behind the JSF and that DOD stands behind the JSF, and 
that's not really my quarrel. My quarrel is if we know we're 
going to have a shortfall and we know we need to fill it, why 
don't we make sure we do it in the most cost effective way for 
the taxpayer in terms of a multi-year procurement of the FA-18?
    Let's fast forward. Let's assume that other Senators are 
sitting here 15, 20 years from now. Does anybody have any 
thought as to whether or not it's a good idea to have only one 
manufacturer manufacturing tactical aircraft in the United 
States? Isn't the F/A-18 keeping costs down on the JSF?
    Admiral Architzel. We certainly value the industrial base 
and as we go forward, we do competitively build for the JSF. We 
have other manufacturers of aircraft as we go forward. Just as 
we do in the shipbuilding side, we value the industrial base on 
the aviation side as well.
    We also have the programs in place to allow us to 
manufacture the aircraft components, and it's not just Lockheed 
Martin, for example, on the JSF or it's not just Boeing on the 
F/A-18. You have multiple sub-vendors across the United States. 
So we certainly would not be sitting here and saying we didn't 
value it. We know that if we're going to need strike fighters 
in the future we're going to need industry that can build them. 
If we're going to need ships in the future, we're going to need 
a shipbuilding defense industry base that can build them as 
well.
    Senator McCaskill. My time has expired. Thank you all very 
much for your service.
    Thank you, Mr. Chairman; and especially thank you, Senator 
Begich, for your consideration.
    Senator Lieberman. Thank you, Senator McCaskill.
    Senator Chambliss, good afternoon.
    Senator Chambliss. Thank you, Mr. Chairman. Good afternoon.
    Gentlemen, thank you for your service. This is an extremely 
difficult issue that we've been talking about for several 
years. My criticism of the process is not directed at you, but 
at those folks that were sitting there 15 or 20 years ago 
making decisions. We've been very concerned about this road 
wreck on TACAIR force, and it's here. Each of you have just 
outlined why this is so critical.
    Senator McCaskill makes a good point there with respect to 
this gap on the part of the Navy. Of course, the Navy is 
proposing to fill that gap in part with F/A-18s. Ramping up the 
F-35 sounds like it makes sense. That's what the Air Force is 
doing. But also what the Air Force is doing is taking an 
airplane that still has years ahead of it from a research and 
development (R&D) standpoint, and we know there are going to be 
problems with it. We absolutely know that. Yet the Air Force is 
making a decision to ramp up purchases of the JSF, which is a 
great airplane. I fully support it. But we're doing this in a 
way that we have never done before.
    To me, it makes no sense. I'm just afraid that we're headed 
for even more of a road wreck several years from now.
    But there's been conversation here about the strike fighter 
gap on the part of the Navy. I think Senator McCaskill 
adequately dealt with that. It looks like we have somewhere 
around a shortfall of 200. I guess we could argue about that 
number, but that seems to be somewhere in the generally 
accepted range.
    I also note that the Navy is requesting the purchase of 31 
fourth generation F/A-18s in the 2010 budget. Now, General 
Shackelford, General Gibson, last year General Hoffman and 
General Darnell appeared before this committee in your place 
and talked about a fighter gap in the Air Force of 
approximately 800 fighters; General Gibson, just what you 
alluded to.
    Frankly, when we look at the 200 number and look at the 800 
number with the problems both of you alluded to assumptions 
that we have made over the years with respect to previous 
situations as well as the current situation, and those 
assumptions have proven to be false. So we could be looking at 
higher numbers. Chances are they're going to be higher than 
they are going to be lower.
    But in any event, and in addition to what we're planning in 
the Air Force for 800, you now come forward and say we're going 
to retire an additional 250 tactical fighters in fiscal year 
2010.
    So let me see if I can summarize this. The Air Force has a 
fighter gap that's five times as big as the Navy's. The Navy's 
buying fourth generation fighters that can only fly in a 
permissive threat environment, and we're going to examine 
additional F/A-18 procurement, including a possible multi-year, 
in the QDR.
    The F-22 is the only proven fifth-generation fighter. Yet 
the Air Force is not buying any more F-22s, even though the Air 
Force leadership, General Schwartz, has said that the military 
requirement for F-22s is not 187, but it's 243.
    The Air Force is being told to rely on the F-35 and it is 
not allowed to buy F-22s. Yet the Navy is thinking about 
purchasing over 100 more F/A-18s, which will inevitably result 
in them purchasing fewer F-35s.
    I really have a hard time understanding, gentlemen, how 
this makes sense. Now, General Shackelford and General Gibson, 
your chief of staff has stated that the requirement is 243 and 
he has characterized the risk of only 187 F-22s as medium to 
high. Do either of you disagree with that assessment by General 
Schwartz?
    General Gibson. Sir, of course I would agree with the 
comment of my chief. General Shackelford addressed earlier that 
the term now is higher risk, especially when one looks at 
sustainment of the fleet with those lower numbers. But I think 
his recent terminology was, in the light of today's constrained 
resources, it was an affordable solution.
    Senator Chambliss. That was my point with Secretary Gates, 
that in spite of what he says with respect to military 
requirement, this is a budget-driven decision, which means that 
somebody's going to be at risk. We know who's going to be at 
risk if we do not have the capability of maintaining air 
superiority.
    Now, General Gibson, you represent the operator. As I 
understand it, with only 187 F-22s in the fleet, none would be 
stationed in  Europe. What  kind  of  deterrent  capability  do 
 you  think  the  F-22 provides for countering a potentially 
hostile country like Iran who may seek to hold the U.S. and our 
allies at risk, who could have double-digit surface-to-air 
missiles (SAMs) in the near term?
    General Gibson. Sir, clearly the F-22, as are all of our 
tactical air assets, is a deployable asset. It can be moved to 
locations of stress, as it is now in the Pacific forward-
deployed, covering assets that are in today's fight in Iraq and 
Afghanistan. So when one looks at that and its capability, 
current basing probably is going to be reviewed again in the 
QDR, but it could be brought forward as required.
    Senator Chambliss. So your answer to that is, we're going 
to look to the QDR and we're going to decide which part of the 
world we're going to sacrifice first? We're either going to 
sacrifice Asia or we're going to sacrifice Europe, because we 
simply don't have enough F-22s in the pipe to cover both of 
them. Is that a fair statement?
    General Gibson. Sir, I'll have to stand with the previous 
comment from my Service Chief and the Secretary that 187 is 
higher risk.
    Senator Chambliss. Well, gentlemen, I have raised the issue 
of SAMs in two previous hearings this year and I fully believe 
that it is not the threat of enemy aircraft, but the threat of 
enemy SAMs and their proliferation that represents the true 
threat to our forces today.
    In response to my comment about this at our hearing in May, 
Secretary Gates said: ``The only defense against SAMs is not 
something that has a pilot in it.''
    Now, General Shackelford, General Gibson, you mention in 
your written testimony that the Joint Air-to-Surface Standoff 
Missile (JASSM) is designed to be a stealthy missile, but you 
comment that you postponed JASSM production due to 
unsatisfactory flight tests; and you're not requesting any 
funds for JASSM procurement in your fiscal year 2010 budget.
    In the written statement, the Navy witnesses discuss the 
Navy's Unmanned Combat Air System (N-UCAS) which is a stealthy 
unmanned aerial vehicle, and note that the Navy has requested 
R&D funds for N-UCAS in the fiscal year 2010 budget and that 
you are planning for a potential follow-on acquisition program.
    I would add that at the Navy posture hearing last week 
Admiral Roughead noted that he expects N-UCAS to be operational 
some time after 2020. So I'm not exactly sure what Secretary 
Gates is talking about. JASSM and N-UCAS may some day have a 
capability against SAMs, but it certainly will not be any time 
soon. The only system in the inventory that's capable of 
countering advanced SAMs now and for the next several years is 
the F-22, and that's not going to change over the next several 
years.
    My time is up and I'll look forward to the next round, Mr. 
Chairman.
    Senator Lieberman. Thank you very much, Senator Chambliss.
    Senator Begich, I want to certify that you're not only a 
nice guy; you can be very tough when you need to be.
    Senator Begich. Thank you very much. Patience is a virtue.
    I just want to put this on the record, but if you want to 
respond to it that's great. It's not about tactical aircraft, 
but related aircraft, and it's the Joint Cargo Aircraft (JCA). 
In Alaska the plan was to replace our Sherpas with these. Now 
there are about 78 aircraft. There hasn't been a real laid-out 
plan how this is going to happen, especially with our Army 
Guard that was going to be the recipient of these replacements.
    If any of you can answer it, great. If not, maybe you can 
get it to whoever can. I bring it up at every Senate Armed 
Services Committee hearing as well as subcommittee hearings. 
I'm looking for the list at some point that will define where 
the JCAs will go and what they'll be replacing and what the 
list will look like.
    I know the Air Force and DOD have prepared or are in the 
process of preparing such a list. For Alaska it's critical. The 
Sherpas are very old and the plan was for replacements. So I 
don't know if anyone wants to respond to that. If they do 
that's great. If not, I look forward to a response at some 
point in writing.
    General Shackelford. Sir, if I could comment on that. Of 
course, the Secretary of Defense moved that program from the 
Army to the Air Force and at the same time reduced the numbers 
from 78 to 38, 38 being roughly the same number as Sherpas, 
though a few less, as you observed.
    We're in the process of working the details of how that 
transfer will occur now as far as development of the C-27J, as 
well as the testing of it, how it will be managed to make sure 
that that's a smooth transition.
    Most of these aircraft, based on the concept of operations 
that the Army is after which is time-critical resupply in 
theater, will wind up being forward-deployed. So very few of 
them we expect will be present back in stateside locations, at 
least for the time being. So the actual laydown of home bases 
is to be determined. If you will, we'll take that for the 
record and get that back to you as soon as we have something.
    [The information referred to follows:]

    The Air Force, in close coordination with the National Guard 
Bureau, is working the C-27J basing plan and will provide this data 
once it is available.

    Senator Begich. That would be great. Secretary Gates went 
in front of the Senate Armed Services Committee and he 
indicated that decisions had not been formally made or where 
they'll end up. He did mention the forward theater.
    In Alaska it's critical, this type of equipment. So I just 
want to see what the long-term plan is. So if you can get that. 
This is, just so you know, I think my third request. So I'll be 
patient, as patient as I can be. At the next hearing, whoever 
shows up with a lot of brass is going to get the next 
conversation. So I look forward to it.
    The second thing is on the F136 alternative engines. 
There's a lot of debate over the 136 or the 135. I know you've 
gone one direction. I just want some discussion from whoever 
can do this. I know GE and Rolls-Royce, the producers of the 
136, obviously claim their performance is better than the 135. 
But the Government Accountability Office (GAO) says the same 
thing.
    So just walk me through how you determined that and is 
there some documentation, cost analysis, that shows why you 
went with the 135?
    Admiral Architzel. Let me start and then I'll turn it over 
to General Shackelford. First, the Navy supports the DOD 
position that in general, while we do support competition, in 
the case of the alternative engine we view that the cost of 
continuing two development programs on that is not offset by 
the savings that we would see in the future of having those two 
engines and also having to support both engine types.
    The Navy remains supportive of that position of just the 
135. We have 16 engines that have been in test and a 
significant number of hours on test with that airplane, which 
obviously has also been working with the lift fan in terms of 
Rolls-Royce. So the 135 includes both Pratt and Whitney and the 
lift fan hookup, if you will.
    So that would be where we would stand today in terms of the 
alternative engine versus the 135.
    Senator Begich. So to make sure I'm clear, I don't have it 
with me, but the GAO report indicated that the 136 had better 
efficiency and opportunity. But you disagree with that and the 
135 is the course you're taking?
    Admiral Architzel. I didn't say I disagreed with their 
comment. What I said was that the Navy's position was that 
while we generally support competition, we in this case believe 
the cost of continuing to develop a second engine versus being 
able to use the procurement dollars for aircraft or the costs 
also to maintain two engines, and the Navy supports DOD in just 
having the 135 engine.
    Senator Begich. Is there a process that you'll have, 
because you won't have the competition? What's the process 
you'll do in order to make sure that the costs of the one 
producer, one contractor, as time progresses and they get 
comfortable in the business procurement; as a former mayor, 
I've seen this before. That's why I'm asking you this.
    Admiral Architzel. Senator, we shifted acquisition lead of 
the JSF program to the Air Force, and the Air Force in that 
process is taking steps today, as they come on board both in 
the airframe as well as in the engine. So I'd rather have 
General Shackelford address that, because I think he can be 
forthright with that answer.
    Senator Begich. Thank you.
    General Shackelford. Yes, sir. Similar to Admiral 
Architzel's comments about favoring competition, the Air Force 
is one that favors competition in these kinds of cases, too. In 
this particular case, the analysis that OSD did to look at the 
costs associated with the second engine yielded a bit of a 
differing result from what the GAO reported, which basically 
says the costs associated with development of a second engine 
would be something we would consider unaffordable in the 
current timeframe while we would be doing the development, and 
that the benefit of the comparative costs would be more of a 
wash than the more optimistic version of what GAO said. So we 
don't consider that to be an affordable solution.
    Senator Begich. If you have an alternative it will hold 
down the cost. I'll echo what Senator McCaskill said. My 
concern is that you have a lot of engineering and once you get 
on that production line the contractor has cost creep. They'll 
have great justification. You'll be in a box. How do you avoid 
that, and what guarantees can you work into your system, 
contractual or otherwise, to ensure that that doesn't happen? 
When you're building this amount of volume, cost creep, they 
jack it up 2, 3, 4 percent. It doesn't seem like a lot, but in 
volume it's big money, and it's bottom line.
    General Shackelford. Yes, sir. Early on in the program 
while we have incentive types of contracts, prior to moving 
over to a fixed price type of environment, which will be a few 
lots down the road in terms of the engines, that allows us to 
get the cost and the pricing data from the contractor so that 
we have a good understanding of what it actually costs them to 
build that.
    Senator Begich. To produce that and make it.
    General Shackelford. Yes, sir. That's essential to having 
the proper perspective when we then shift into a fixed price 
environment a few years from now. So once we move to that fixed 
price environment, we no longer have that insight into the 
specifics of the costs, but we have what it was based on to 
start with. Barring some technical change in the engine that 
warrants a change in cost, we have a pretty good handle on what 
those cost at that point in time, and then it becomes a unit 
cost type of issue based on quantity.
    Senator Begich. Very good.
    Thank you very much. My time is up. Thank you.
    Senator Lieberman. Thanks, Senator Begich.
    We'll go on to the second round. I want to continue the 
questions, the topic that Senator Begich has been on. This has 
been a controversial matter on this committee and before 
Congress over the last couple of sessions, which is whether we 
should have an alternative engine or alternate engine program 
for the JSF. I take it, Admiral Architzel, that you agree with 
the President's recommendation to terminate the alternate 
engine program in the fiscal year 2010?
    Admiral Architzel. Sir, I agree with the President and 
Secretary Gates on this issue.
    Senator Lieberman. Right.
    General Shackelford, I take it from what you've just 
testified you also agree with that decision?
    General Shackelford. Yes, sir, I agree.
    Senator Lieberman. Let me ask you, General Shackelford, to 
go into a little bit more detail on the consequences of the 
decision. I know both you and the Admiral have said that, 
obviously, if we build an alternate engine it's going to cost 
more money to build two than one. What are the estimated costs 
of the alternate engine program? How much would they add to the 
buy?
    General Shackelford. Sir, between fiscal year 2010 and 
fiscal year 2015, that second engine is going to cost us $1.8 
billion in development and $2.8 billion in production.
    Senator Lieberman. Right.
    General Shackelford. The production figure there is not to 
make the second engine equal in maturity to the first engine.
    Senator Lieberman. Right.
    General Shackelford. It's to facilitate the industrial base 
to bring them up to the point that they can produce in a 
competitive environment the quantities required, which would be 
approximately 50 per year out at about Lot 6 or so in terms of 
the F-35 production lots.
    In order to facilitate those dollars, the development piece 
is $463 million.
    Senator Lieberman. Correct.
    General Shackelford. The production piece is $140 million. 
Given the remain within-our-means status of the F-35 program, 
what that would require we estimate is two to four of the 
aircraft in Lot 10 would be required to make payment for that 
engine in fiscal year 2010.
    Senator Lieberman. In other words, you'd have to cut by two 
to four the number of JSFs produced?
    General Shackelford. Yes, sir.
    Senator Lieberman. To pay for the alternate engine.
    General Shackelford. Right. The fiscal year 2010 production 
quantity is 30 aircraft, split between the 3 variants.
    Senator Lieberman. Right.
    General Shackelford. We would have to reduce that by two to 
four, depending on which of the variants----
    Senator Lieberman. In the 1 year.
    General Shackelford. In 1 year, yes, sir. Now, that has a 
negative effect on the unit cost of the remaining aircraft if 
you buy fewer. It also ripples into the next year's quantities 
and costs. Then as we take that fiscal year 2010 increment of 
dollars and extend that out through the FYDP, there are equal 
decrements in terms of the numbers of aircraft that we can buy 
with the remaining dollars.
    Senator Lieberman. So it would be what, 10 to 20 less over 
the 5-year period from 2010 to 2015?
    General Shackelford. Over the 5-year period it would be 53.
    Senator Lieberman. Fifty-three less? In other words, I'm 
asking what would be the consequences on the buy that you want 
to make of the JSF if the alternate engine program was 
continued through 2015?
    General Shackelford. The 513 that would presently be bought 
between now and through fiscal year 2015 would be decremented 
by approximately 50 aircraft.
    Senator Lieberman. By 50 aircraft. What would be the 
operational consequences of that?
    General Shackelford. As we reduce the number of aircraft, 
particularly in the near years, those aircraft are destined for 
either the operational test environment or the integrated 
training center at Eglin Air Force Base, some of which will 
eventually move on to one of the operations locations.
    So as we start to decrement the number of aircraft early 
on, we start to push out just from an availability of aircraft 
to conduct the test work necessary, not developmental tests, 
but operational tests. That will then have an effect upon the 
IOC timeline. At the Integrated Training Center it'll reduce 
the pilot throughput, so the number of pilots that we have, and 
potentially the number of maintainers who are trained on the 
aircraft through the same process, will be reduced somewhat.
    So in effect it pushes the capability out to the right.
    Senator Lieberman. So this has real consequences. In a 
normal case, of course you'd like to have two programs. But you 
can't have it all. So if you go for the two engines, we're 
going to be 53 planes short of what we'd otherwise be within 
that 5-year period.
    General Trautman, I have a recollection at a previous 
hearing on this particular subject that the Marine 
representative was very passionate about the impact of going 
with the alternate engine in terms of reducing the number of 
the JSF model that would be available to the Marines as quickly 
as possible.
    I take it you support the President's budget to eliminate 
or terminate the alternative engine program?
    General Trautman. I do, sir, and for the reasons that 
General Shackelford did a very nice job laying out. Our IOC is 
desired in 2012. Loss of any airplanes between now and 2012 
would put that IOC at considerable risk. So the early loss of 
airplanes, each and every one causes us to go back to the 
drawing board and rescript our plan to see if we can make the 
objective that the Commandant and I have in mind.
    Now, we haven't purchased a TACAIR airplane in over 11 
years and our legacy fleet of Hornets, AV-8s, and EA-6Bs have 
been ridden very hard in combat. So we are passionate about 
keeping the JSF on track, sir.
    Senator Lieberman. Admiral Architzel, why don't you just 
take a moment and talk about the consequences for the Navy of 
spending that money on the second engine instead of using it to 
accelerate the purchase of the JSFs?
    Admiral Architzel. Mr. Chairman, I really can't add much 
from what was said by General Shackelford. The facts that he 
presented I agree with, as well as General Trautman. For the 
Navy, we just have come to the point where this year we get our 
first four jets delivered on the C variant. While initially it 
may not affect those four, it certainly will affect it as we go 
forward into the FYDP in terms of developmental aircraft and 
then into production. It would have an impact on both on our 
costs. At the same time, we're talking about ramp rates and 
managing our strike fighter inventory; this would push the IOC 
out to the right further and also have an impact on our strike 
fighter account.
    So that's the same argument I think you just heard.
    Senator Lieberman. I thank you. I thank you all.
    My own personal conclusion from all of this--and I thank 
you for the case you have made--is that we can't afford the 
second engine and it will compromise the JSF program. So I hope 
we stick with the President's recommendation on that one.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Admiral Architzel and General Trautman, long-range bombers 
appear to share important attributes with carrier air wings, 
including not requiring in-theater basing, and thereby offering 
the potential for prompt strikes in a crisis. But the 
Department of the Navy's strike fighter gap could be a problem, 
especially if the JSF slips in becoming IOC.
    My question is, to what extent could an increased inventory 
of long-range bombers in some ways make up for the shortfall in 
Navy and Marine Corps strike fighters? I'd like to have you 
speak, if you could, to cost issues and survivability issues.
    Admiral Architzel. Speaking on the acquisition side, this 
question really is more specifically directed at Admiral Myers. 
I will say, having been a carrier commanding officer and 
operated carriers at sea, I know the value of carrier wings and 
I know the flexibility and adaptability they bring with them. 
So I see that today, I see that in the future. I don't see that 
changing.
    But the answer probably should come from Admiral Myers in 
terms of the requirements, sir.
    Admiral Myers. The short answer is it doesn't replace the 
carrier air wing on the flight deck. Just to give you a sense 
of how we're trying to manage this, if we did nothing in terms 
of extending the life of the current aircraft that we have in 
our legacy fleet, then you would see a 243-aircraft shortfall. 
It's clear that we're going to be doing all we can to get those 
aircraft to 10,000 hours, and we only need to get about half of 
them to 10,000 hours.
    We have a fleet of over 600 legacy F-18s and if we can get 
about 295 of those extended, then we will manage a 70-aircraft 
shortfall. It's the fleet commander's responsibility and 
prerogative of where he's going to put that shortfall.
    Just to put it in perspective, Senator, at that time when 
we see these numbers, if we project this correctly, we have 
about 760 F-18s. We'll be 70 short. So whether the fleet 
commander takes the shortfall in a training unit or in test is 
his responsibility. Now, we have levers to try to mitigate that 
and to make it even less. We have to maintain our JSF 
wholeness, we have to maintain the legacy fleet. We talked 
about SLEP and doing everything we can on the legacy aircraft.
    Lastly is we need to continue to procure the F-18 Super 
Hornets. We have a hot line. That line stays hot for 4 more 
years. We're going to continue to assess this in QDR this 
summer and we have options.
    Senator Thune. But any comment on how a long-range bomber 
might fit into that?
    General Myers. The effects that you're talking about from a 
long-range bomber are limited to kinetic. The effects that our 
carrier air wings today are delivering in Afghanistan in OEF 
range from airborne early surveillance to electronic attack to 
close air support, and then also include kinetic effects. So 
that would be only one piece of what a strike fighter carrier 
air wing would deliver in the course of supporting our troops 
on the ground.
    General Trautman. Senator Thune, I think I understand your 
premise and it's an apt premise. That is, all the parts of the 
joint force need to fit together in some kind of a puzzle, a 
combination of long-range bombers, carriers, with a combination 
of legacy and F-35Cs or Bs, F-22s, unmanned aerial systems, the 
short-takeoff and vertical landing variant--the F-35B. These 
all have to fit together and provide the joint force the 
capability set that will do what our Nation needs done both now 
and in the future.
    From my perspective, I haven't personally studied the long-
range bomber issue, so I'm not qualified to talk about whether 
the Secretary and the Chief of the Air Force have it right. But 
I trust their judgment and have to stand by where they are on 
that decision at this point, sir.
    Senator Thune. General Shackelford and General Gibson, in 
testimony before the committee, General Schwartz testified 
regarding the decision to accelerate the retirement of 250 
strike fighters that, ``The review weighed the benefits of 
retiring aircraft nearing their expected service life against 
near-term risks to our national security.'' When were these 
aircraft previously planned to be retired?
    General Shackelford. The 250 aircraft that are proposed to 
be retired in fiscal year 2010 were spread between 2010 and 
2013. The assessment that the chief brought is one that we 
believe the risk in that timeframe is minimal, given the world 
situation and given the depth of fighter capability we have 
now. The previously addressed shortfall in fighters out in 2024 
was based on ramping the F-35 to 48 per year and based on 187 
F-22s, with the remainder of the force timing out between now 
and the mid-20s.
    So as we move now to ramping the F-35 up to 80 of the Air 
Force variants or possibly to a higher number, it mitigates 
that issue from a total force structure shortfall, if you will. 
But it brings that capability back up. We dip slightly below 
where we would really like to be for 4 or 5 years here and then 
come right back up to it.
    Senator Thune. How many hours are on the aircraft that are 
going to be retired?
    General Shackelford. The service life for the F-15s right 
now is 8,000 hours, and the F-16s is 8,000 hours. Just a few A-
10s in those numbers. The A-10s go out to 16,000 hours.
    I don't know off the top of my head the specific tail 
numbers in terms of the hours that they have.
    Senator Thune. Is it done by tail number? Is that kind of 
how that was how those decisions were made about which ones are 
going to be retired?
    General Shackelford. I expect we would be very careful in 
picking and choosing the aircraft that we would be retiring.
    Senator Thune. Did the combatant commanders sign off on the 
restructuring plan?
    General Shackelford. Sir, I don't know.
    Senator Thune. General?
    General Gibson. Senator, it's my understanding they were 
briefed on it. Obviously, they needed to understand the impact. 
Some of those discussions are still ongoing. But they were all 
aware.
    Senator Thune. I know that you sort of explained how the 
interaction between the retiring planes and the F-35s coming on 
and the existing F-22s. But was the risk quantified? Was there 
a formulaic way that you went about quantifying the risk?
    General Gibson. Senator, I'm not certain of the particular 
study that was done. We can take that for the record and review 
it. It's our understanding that it was taken in the context of 
strategic risk in the near-term, as mentioned before, to take 
that and then reinvest it into both fourth generation fighter 
capability bomber upgrades as well as weapon upgrades, to use 
that for investment to bring that legacy capability up.
    [The information referred to follows:]

    The Air Force conducted analysis of the Combat Air Forces 
Restructuring Plan using the Office of the Secretary of Defense-
approved analytic baseline military objectives, while identifying the 
need for key enablers and advanced weapons for both the bomber and 
fighter forces. The resultant force mix presented less warfighting risk 
in fiscal year 2015 and beyond than any course of action that 
maintained the status quo in legacy fighter numbers. In any case, 
reinvestments must be made in modernization, weapons, and other key 
enablers.

    Senator Thune. Did you look at joint force capability? Did 
you look at the Navy and Marines in that assessment?
    General Gibson. Sir, in the context of the combatant 
command?
    Senator Thune. Yes.
    General Gibson. Sir, I can't say for certain.
    Senator Thune. I see my time has expired, Mr. Chairman. 
Thank you all again very much and thanks for your service.
    Senator Lieberman. Thank you, Senator Thune.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Mine's just kind of a general question and just more of a 
discussion point. I started this discussion with the Senate 
Armed Services Committee in the full committee. But can you 
talk a little bit about the future of the unmanned aircraft and 
the variety? Where do you see that and what does that mean for 
our military as you move forward on the next 5 years?
    Can you just have a little discussion on that? I'm not 
asking any specific question in the sense of how many or what 
cost. I'm more interested in how do you see that fitting in. 
The second part is: How do you deal with the conflict with the 
pilots, who probably aren't very excited about this idea 
because they may be behind just a little stick shift in a room 
versus in a plane flying around? How do you see to overcome 
that, but also how do you see the unmanned aircraft, in a 
variety of sources?
    Admiral Architzel. Again from an acquisition standpoint, we 
have a number of unmanned aerial vehicle systems, both ashore 
and at sea, as I mentioned on the McInerney, for example, with 
Fire Scout, where we are producing systems and testing them. 
Today it's doing well, both in day and night testing. To be 
able to deploy that aboard all air-capable ships in the future 
is a significant step forward in that regard. That's for 
reconnaissance, surveillance, and maritime domain awareness.
    We look to the next generation P-8 as we go forward. That 
airplane is being built around being able to use it with the 
BAMS aerial system as well, unmanned. That will allow us to use 
less aircraft. For example, the P-3 squadrons of today are 
manned at 12 squadrons. BAMS, the P-8 squadrons of the future, 
use less numbers of aircraft because some of that role can be 
taken up with the BAMS aircraft to go forward.
    We also have on the land side to support the Marine Corps 
as well, which is Short Takeoff Unmanned Aerial Systems 
(STUAS), as well as unmanned aerial systems on the ship. So 
again, acquisition-wise we're in a lot of development and 
stages on those programs, but also getting to the point of 
moving out on them. Then we have the BAMS demonstrator for the 
Navy as well, which is actually deployed to CENTCOM in support 
of forces.
    So I'd like to turn that requirements and operational piece 
over to Admiral Myers.
    Senator Begich. Thank you.
    Admiral Myers. Thank you for the question. Our approach is 
to leverage the unmanned vehicles at every opportunity for 
their capacity and for their capability. Admiral Architzel laid 
out a couple of levels. I'll talk about four levels. The first 
is on the surface ships we have Scan Eagle, which is going to 
be replaced with STUAS, and that extends the sensors from the 
surface ships and they're able to use the electrical-optical 
and infrared sensors. Eventually we'll be taking that kind of 
sensor and putting an automated information system on it, so 
it'll increase the situational awareness and it saves wear and 
tear on helicopters and things like that.
    On the next level is VTUAV. What Admiral Architzel just 
mentioned is we just finished the development test and 
evaluation on the McInerney, and we're going to the operational 
test.
    The VTUAV is going to be on all of our Littoral Combat 
Ships.
    So what we're doing is we're going to deploy our Littoral 
Combat Ships with a helicopter and one or more unmanned 
helicopters, if you will. So it'll augment the manned 
helicopter. It'll serve as communications relay and we have 
some other electro-optical/infrared automated information 
system and some other growth development areas for VTUAV.
    The next level is to complement our P-8s, the 737 variant, 
and to give some persistence in ISR, where we can use the P-8, 
leverage the capability that the P-8 is going to offer with 
air-to-surface antisubmarine or close-to-kill kind of 
capability. We can take advantage of the N-UCAS, BAMS, dwell 
time, and then use the same maintenance folks that are 
launching and recovering the P-8s to launch and recover the 
BAMS and N-UCAS. So we think that that's about the right blend 
of capability and capacity.
    When it comes to the air wing, we replace about half of our 
strike fighter air wing about every decade. We have 44 strike 
fighters in our carrier wing and in 1983 we IOC'ed the F-18 A 
and B. In 1987, we IOC'ed the C and D variant. Then a little 
over a decade later we brought on board the Super Hornet. Then 
in the teens we're going to bring on board the JSF, and then in 
later 2020s we're going to replace our F-18 Super Hornets with 
FA-XX.
    Now, one of our technology maturation and risk mitigators 
is to fly that kind of variant onto a carrier and prove that a 
tailless, unmanned vehicle can land on a carrier safely and 
taxi. That's what the N-UCAS demonstration is going to do. 
We're going to go to a carrier in 2011, and then we're going to 
test unmanned air-to-air refueling with a probe and drogue in 
2013.
    That puts us on a course for FA-XX to make the right 
decision in the 2020s timeframe. But to replace the F-18 E and 
F Block 2 Super Hornet, we need a lot of capability. So we have 
time to replace, to do the right kind of technology maturation 
to take us into the mid to late 2020s so that we can make the 
right decision.
    But each time we replace half the air wing we always have a 
very capable fighter that can provide the effects for the 
soldiers and the marines on the ground today and have what it 
takes for future security challenges. So that's why having a 
hot line for Boeing right now for the F-18 E and F is important 
to us as we transition to the JSF, which is the Navy's future 
for TACAIR on our flight decks.
    So we have to have both. Our challenge is to do everything 
that we can to mitigate the risk as we transition to a JSF and 
F-18 E and F Block 2 Super Hornet air wing.
    Senator Begich. Thank you very much.
    My time has expired, so I just wanted to quickly summarize. 
One of the pieces in the next 5 years is a lot of testing and 
demonstration to see the capabilities and capacity and ensure 
that it cannot only take off, land, refuel, but give the 
coverage that is necessary. Is that a fair quick summary?
    Admiral Myers. Essentially, yes. It's the takeoff and 
landing piece which we know we can do. We've done that with N-
UCAS. We've done that with VTUAV. We know we can take off and 
land and taxi. But it's the carrier piece and to make sure that 
we can taxi around the carrier, safely launch, and then also to 
go to the next step with the air-to-air refueling with an 
unmanned vehicle.
    Senator Begich. Thank you very much. At another time, I'm 
sure, when we have our Personnel Subcommittee hearing, I'll 
talk to them about just trying to get a sense of how they make 
that transition with pilots; it will be an experience, I'm 
sure, for them. But I'll leave it at that. I won't leave it for 
you to discuss, but I'll leave it to the Personnel Subcommittee 
when we meet.
    Thanks.
    Senator Lieberman. Thanks, Senator Begich.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    General Shackelford and General Gibson, please know that I 
understand you guys are the messenger and that your statements 
reflect the policy coming out of the Pentagon. But in your 
written statement you make a comment regarding the F-35 being 
the premier SAM killer. You also commented that the F-35 is 
uniquely equipped for that mission.
    Based on the information that I have, that is not correct. 
Based on the comments before the House Armed Services Committee 
last month, I don't think General Darnell thinks that statement 
is correct, either. I'm particularly concerned about this 
discrepancy since it was one of DOD's justifications for 
terminating the F-22 program, and that was the need for the 
additional air-to-ground capability that the F-35 provides and 
that the F-22 does not provide, according to DOD.
    That clearly is just not an accurate characterization. The 
F-22 has superior speed and altitude and it has the clear 
advantage, particularly against advanced SAMs, especially when 
you combine advanced SAMs and enemy air.
    So I know we can't get into all the details here, but I 
would simply offer to you or to the Air Force otherwise that if 
you want to come in and talk to me about this particular issue 
and about the assets that both the F-35 and the F-22 bring to 
the table, I would welcome that.
    Gentlemen, you refer in your written statement also to the 
Joint Air Dominance (JAD) Study and that this study has been 
mentioned as a justification for DOD's TACAIR procurement plan. 
Now, I've talked to General Schwartz about this study and I 
understand that the JAD Study was done by PA&E in 2006 and was 
based on a single major contingency operation. Now, to my 
knowledge the JAD Study assumed that F-22s had only air-to-air 
capability and no air-to-ground capability.
    First, as we previously established, the F-22 has always 
had air-to-ground capability, and the newer blocks of the F-22s 
will even have more robust air-to-ground capability.
    Second, regarding the major contingency operation (MCO) 
scenario, my staff received a briefing from the Air Force last 
month when the Air Force explained that the fundamental 
difference between DOD's assessment and the Air Force's 
assessment regarding how many F-22s are required relates to 
whether F-22s are required in more than one MCO. The Air Force 
believes that F-22s may be required in more than one MCO, which 
leads the Air Force to the conclusion that a higher number of 
F-22s are required than the 243 F-22s, and therefore that's how 
we arrive at the moderate risk analysis.
    I agree with that conclusion. I think you're exactly right. 
SAMs are proliferating right now and, although we can slow them 
down, we're not going to stop them. I find it perfectly 
reasonable to believe that a nation aligned against the United 
States like Iran, North Korea, Syria, or even Venezuela may 
acquire double-digit SAMs in the near term.
    Now, I know in your discussions when you're talking about 
threats you include--and I find it perfectly reasonable--that 
one of those countries may look for a time when we are occupied 
with another country and take advantage of our preoccupation to 
threaten the United States and our allies. As we've established 
before, only the F-22 currently has the ability to take out 
SAMs for the foreseeable future.
    Now, I've said a lot there. I don't have a question to ask 
you about that. But having said a lot, if you want to make a 
comment or dispute anything I've said, gentlemen, please.
    General Shackelford. Senator, if I may. That area of 
countering double digit SAMs is one area where both the F-22 
and the F-35 complement each other very well. You're correct in 
observing that the F-22's performance, which is from an 
altitude and air speed perspective greater than the F-35, gives 
it some advantages in some scenarios.
    The F-35 brings a different sensor set. The F-22 sensor 
set, the radar, gets upgrades to better air-to-ground 
capability in the 3.1 increment that comes along fielding in 
fiscal year 2011. The F-35 has a wider array of sensor 
capabilities that are more optimized towards air to ground and 
it has a larger payload capability, with similar stealthiness 
to an F-22. It's just not as fast in terms of how fast it can 
get in and get out, but it has similar anti-SAM capabilities to 
the F-22 in that context.
    Senator Chambliss. I don't disagree with that at all. We've 
had this situation before where the Pentagon has come forward 
with a major recommendation like this. In fact, in 2006 we had 
two scenarios. The  Air  Force  first  recommended  the  
termination  of  the  B-52. Here we are today flying the B-52 
in close air support scenarios, and thank goodness Congress 
overrode that decision from the Air Force.
    Second, the Air Force made the recommendation that we 
terminate the U-2 program. Again, Congress made the decision 
that we should not do that, and today I think you gentlemen 
would have to agree that the right decision was not to retire 
the B-52 or the U-2 because of the significant services that 
they are providing. So we'll have to see where this goes, I 
guess.
    I have one more area that I want to cover with General 
Trautman. Unlike in previous years, your fiscal year 2010 
budget request does not include any KC-130Js. It's my 
understanding that the Marine Corps may have requested those 
planes and that DOD chose not to support the request. But in 
any event, they're not in there.
    How is this going to affect the Marine Corps's ability to 
execute your mission and what is the Marine Corps's remaining 
requirement for KC-130Js?
    General Trautman. Thank you, sir. Our validated requirement 
is 79 KC-130Js. We currently have 47 KC-130Js either on 
contract or soon to be on contract. You're right, there were 
zero in fiscal year 2010. I think that was just a matter of 
other priorities resulting in that line being reduced to zero. 
But in the future we hope to get back into the procurement line 
and continue from 47 up to 79.
    The generosity of Congress last year probably had something 
to do with this in that we were able to add in the supplemental 
some of the KC-130s that we needed, and that was a very wise 
measure on the part of Congress because it enabled us to take 
out of service our 40- or 50-year-old KC-130 Fs and Rs, and we 
retired that last F and R in Okinawa, Japan, in December 2008. 
So now our full active duty fleet is KC-130Js and we're very, 
very pleased with the performance of that airplane.
    Senator Chambliss. Mr. Chairman, it's another scenario we 
have there, where all of these decisions are being budget-
driven. I don't know what the answer to it is. I don't think 
any of us know that answer. But I think we have some serious 
decisions that we're going to have to make with respect to what 
I treat as basically recommendations coming out of DOD with 
respect to these weapons systems, and we try to find the money 
and determine what the priorities should be.
    So I thank you.
    Senator Lieberman. I agree with you, Senator Chambliss. 
Thank you.
    Senator Thune has one more question.
    Senator Thune. Mr. Chairman, I have a question I'll submit 
for the record, having to do with close air support. But I do 
want to just get your reaction very quickly, if I might; 
earlier this month Defense Secretary Gates told his Japanese 
counterpart that the United States still has no plans to export 
the F-22s. He reportedly said this, and he cited a longstanding 
congressional prohibition on international sales of the F-22.
    But keeping the F-22 line hot may make sense while the 
verdict on whether the first operationally capable F-35 JSF 
will be delivered on time. So I guess my question for you is, 
should Congress consider lifting that prohibition and allow 
foreign military sales of F-22s to countries like Japan and 
Australia, which have expressed some interest?
    General Shackelford. Senator, of course the Obey amendment 
prohibits foreign military sales of the F-22 and also prohibits 
us from using any dollars to even go look at that right now. 
Were that to change, were it to be taken out of statute, that 
we could look at foreign military sales, we would go into the 
process dealing within DOD with the policy crowd and the 
international affairs community, to go look at the potential to 
put together a foreign military sales version of the F-22, and 
we would do that during our normal foreign military sales 
processes to look at it.
    What would come out of that would be some kind of a plan 
that would, given the rules for foreign military sales, have to 
be funded by the international entity in this case. So there 
would still be a fairly large question of affordability on 
their part, given the cost of the F-22, as to whether that was 
worthwhile for them to pursue or not.
    Senator Thune. Thank you, Mr. Chairman. I would echo 
Senator Chambliss' comments about budgetary factors driving a 
lot of our decisionmaking. That's obviously a concern. There 
are a lot of threats and dangers around the world, and it's 
frustrating to have budgets driving a lot of decisionmaking 
with respect to how we respond to some of those threats and 
where we put our resources.
    But I thank you all. It's not directed at you. I know you 
have a job to do and I thank you very much for your service to 
our country. Thanks.
    Senator Lieberman. Thanks, Senator Thune. I agree. I was 
thinking when Senator Chambliss said you were messengers that 
you should be assured that this is a subcommittee where we do 
not kill the messengers. So we appreciate your service very 
much.
    Just one follow-up on Senator Thune's question. I 
understand that what's involved here is the Obey amendment, not 
the Shackelford amendment or the Architzel amendment. But how 
would you describe the rationale for prohibiting foreign sales 
of the F-22, but really encouraging and kind of outreaching on 
the JSF, because we have a bunch of foreign investors and 
partners in that program?
    General Shackelford. Sir, in the case of the F-22, that 
aircraft was designed and built in a timeframe where it was not 
envisioned to be shared in the international community. There 
are a number of very sensitive technologies in the aircraft 
that are not protected in the same manner they're protected on 
the F-35, which has been built from the ground up with an 
international sales market in mind.
    So the F-22 that the United States flies would not be 
exactly the same F-22 that country X would fly if they had the 
foreign military sales version.
    Senator Lieberman. Got you. Thank you. I'm not sure even 
Congressman Obey could have answered that as well.
    I want to thank the five of you for your presence, you've 
been very responsive to our questions, and I've been impressed 
by the extent to which you're right on top of all the 
information and the programs that you oversee. I thank you for 
that. You've helped to inform our decisions. We're making tough 
and important decisions this year.
    We on this committee are always mindful that we're a Nation 
at war, and obviously the budget has to play some role and 
resources have to play some role. But we also have a role, 
which I think is a superior role, to do everything we possibly 
can to support your effort on our behalf and all those who work 
with you and under you to protect our security.
    So this has been a very productive hearing from the 
subcommittee's point of view, I believe, and will help us as we 
go forward to our markup at the end of the month.
    Do either of my colleagues have any final words? [No 
response.]
    If not, the hearing is adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Roland Burris
                        strike fighter shortfall
    1. Senator Burris. Vice Admiral Architzel, a recently released 
House Appropriations Committee report states that ``the Department of 
Defense (DOD) and Congress must seriously come to grips with the 
looming shortfall'' of fighters, and a multi-year F/A-18 deal is ``the 
most cost-effective approach.'' Likewise, the Senate Appropriations 
Committee said a multi-year F/A-18 purchase is needed ``to ensure that 
the Navy has sufficient aircraft for the fleet.'' I would like to hear 
your thoughts about this comment and meeting the shortfall.
    Admiral Architzel. Continued procurement of F/A-18E/F is one of 
four areas that the Department of the Navy will continue to assess 
through this summer's Quadrennial Defense Review (QDR) and into the 
following year's budget submission. The option for continued F/A-18E/F 
procurement could be exercised in fiscal year 2011, without a break in 
Boeing's production line capability. Other avenues to be considered--
each in balance with one another--are: (1) maintaining wholeness of the 
JSF program; (2) making a roughly $3.6 billion Program Objective 
Memorandum (POM)-12 additional investment to extend the service life of 
approximately 295 F/A-18A-D legacy Hornets from 8,600 to 10,000 flight 
hour service life; and, (3) continued funding for support of our legacy 
fleet aircraft.
    The challenge that leadership is undertaking during the QDR and 
upcoming budget year, is to determine the necessary balance of these 
options in terms of force requirements, as they become evident over 
this summer's review.

    2. Senator Burris. Vice Admiral Architzel, the Navy is expected to 
face strike fighter shortfalls in the coming years as it begins to 
modernize their fleet. One solution to meeting this shortfall that has 
been suggested is raising the service life of the F-18 Hornet 10,000 
hours--up from 8,000 hours. What are the costs associated with 
extending the service life of this plane, given that it was only 
designed to meet 6,000 service hours when it was produced?
    Admiral Architzel.

        <bullet> To extend the service life of the hornets from 8,000 
        to 8,600 hours, the Navy is currently investing an average of 
        $475,000 per aircraft for high flying hour inspections.
        <bullet> To extend the service life of 295 Hornets from 8,600 
        to 10,000 flight hours, the Navy and Marine Corps will 
        incorporate the repairs and modification improvements from the 
        list below. This will provide a 3.5 to 4.5 year return on 
        investment for a 1,400 hour service extension. The most recent 
        Naval Air Systems Command (NAVAIR) cost estimates are:

                <bullet> Service Life Extension Program (SLEP) (Depot 
                Level Repair)--$11.5 million per aircraft
                <bullet> Sustainment (engineering, logistics, supply 
                support)--$7.1 million per aircraft
                <bullet> Obsolescence (parts that are no longer 
                available)--$5.0 million per aircraft
                <bullet> Capability Improvements `Lot 21 baseline' 
                capability--$2.6 million per aircraft  (warfighting  
                improvements  to  bring  A-D  Hornets  up  to  Lot  21  
                E/F like capabilities)
                <bullet> Cost Estimate \1\--$26.2 million per aircraft
---------------------------------------------------------------------------
    \1\ Note: Depending on the Service's operational requirements, the 
need for capabilities requirements and obsolescence will vary for 
individual aircraft.

        <bullet> The Department currently has $4.1 billion invested for 
        planned maintenance and nonrecurring engineering that can be 
        leveraged in any service life extension plan for the F/A-18A-D. 
        Given this reality, the Department would need to invest an 
        additional $3.6 billion in POM-12, for a total of $7.7 billion, 
        to SLEP the aircraft in time to mitigate the strike fighter 
---------------------------------------------------------------------------
        shortfall.

                           sole source engine
    3. Senator Burris. Lieutenant General Shackelford, from my 
understanding, the sole  source  engine  for  the  F-35  was  
envisioned  as  a  derivative  engine  of  the  F-119--the engine which 
is used to power the F-22 aircraft. How much has the Government spent 
to date in developing this so-called derivative engine?
    General Shackelford. The Government has spent approximately $7.3 
billion developing the Pratt & Whitney F135 propulsion system between 
fiscal year 1995 and fiscal year 2009.

    4. Senator Burris. Lieutenant General Shackelford, is the sole 
source contract a fixed-price contract or is it a cost-plus contract?
    General Shackelford. The contract to develop the Pratt & Whitney 
F135 propulsion system is a cost plus award fee contract.

                    air sovereignty alert capability
    5. Senator Burris. Lieutenant General Shackelford, the Air Force 
has two challenges facing its air sovereignty alert (ASA) capabilities 
over the long-term. When will we see a plan for fully sourcing the 
crucial ASA mission?
    General Shackelford. Homeland defense is DOD's first priority and 
the Air Force is committed to the ASA mission. Long-term 
recapitalization of the fighter and tanker fleet requires many years. 
Within the funding available, the Air Force must maximize the life of 
the existing aircraft until they can be replaced. All of the options to 
ensure the ASA mission remains viable are dependent on the life 
expectancy of these airframes.
    The Air Force is currently developing plans to ensure that we, in 
conjunction with the rest of the DOD, can meet the combatant 
commander's requirements for the defense of the Nation--whether it is 
with Air National Guard aircraft or in combination with active duty 
assigned aircraft. There are many moving pieces as we look at all the 
different Air National Guard units around the country to determine the 
best alignment of our limited resources. We are currently waiting for 
an update from the QDR regarding the national requirement, and 
subsequently, the Air Force's requirement for this critical mission. 
From there we can come back in late fall or early winter with an 
overarching approach that will cascade throughout the Air Force, and 
that will provide the required guidance to build the Air Force's fiscal 
year 2012 POM and the President's fiscal year 2012 budget.

    6. Senator Burris. Lieutenant General Shackelford, how does the Air 
Force plan to fill the impending gap of tactical fighters if the Joint 
Strike Fighter (JSF) is not declared initial operational capability 
(IOC) by 2013, as current trends indicate?
    General Shackelford. We have invested heavily in the F-35 program 
and are closely tracking developments in order to ensure that it stays 
on track. Chief of Staff of the Air Force General Schwartz has stated 
on many occasions that the key to the Air Force's fighter 
recapitalization is the F-35.
    Once we get through the QDR and have a better picture of what the 
national requirement and the Air Force requirement is, we can look at 
an updated delivery timeline for the F-35. If there is going to be a 
gap it may be addressed by extending the service life of F-15s and F-
16s. We are currently fatigue testing the F-15 and F-16 fleets. Once 
these structural tests are complete we will have some sense of whether 
or not we need a SLEP for the legacy fleets and what scope and focus 
areas will be necessary.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                       quadrennial defense review
    7. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, until the 2009 QDR is completed sometime this summer, 
the 2006 version of the document (and its associated guidance) is the 
only framework we have for judging how well the DOD's airpower 
capabilities meet national requirements. In your view, how should 
Congress consider President Obama's proposals for the fiscal year 2010 
budget and, in particular, those reflecting substantial changes to 
force structure when the only definitive framework we have is the 2006 
QDR?
    Admiral Architzel and Admiral Myers. The Navy is currently 
committed to an 11 carrier force structure for the next several 
decades, and this commitment was supported by Secretary Gates during 
his April budget announcement. The carrier force structure, along with 
the entire battle force, is being considered in the QDR. The overall 
carrier force structure is driven by two primary considerations. First, 
we must have sufficient carrier strength to carry out the Navy's 
wartime missions and strategic assignments. Second, and equally 
important, we must have adequate force structure to meet the presence 
demands required by the President and combatant commanders. The 2006 
QDR defined the need for 11 CVNs. Navy supports the Secretary of 
Defense's plan to change the aircraft carrier program to a 5-year build 
cycle. Should the outcome of the 2009 QDR recommend changes in long-
term force structure, Navy will work with Congress to address any 
legislation that may be required.
    General Trautman. DOD's airpower capabilities will always be 
consistent with national requirements. Similarly, the Marine Corps' 
airpower capabilities are tailored to meet Marine Corps' requirements 
within the Marine Air-Ground Task Force (MAGTF) construct.
    Once a QDR is complete, our National Defense Strategy and National 
Military Strategy will be developed to meet the National Security 
Strategy issued by the President. In this way, requirements drive 
capabilities, force structure, and employment of forces. Currently, the 
only approved framework for such an assessment is the 2006 QDR. One 
possible alternative to the 2006 QDR is to measure our capability 
relative to our current National Defense Strategy; however, it too will 
evolve due to influence from the ongoing QDR.
    General Shackelford and General Gibson. In response to the dynamic 
national security environment, the Secretary of Defense provided a mid-
course update to the 2006 QDR report in the form of his 2008 Guidance 
for the Development of the Force (GDF). This guidance document 
established strategic priorities for force development planning, as 
well as a basis for development of the fiscal year 2010 POM submissions 
from the Services as part of the DOD input to the President's budget 
(PB).
    From the Air Force perspective regarding the fiscal year 2010 PB, 
we used Secretary Gates' GDF as a baseline to analyze our combat air 
forces (CAF) fighter force structure, and subsequently identified a 
window of opportunity to take a strategic pause and build a smaller, 
but more flexible, capable, and lethal force as we bridge to the fifth-
generation-enabled force. This analysis determined that the Air Force 
is faced with aging fighter aircraft during a period in history where 
we are not directly threatened by a near-peer competitor, ultimately 
assessing the risk as acceptable. Any remaining risk is mitigated in 
the short term through a combination of permanently based and 
rotational forces. The fiscal year 2010 CAF restructuring plan is part 
of a global resource allocation process to create a more efficient 21st 
century Air Force for the Joint team.
    Admiral Myers. The Navy is currently committed to an 11 carrier 
force structure for the next several decades, and this commitment was 
supported by Secretary Gates during his April budget announcement. The 
carrier force structure, along with the entire battle force, is being 
considered in the QDR. The overall carrier force structure is driven by 
two primary considerations. First, we must have sufficient carrier 
strength to carry out the Navy's wartime missions and strategic 
assignments. Second, and equally important, we must have adequate force 
structure to meet the presence demands required by the President and 
combatant commanders. The 2006 QDR defined the need for 11 CVNs. Navy 
supports the Secretary of Defense's plan to change the aircraft carrier 
program to a 5-year build cycle. Should the outcome of the 2009 QDR 
recommend changes in long-term force structure, Navy will work with 
Congress to address any legislation that may be required.

    8. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, in your view, what would the effect be on airpower 
capabilities and force structure if the 2009 QDR eliminates the 
longstanding requirement to successfully fight two simultaneous major 
theater wars?
    Admiral Architzel and Admiral Myers. The overall carrier structure 
is driven by two primary issues. First, we must have sufficient carrier 
strength to carry out the Navy's wartime missions and strategic 
assignments. Second, and equally important, we must have adequate force 
structure to meet the presence demands required by the President and 
combatant commanders. It is carrier presence demand that ultimately 
defines the carrier force structure. While major theater war demands 
are significant they tend to impact the desired readiness and response 
time required for surge capability and capacity. As a result, any 
change in major theater war numbers or sequencing will not necessarily 
impact the overall carrier requirement. However, it will define the 
number of carrier strike groups required to be available to respond and 
the timeliness of response. Should this construct change, an entirely 
new detailed analysis would be required in order to answer this 
question.
    General Trautman. General Cartwright has laid out a vision of just 
such a contraction of force structure. The applicable functions of 
airpower extend well beyond the strike and anti-air capabilities 
traditionally associated with major theater wars. Our current and 
future aviation assets provide a wide array of capabilities that 
support our Marine forces within the Marine Air-Ground Task Force. 
Regardless of the types of conflicts we must prepare to conduct 
simultaneously, Marine aviation will always strive to support 
operations across the full spectrum.
    As part of a forward-deployed naval force and an expeditionary 
force in readiness, the Marine Corps requires an aviation combat 
element with multirole capability and multi-mission aircraft. The 
effect of eliminating the long-standing requirement to fight two 
simultaneous major theater wars is difficult to determine without 
identifying what requirements take its place.
    General Shackelford and General Gibson. The 2004 National Defense 
Strategy directs a force sized to defend the homeland, deter forward in 
and from four regions, and conduct two, overlapping ``swift defeat'' 
campaigns. Even when committed to a limited number of lesser 
contingencies, the force must be able to ``win decisively'' in one of 
the two campaigns. The most recent National Defense Strategy did not 
specify a requirement to fight two simultaneous major theater wars. The 
fiscal year 2010 President's budget reflects the airpower capabilities 
and force structure to accomplish the National Defense Strategy.
    Admiral Myers. The overall carrier structure is driven by two 
primary issues. First, we must have sufficient carrier strength to 
carry out the Navy's wartime missions and strategic assignments. 
Second, and equally important, we must have adequate force structure to 
meet the presence demands required by the President and combatant 
commanders. It is carrier presence demand that ultimately defines the 
carrier force structure. While major theater war demands are 
significant they tend to impact the desired readiness and response time 
required for surge capability and capacity. As a result, any change in 
major theater war numbers or sequencing will not necessarily impact the 
overall carrier requirement. However, it will define the number of 
carrier strike groups required to be available to respond and the 
timeliness of response. Should this construct change, an entirely new 
detailed analysis would be required in order to answer this question.

                   aviation strike fighter shortfall
    9. Senator Thune. Admiral Architzel, our Nation's need for the 
continued presence of U.S. Navy aircraft carriers to protect and defend 
the interests of America and its allies is self-evident. But the 
Department of the Navy has identified a naval aviation strike fighter 
shortfall, which it projects to be more than 240 aircraft by 2018. This 
shortfall has apparently been caused by delays in the F-35 JSF program 
and the challenges associated with extending the life of older strike 
fighters. What is the Department of the Navy's current assessment of 
its aviation strike fighter shortfall?
    Admiral Architzel. The Department of the Navy's F/A-18A-D strike 
fighter shortfall is estimated to be 146 aircraft (70 aircraft for the 
Navy) in 2014. This is based on the following assumptions:

          F-35B IOC of 2012; F-35C IOC of 2015; PB10 delivery ramp and 
        final quantities
          506 F/A-18E/F program of record through fiscal year 2012
          Current Department of Navy force structure requirements:

          a. U.S. Navy: 10 CVW of 44 strike fighters each at 90 percent 
        productive ratio aircraft entitlement--35 total Navy strike 
        fighter squadrons (VFA)
          b. U.S. Marine Corps: 19 Active/1 Reserve strike fighter 
        squadrons; additional stand-up of 2 Active/2 Reserve cadre 
        squadrons with JSF beginning in 2012

          Department of Navy makes a future $3.6 billion investment 
        for service life extension of F/A 18A-D from 8,600 to 10,000 
        flight hours service life.
          NAVAIR Inventory Forecasting Tool, version 18.0.

    10. Senator Thune. Admiral Architzel, how concerned are you about 
that shortfall and its effect on future carrier warfighting capability?
    Admiral Architzel. Carrier aviation and our carrier strike group 
force structure are vital to executing our Military Strategy in support 
of the Nation's security and strategic objectives. During this summer's 
QDR, we will have the opportunity to assess the requirement for the 
essential capability and capacity that carrier aviation provides to 
current and potential conflicts, as well as the valued, continuous 
contribution that our carrier strike groups provide for preventing 
conflicts, in balance with other DOD requirements and priorities. Based 
on the outcome of this assessment, there are several factors--providing 
different opportunities--that will be considered in resourcing the 
Department of the Navy's strike fighter requirements, including 
attaining the IOC of the Department's JSFs on time and at planned 
quantities. Additionally, the Department will continue to assess and 
make determinations on a $3.6 billion additional POM-12 investment in 
the service life extension of up to 295 of our F/A 18A-D legacy 
Hornets. Finally, through PR-11, the Navy preserves the option--if 
required--to procure additional F/A-18E/F Super Hornets beyond the 
current budgeted quantity.

    11. Senator Thune. Admiral Architzel, why isn't it premature for 
the Navy to assess the significance of its projected strike fighter 
shortfall (or its operational impact) before the pending QDR is 
completed?
    Admiral Architzel. During this summer's QDR, we will have the 
opportunity to assess the requirement for the essential capability and 
capacity that carrier aviation provides to current and potential 
conflicts, as well as the valued, continuous contribution that our 
carrier strike groups provide for preventing conflicts, in balance with 
other DOD requirements and priorities. Based on the outcome of this 
assessment, there are several factors--providing different 
opportunities--that will be considered in resourcing the Department of 
the Navy's strike fighter requirements, including attaining the IOC of 
the Department's JSFs on time and at planned quantities. Additionally, 
the Department will continue to assess and make determinations on an 
estimated $3.6 billion additional investment in the service life 
extension of up to 295 of its F/A-18A-D legacy Hornets. Finally, 
through PR-11, the Navy preserves the option--if required--to procure 
additional F/A-18E/F Super Hornets beyond the current budgeted 
quantity. Each of these options provides opportunity that runs 
concurrent with or that can be acted on, after the completion of this 
summer's QDR.

    12. Senator Thune. Admiral Architzel, the Department of the Navy 
has apparently exhausted all options to reduce its projected 240-
aircraft strike fighter shortfall. There are no viable plans to speed 
up production of the carrier version of the JSF planned to be fielded 
on carrier decks around 2015. Some already suggest that this date may 
slip an additional year or 2. Finally, a Navy plan to extend the life 
of the older legacy Hornets may be too costly. Is it a viable solution 
to consider purchasing additional F/A-18 Super Hornets--the only new 
strike fighter aircraft in production? If not, how will the Navy expect 
to mitigate the shortfall and the operational risks associated with 
that shortfall?
    Admiral Architzel. Continued procurement of F/A-18E/F is one of 
four areas that the Department of the Navy will continue to assess 
through this summer's QDR  and  into  the  following  year's  budget  
submission. The  option  for  continued  F/A-18E/F procurement could be 
exercised in fiscal year 2011, without a break in Boeing's production 
line capability. Other avenues to be considered--each in balance with 
one another--are: (1) maintaining wholeness of the JSF program; (2) 
investing roughly $3.6 billion to extend the service life of 
approximately 295 F/A-18A-D legacy Hornets from 8,600 to 10,000 flight 
hour service life; and, (3) continued funding for support of our legacy 
fleet aircraft.
    The challenge that leadership is undertaking during the QDR and 
upcoming budget year, is to determine the necessary balance of these 
options in terms of force requirements, as they become evident over 
this summer's review.

                air force tactical fighter aircraft gap
    13. Senator Thune. General Shackelford and General Gibson, as you 
of course know, in hearings on the Air Force's fiscal year 2009 budget 
request, Air Force leaders testified that, due to new estimates of the 
life of the legacy fighter force, the current F-22 Raptor and JSF 
procurement plans would likely leave a gap of up to 800 fighter 
aircraft by 2024. Without the benefit of the Air Force's having 
conducted a service life assessment, as the Navy has with regard to its 
strike fighter capability, do you have a sense of what the probable 
extent of the Air Force's fighter gap is?
    General Shackelford and General Gibson. In April 2008, the Air 
Force estimated its projected fighter shortfall in the mid-2020s at 
approximately 800 aircraft, which assumed a maximum F-35A production 
rate of 48 aircraft a year beginning in 2013. Since that time, several 
things have changed that influence projected fighter requirements in 
the coming decade and beyond: the Secretary of Defense published the 
National Defense Strategy and the attendant force planning construct; 
the fiscal year 2010 President's budget request included funding to 
increase the production rate to 80 F-35A aircraft a year beginning in 
2015; and the Department has begun assessing fighter force requirements 
as part of the QDR. Following conclusion of the QDR, the Air Force will 
reassess fighter force structure through 2030.

    14. Senator Thune. General Shackelford and General Gibson, with 
declining procurement dollars as far as the eyes can see, to what 
extent could buying more quantities of legacy aircraft such as F-16s 
and F-15Es help mitigate--on a cost-effective basis--a major fighter 
shortfall in the Air Force over the intermediate- to long-term?
    General Shackelford and General Gibson. In a limited defense 
budget, it is essential we focus our efforts and resources on procuring 
fifth-generation fighters. The F-35 is the aircraft that will allow the 
Air Force to perform our missions for the next 20 to 30 years, to be 
certain, along with a complementary fleet of F-22s. Therefore, we need 
to put whatever funding is available to ramp up F-35 production rates 
so that: (1) we can field sufficient numbers of aircraft to effectively 
manage the aging issues of our fighter fleet; and (2) keep the average 
unit cost affordable to us, our fellow Services, and our international 
partners. Buying legacy aircraft would come at the expense of fifth-
generation fighters, and would promote a less capable, less survivable 
fighter force.

    15. Senator Thune. General Trautman and General Gibson, a March 
2008 Government Accountability Office (GAO) report on the F-35 program 
raises serious concerns regarding the development schedule for the F-
35. According to the GAO report on the F-35 program, ``[T]hree 
independent defense offices separately concluded that . . . the F-35 
program development schedule is likely to slip from 12 months to 27 
months.'' What impact will a slip in the development schedule of the F-
35 have on the projected strike fighter shortfall?
    General Trautman. The Marine Corps is confident that the current 
schedule will be met. Meeting this schedule will ensure that it will 
bridge from its legacy aircraft to the fifth-generation JSF and not 
contribute to the strike fighter shortfall.
    General Gibson. In light of ongoing assessments such as the QDR 
plus the emerging National Defense Strategy and its attendant force 
planning construct, the Air Force is taking a close look at the 
projected strike fighter force requirements for the coming decade and 
beyond. The current program of record for the F-35, with its programmed 
build up through the Future Years Defense Program (FYDP) of production 
aircraft to reach a plan of 80 aircraft per year by 2015, helps the Air 
Force mitigate risk in the strike fighter mission. Slips in the 
development schedule will impact the level of risk.

              air force strike fighter restructuring plan
    16. Senator Thune. General Shackelford and General Gibson, in 
testimony before the committee, General Schwartz testified, regarding 
the decision to accelerate the retirement of 250 strike fighters, that 
``[t]he review weighed the benefits of retiring aircraft nearing their 
expected service life, against near-term risk [to our national 
security].'' When were these aircraft previously planned to be retired?
    General Shackelford and General Gibson. The aircraft under the 
proposed fiscal year 2010 CAF restructuring plan would retire in a 
range from approximately 3 years early for certain F-16s, approximately 
6 years early for certain F-15Cs, to about 11 years for the A-10s, all 
based upon force structure plans and service life considerations. The 
important point to emphasize is in order to comply with OSD's Guidance 
for the Development of the Force, the Air Force analyzed its fighter 
force structure and determined we have a window of opportunity to take 
a strategic pause and build a smaller, but more flexible, capable, and 
lethal force as we bridge to the fifth-generation-enabled force.
    This analysis determined that the Air Force is faced with aging 
fighter aircraft during a period in history where we are not directly 
threatened by a near-peer competitor, ultimately assessing the risk as 
acceptable. Any remaining risk is mitigated in the short term through a 
combination of permanently based and rotational forces. The CAF 
Restructuring plan is part of a global resource allocation process to 
create a more efficient 21st century Air Force for the Joint Team.
    This plan offers your Air Force an opportunity to reinvest 
significant savings into critical modifications for our enduring combat 
forces fleet, procure preferred air-to-air and air-to-ground munitions 
and critical Air Force and Joint enabling technologies, and 
redistribute manpower to national priority missions.

    17. Senator Thune. General Shackelford and General Gibson, how many 
hours are on the aircraft you are going to retire?
    General Shackelford and General Gibson. Specific aircraft have not 
been selected, but once a determination is made to pursue a force 
structure change that drives aircraft retirements, the lead command 
weapon system team, in concert with the System Program Office, will 
review a multitude of data across the fleet. Examples of those are the 
current operating time (flight hours) on the aircraft and current 
modifications on the fleet that would lead to targeting aircraft that 
haven't been modified in order to reduce installation costs and 
increase quantities of spare parts for the remainder of the fleet. 
Depot induction requirements such as SLEP/scheduled structural 
inspection will be reviewed in order to potentially recoup depot cost 
by not inputting a retiring aircraft.

    18. Senator Thune. General Shackelford and General Gibson, are you 
managing aircraft retirements by tail numbers?
    General Shackelford and General Gibson. Yes. Air Combat Command 
(ACC), the Air Force's lead command for our combat aircraft, is 
developing a detailed plan for implementing the proposed fighter 
aircraft retirements in fiscal year 2010. ACC's force programmers and 
weapons systems teams comprehensively manage each type of fighter 
aircraft as an entire fleet. These teams will select the most 
appropriate aircraft across the fleet for retirement by tail number, 
based on a variety of factors such as total airframe hours, remaining 
service life, airframe fatigue, maintenance history, and completed or 
required future modifications. The end result is the retirement of 
aircraft that are generally the oldest and least capable in the fleet 
of their type. This optimizes unit combat capability by retaining the 
strongest and most capable performing aircraft for training and 
operational employment.

    19. Senator Thune. General Shackelford and General Gibson, did the 
combatant commanders sign off on your restructuring plan?
    General Shackelford and General Gibson. Yes. As we developed the 
CAF restructuring plan as part of the fiscal year 2010 Air Force POM 
build, we were successful in balancing planned force reductions across 
our active duty, Guard, and Reserve components, as well as in the 
States and overseas locations. We carefully analyzed the missions 
across our units in all the Air Force components to achieve the force 
mix that made the most strategic sense. The changes in this plan were 
closely coordinated with our Air National Guard and Air Force Reserve 
partners, as well as our Major Commands and affected Combatant 
Commanders.
    The Air Force Director of Programs (a two-star general), 
representing the Air Force Deputy Chief of Staff for Strategic Plans 
and Programs, traveled to all Air Force Major Commands and Unified 
Combatant Commands to personally brief the four-star commanders or 
their designated representatives on the Air Force fiscal year 2010 POM 
submission. Concerns about the program were either addressed directly 
with Air Force leadership, or the combatant commanders could address 
their concerns with the Secretary of Defense. Ultimately, Secretary 
Gates approved the restructuring plan as part of the DOD submission to 
the fiscal year 2010 President's budget, announcing on April 6th, 2009 
that ``we will retire 250 of the oldest Air Force tactical fighter 
aircraft in fiscal year 2010.''

    20. Senator Thune. General Shackelford and General Gibson, how 
exactly did you quantify that risk?
    General Shackelford and General Gibson At the campaign level, the 
Air Force conducted analysis of the CAF restructuring plan using the 
OSD-approved analytic baseline military objectives, while identifying 
the need for key enablers and advanced weapons for both the bomber and 
fighter forces. The resultant force mix presented less warfighting risk 
in fiscal year 2015 and beyond than any course of action that 
maintained the status quo in legacy fighter numbers. In any case, 
reinvestments must be made in modernization, weapons, and other key 
enablers.

    21. Senator Thune. General Shackelford and General Gibson, did the 
risk assessment consider the joint air force capability of all the 
Services; that is, the Navy and Marine Corps also?
    General Shackelford and General Gibson. Yes. The assessment 
considered the ability of the force structure to address the Air Force 
target set which is developed in the context of the Joint Campaign. The 
unified combatant commands were consulted and their respective 
combatant commanders concurred with the CAF restructuring plan that was 
ultimately approved by the Secretary of Defense.

    22. Senator Thune. General Shackelford and General Gibson, did the 
risk assessment include the increased reliance by combatant commanders 
on aviation assets in lieu of the relative unavailability of ground 
combat units due to decreased readiness rates and commitments to 
overseas contingency operations?
    General Shackelford and General Gibson. The Air Force conducted 
analysis of the CAF restructuring plan using the OSD approved analytic 
baseline military objectives, while identifying the need for key 
enablers and advanced weapons for both the bomber and fighter forces. 
The resultant force mix presented less warfighting risk in fiscal year 
2015 and beyond than any course of action that maintained the status 
quo in legacy fighter numbers. In any case, reinvestments must be made 
in modernization, weapons, and other key enablers.
    The Air Force itself did not specifically analyze the risk of 
increased reliance on aviation assets due to unavailability of ground 
units. However, all of the unified combatant commands were consulted 
and their respective combatant commanders concurred with the CAF 
restructuring plan that was ultimately approved by the Secretary of 
Defense.

    23. Senator Thune. General Shackelford and General Gibson, when do 
you anticipate that the risk will be mitigated or eliminated?
    General Shackelford and General Gibson. To comply with Secretary 
Gates' 2008 Guidance for the Development of the Force, the Air Force 
analyzed its fighter force structure and identified a window of 
opportunity to take a strategic pause and build a smaller, but more 
flexible, capable, and lethal force as we bridge to the fifth-
generation-enabled force. This analysis determined that the Air Force 
is faced with aging fighter aircraft during a period in history where 
we are not directly threatened by a near-peer competitor, ultimately 
assessing the risk as acceptable. Any remaining risk is mitigated in 
the short term through a combination of permanently based and 
rotational forces, and further reduced in the mid-term as we field 
greater numbers of fifth-generation fighters. The fiscal year 2010 CAF 
restructuring plan is part of a global resource allocation process to 
create a more efficient 21st century Air Force for the joint team.

    24. Senator Thune. General Shackelford and General Gibson, what is 
the impact on current mission capabilities and to the Air Force's 
fifth-generation requirements in the out years?
    General Shackelford and General Gibson. In line with the Office of 
the Secretary of Defense's guidance to eliminate excessive overmatch in 
force structure, the Air Force assessed the threat environment and 
analyzed CAF capabilities. Studies show the Air Force has a window of 
opportunity to: (1) reshape our aging fighter force via accelerated 
retirements, (2) redistribute funding to modernize and equip a smaller, 
more flexible, capable and lethal force, and (3) redistribute manpower 
to support expanding areas of critical national priority missions. 
Although the fighter fleet will be smaller, the effects provided by the 
newer modifications, preferred munitions, and critical enablers create 
a capabilities-based bridge from our current force to a fifth-
generation-enabled fighter fleet. These actions will ensure the proper 
mix of platforms to meet the combatant commanders' mission 
requirements.

    25. Senator Thune. General Shackelford and General Gibson, in his 
testimony before the committee, General Schwartz, the Air Force Chief 
of Staff, testified that the CAF restructure plan would not only fund 
upgrades to the legacy fighter fleet, but also fund improvements to the 
bomber fleet. Specifically, he mentioned that all three bombers will 
receive radar upgrades. How does the CAF restructure plan benefit the 
B-1 fleet?
    General Shackelford and General Gibson. The fighter force 
restructure plan reinvests savings from accelerating the inevitable 
retirement of older legacy aircraft back into the remaining legacy 
fighters and bombers, munitions, and other key enablers. Specifically, 
the fiscal year 2010 PB adds funding into the B-1 program for gyro 
stabilization system replacements, inertial navigation system 
replacements, central integrated test system upgrades, an advanced 
radar electronic warfare test system, and nose radome repair 
capabilities. Fiscal year 2010 PB also continues the Radar Reliability 
and Maintainability Improvement Program (RMIP), which addresses 
reliability and maintainability issues that have the potential to 
ground fleet aircraft as early as fiscal year 2011. Although it does 
not increase the capability of the current system, it will increase 
aircraft availability through greater reliability and ease of 
maintenance. By accelerating the inevitable retirements of our aging 
fighter force, we are able to reinvest approximately $1.0 billion 
across the FYDP to the bomber fleet as a whole and build a smaller, but 
more capable and lethal force as a bridge to fifth-generation-enabled 
capabilities.

    26. Senator Thune. General Shackelford and General Gibson, what are 
the plans to upgrade the B-1 bomber's radar?
    General Shackelford and General Gibson. The fiscal year 2010 PB 
provides funding for the B-1 Radar RMIP, which addresses reliability 
and maintainability issues that have the potential to ground fleet 
aircraft as early as fiscal year 2011. This modification provides for 
the upgrade of the B-1 radar (AN/APQ-164) to resolve significant 
diminishing manufacturing resources, reliability problems with the 
existing dual-string radar, and will allow the B-1 to take advantage of 
future radar improvements. The hardware modification leverages off the 
already completed F-16 Foreign Military Sales (FMS) (V) 9 radar 
program, and specifically provides two modular receiver exciters, two 
common radar processors, supporting installation cables, and clamps. 
This line replaceable unit upgrade is a form-fit-function installation. 
Although it does not increase the capability of the current system it 
will increase aircraft availability through greater reliability and 
ease of maintenance.

          long-range bombers and the strike fighter shortfall
    27. Senator Thune. Admiral Architzel and General Trautman, long-
range bombers appear to share important attributes with carrier air 
wings, including not requiring in-theater basing and, thereby, offering 
the potential for prompt strikes in a crisis. But, the Department of 
the Navy's strike fighter gap could be a problem; especially if the JSF 
slips in becoming IOC. To what extent could an increased inventory of 
long-range bombers, in some ways, make up for the shortfall in Navy and 
Marine Corp strike fighters? Please speak specifically to cost and 
survivability.
    Admiral Architzel. Increasing the inventory of long-range bombers 
doesn't replace the carrier air wing on the flight deck for several 
reasons--the carrier strike wings provide airborne early warning and 
surveillance, electronic attack and close air support along with a 
kinetic impact (effects that munitions will have on specific targets 
prosecuted) to the troops on the ground. The long-range bomber in this 
case is limited to the kinetic. As part of the Joint Force, the long-
range bomber and the carrier strike wing work well together both now 
and in the future.
    General Trautman. The Marine Corps' warfighting structure is based 
upon the MAGTF. MAGTFs are task organized and can be tailored to a 
specific threat. While long-range bombers are a strategic asset, the 
Corps views our MAGTFs as an operational asset with forcible entry 
capability and the ability to operate without long-range bombers. The 
Marine Corps maintains confidence in the JSF Program Office's ability 
to maintain schedule and will fund its legacy fleet of Hornets and 
Harriers to mitigate any perceived negative inventory trends in its 
strike fighters. The best option for cost and survivability is to 
procure the fifth-generation F-35 in all variants, especially the 
short-takeoff and vertical landing (STOVL) F-35B variant. Fifth 
generation offers the Nation the best balance of cost, lethality, and 
survivability.

                   f-35 joint strike fighter program
    28. Senator Thune. General Trautman and General Shackelford, the 
JSF program's size, its international scope, and its competing 
objectives for performance, cost effectiveness, and commonality make it 
arguably the most challenging defense acquisition program ever. With 
shortfalls in strike fighter capability, the Air Force, Navy, and 
Marine Corps are relying on the program's delivering each of those 
Service's versions of an IOC aircraft on time.
    In connection with this year's budget request, the President 
proposes to increase the buy of the F-35 JSF from the 14 aircraft 
bought in fiscal year 2009 to 30 in fiscal year 2010, with 
corresponding funding increases from $6.8 billion to $11.2 billion. 
According to the proposal, we would plan to buy 513 F-35s over the 5-
year defense plan, and, ultimately, plan to buy 2,443. So, this is a 
good time for an update on the program.
    In terms of quantity and investment over the FYDP, please explain 
how the DOD's plan to procure JSF aircraft is different now, from what 
was proposed last year.
    General Trautman. DOD's plan to procure JSF will meet the Marine 
Corps' IOC of 2012. The program will manage risk in production 
quantities in order to maintain IOC.
    General Shackelford. When the fiscal year 2009 President's budget 
was submitted to Congress, the plan was to procure 485 F-35 aircraft 
for the Air Force, Navy, and Marine Corps through fiscal year 2015. The 
current plan is to procure 513 aircraft, an additional 28 aircraft, 
through fiscal year 2015. The overall quantity of aircraft to be 
procured for the U.S. is 2,443 aircraft.
    General Schwartz, Air Force Chief of Staff, stated that the F-35 is 
a key capability to ensure U.S. air superiority for the next 20 to 30 
years. He has repeatedly emphasized the importance of high production 
rates as a way to manage our aging aircraft inventory and keep the 
average price of the F-35 competitive for not only the USAF and DOD, 
but our allies as well. The fiscal year 2010 budget renews our 
commitment to the F-35 as the backbone of U.S. and allied fighter force 
structure in the years to come.

    29. Senator Thune. General Trautman and General Shackelford, with 
regard to each variant, please explain where the program is on 
developmental testing, where it is going, and when it is going to get 
there.
    General Trautman. The Test and Evaluation Master Plan (TEMP) fully 
identifies those sorties necessary to verify all mission systems and 
life science flights required to fully test the air system. The Marine 
Corps has confidence that the TEMP, as currently written, will meet its 
objective.
    General Shackelford. AA-1, the first conventional takeoff and 
landing (CTOL) variant, has flown 87 times. It is currently in flyable 
storage at Lockheed Martin Fort Worth and is scheduled to fly to China 
Lake later this year to begin live fire testing. BF-1, the first STOVL 
variant, has flown 14 times. BF-1 is scheduled to ferry to Patuxent 
River in August 2009 and conduct its first vertical landing in 
September 2009. BF-2 has flown once.
    AF-1, the first weight-optimized CTOL variant, is scheduled to 
begin flight tests in September 2009 and ferry to Edwards Air Force 
Base (AFB) in February 2010. CF-1, the first carrier variant, is 
scheduled to fly in January 2010 and ferry to Patuxent River in June 
2010.

    30. Senator Thune. General Trautman and General Shackelford, at 
this point, is the program having any difficulty meeting its key 
performance parameters?
    General Trautman. JSF program is meeting all key performance 
parameters.
    General Shackelford. All F-35 variants are projected to meet their 
respective key performance parameters.

    31. Senator Thune. General Trautman and General Shackelford, please 
explain, in objective terms, not relative to legacy programs at 
comparable points, how successful the program is likely to be in terms 
of retiring risk and design maturity before we get much more into 
production.
    General Trautman. The JSF program is following a path of 
concurrency. The Marine Corps is still developing the program and will 
enter production. The program believes that sufficient simulation and 
laboratory assets are available to mitigate the risk of concurrency.
    General Shackelford. The Department is very pleased with the 
program's progress in retiring risk and demonstrating design and 
processes maturity. Extensive use of ground test laboratories, modeling 
and simulation techniques and flying test beds continue to mature 
designs and burn-down development risk far in advance of flight 
testing. The first system development and demonstration (SDD) aircraft, 
AA-1, has been a superb aircraft and valuable pathfinder, incorporating 
80 percent of flight software and aircraft systems that will also be 
used in the STOVL variant. AA-1, BF-1, and BF-2 are all in flight 
testing, and validating design, manufacturing and test processes, aero 
performance, vehicle systems performance, control systems and our 
autonomic logistics global sustainment concepts. These three initial 
SDD jets have returned from sorties as ``Code 1,'' i.e., ready to fly 
again, 80 percent of the time. Actual flight-test data correlation to 
modeling is outstanding, showing the maturity of design tools. AA-1 
also greatly contributed to validation of design and production 
processes by demonstrating actual weight within 0.1 percent of 
predicted, no fuel leaks during ground tests (unprecedented), high 
level of quality in manufacturing and assembly, and a high frequency of 
flights. ``Digital Thread'' technology is a key enabler of the 
exceptional manufacturing quality we've seen on AA-1, manifested in 
dramatically lower defects and scrap rates compared to legacy programs, 
which in turn results in cost avoidance.
    Extensive use of digital design and development tools, ground test 
laboratories, modeling and simulation techniques and flying test beds 
continue to mature designs and burn-down development risk far in 
advance of flight testing. The remaining SDD jets and ground test 
articles, plus low rate initial production (LRIP) I and LRIP II 
aircraft, are in various stages of production. The SDD jets are taking 
longer to build than planned but setting new standards for quality and 
manufacturing efficiencies that improve with each jet. Software is 74 
percent complete, with 13 million lines of code, per the spiral 
development plan/schedule and with record-setting code-writing 
efficiencies. Software demonstrates stability (i.e., tens to hundreds 
of hours error-free run times) across multiple mission system 
subsystems. Challenges remain, but development is on track, and DOD 
closely monitors program progress on technical issues and risk 
mitigation.

    32. Senator Thune. General Trautman and General Shackelford, I 
understand that development is expected to slip from 2 to 9 months. 
Exactly what caused that slip in development, and why won't this affect 
the production schedule adversely?
    General Trautman. Pratt & Whitney experienced some problems during 
developmental testing. The cause of these problems was quickly 
identified and mitigation plans were put into place. The overall 
development of the air system has not been jeopardized. The Marine 
Corps expects to meet its steadfast IOC of 2012.
    General Shackelford. The current program status reflects average 
delays of approximately 3 months, driven by late bit/piece parts which 
have been driven by late configuration changes to accommodate ``make-
it-work'' changes. A variety of mitigation actions are in work to 
maintain the current status and/or recover schedule. These include 
expediting teams at all critical part suppliers, increased staffing in 
key Lockheed Martin planning and assembly areas, and optimized/
integrated work plans by ship by work station for each behind schedule 
aircraft.

    33. Senator Thune. General Trautman and General Shackelford, please 
explain how the program intends to mitigate the slip to maintain or 
recover its schedule.
    General Trautman. Pratt & Whitney experienced some problems during 
developmental testing. The cause of these problems was quickly 
identified and mitigation plans were put into place. The overall 
development of the air system has not been jeopardized. The Marine 
Corps expects to meet its steadfast IOC of 2012.
    General Shackelford. The current program status reflects average 
delays of approximately 3 months, driven by late bit/piece parts which 
have been driven by late configuration changes to accommodate ``make-
it-work'' changes. A variety of mitigation actions are in work to 
maintain the current status and/or recover schedule. These include 
expediting teams at all critical part suppliers, increased staffing in 
key Lockheed Martin planning and assembly areas, and optimized/
integrated work plans by ship by work station for each behind schedule 
aircraft.

    34. Senator Thune. General Trautman and General Shackelford, please 
explain where the program is in terms of its systems integration plan 
and why the plan, and the program's performance under that plan, will 
effectively mete out integration risk.
    General Trautman. The JSF Program Office is actively monitoring all 
aspects of integration to include systems integration. The program as 
currently structured is balancing cost, schedule, and performance and 
the Marine Corps has confidence in the Program Executive Officer's way 
forward to meet our IOC date of 2012 while delivering a Block II air 
system.
    General Shackelford. As of May 2009, systems integration testing 
continues on plan via flight tests, a flying lab and over 150,000 hours 
of ground labs testing. A fully integrated mission systems jet will fly 
later this year. All F-35 variants are projected to meet their 
respective key performance parameters. The F-35 plan for incremental 
blocks of capability balances cost, schedule, and risk.
    Extensive use of ground test laboratories, modeling and simulation 
techniques, and flying test beds continue to mature designs and burn-
down development risk far in advance of flight testing. Deliveries of 
SDD aircraft are approximately 3 months on average behind plan, but 
mitigation plans are in place to maintain or recover schedule. 
Challenges remain, but development is on track, and DOD closely 
monitors program progress on technical issues and risk mitigation.
    The cooperative avionics test bed (CATB), a modified Boeing 737 
designed to validate the JSF's avionics suite, has flown 65 flights and 
165 total hours, including 54 hours of mission systems testing. The 
nose of this aircraft has been modified to replicate the F-35, and a 
13-foot canard has been added to emulate the wing. External structures 
on the aircraft's top and bottom hold F-35 avionics equipment and about 
1,500 wiring harnesses to connect and link the various mission system 
sensors. This aircraft will integrate and validate the performance of 
all F-35 sensor systems before they are flown on F-35 aircraft. CATB 
recently successfully deployed with Block 0.5 software, which will be 
the operational load in the first LRIP I jet deployed to Eglin next 
year.
    Three SDD jets (AA-1, BF-1 and BF-2) are in flight testing. The 
remaining SDD jets and ground test articles, plus LRIP I and LRIP II 
aircraft, are in various stages of production. The SDD jets are taking 
longer to build than planned, but setting new standards for quality, 
and manufacturing efficiencies that improve with each jet. Software is 
74 percent complete, with 13 million lines of code, per the spiral 
development plan/schedule and with record-setting code-writing 
efficiencies. Software demonstrates stability (i.e., tens to hundreds 
of hours error-free run times) across multiple mission system 
subsystems.

    35. Senator Thune. General Trautman and General Shackelford, I 
understand that the F135 engine has seen considerable cost growth. 
Please explain how much costs have grown in the engine program and what 
measures will be employed to control costs in there.
    General Trautman. The Marine Corps does not manage specific aspects 
of the program to include costs. The Program Office, as the executive 
agent of the government to industry, is actively managing all aspects 
of the program with regard to cost, schedule, and performance. The 
Program Executive Officer has taken direct measures to manage cost 
growth in the propulsion system.
    General Shackelford. The F135 SDD contract estimate has increased 
from $4.8 billion at contract award in 2001 to $6.7 billion now. 
Primary drivers of the $1.9 billion increase were approximately $1 
billion for the 2004 F-35 replan to address weight-driven aircraft 
performance issues and $0.8 billion for implementation of over target 
baseline due to cost overruns.
    Cost estimates for production engines have also increased. Much of 
the final engine cost is associated with Pratt and Whitney suppliers. 
Pratt is visiting its major suppliers to help them improve efficiencies 
and reduce cost in key areas. Pratt also has a robust affordability 
initiatives process in place that identifies new manufacturing 
processes and design changes that reduce manufacturing time and costs. 
A board reviews proposed initiatives and implements them if the 
business case is positive. In addition, the program office has 
implemented a cost control objective award fee area to incentivize 
Pratt and Whitney to focus on cost control.

    36. Senator Thune. General Trautman and General Shackelford, at 
this point, where do you see the most significant risk in the program?
    General Trautman. Interrupting the stable funding profile as 
submitted in PB10 would introduce risk to the program.
    General Shackelford. Extensive use of ground test laboratories, 
modeling and simulation techniques and flying test beds continue to 
mature designs and burn-down development risk far in advance of flight 
testing. All F-35 variants are projected to meet their respective key 
performance parameters. Deliveries of SDD aircraft are approximately 3 
months on average behind plan, but mitigation plans are in place to 
maintain or recover schedule. Challenges remain, but development is on 
track, and DOD closely monitors program progress on technical issues 
and risk mitigation. A key management focus area now is SDD cost and 
schedule pressures. The key drivers for these challenges are supply 
chain growing pains, design change traffic and, as with all development 
aircraft programs, flight test progress.

    37. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, GAO's March 2009 report, ``JSF--Accelerating 
Procurement before Completing Development Increases the Government's 
Financial Risk,'' notes that ``two recent [DOD] estimates indicate that 
JSF development will cost more and take longer to complete than 
reported to Congress in April 2008, primarily because of contract cost 
overruns and extended time to complete flight testing.'' According to 
GAO, DOD projects that JSF developmental costs could increase between 
$2.4 and $7.4 billion, with the program experiencing schedule delays of 
up to 3 years. Only last year, DOD's JSF program-of-record indicated 
completing development would require $7.4 billion and a DOD Joint 
Estimating Team (JET) estimated the cost at more than $15 billion. The 
JSF Program Office concluded that completion of aircraft development 
would require $9.8 billion. Of course, these varying estimates stand in 
stark contrast to DOD's April 2008 Selected Acquisition Report (SAR) 
which seemingly concluded that JSF costs were actually decreasing. 
Needless to say, with an approaching strike fighter gap in the Navy and 
fighter gap in the Air Force, these discrepancies are troubling.
    However, under the current budget proposal and despite increasing 
development costs and schedule slips DOD is apparently intending to 
accelerate JSF procurement. According to GAO, such acceleration could 
require up to an additional $33.4 billion over the next 6 years and 
would expose the Government to additional risk of cost growth. GAO 
estimates that an accelerated plan could have DOD procuring 360 JSF 
aircraft costing approximately $57 billion before development flight 
testing is completed.
    Based on your experience over many years, both in and out of 
government, is it your sense that DOD has a good handle on JSF program 
cost, performance, and schedule? If so, why the significant variations 
in DOD's own cost/schedule estimates? If not, what steps should DOD and 
Congress take to get arms around program cost, performance, and 
schedule?
    Admiral Architzel and Admiral Myers. As clarification, the Pentagon 
JET projected a potential $3.6 billion development cost increase 
(excluding F136 engine continuance), not an additional $15 billion 
development cost increase.
    The Department constantly monitors the JSF Program's development 
through an unmatched oversight structure, befitting the largest single 
acquisition program in the Department. The program recently awarded the 
third LRIP lot for 14 United States aircraft with the costs at the 
Department's budgeted figure. The costs for the engine have increased 
over the last year and the program is taking steps to work with the 
engine contractor to reduce those costs. In 2008, the Department 
chartered a JET to provide an independent assessment of program cost 
and schedule. The JET identified F-35 development and production risks. 
Through rigorous reviews, DOD and our international partner leaders are 
tracking those risks and making recommendations on how to appropriately 
address those risks. In the fiscal year 2010 budget request, additional 
development funding was added as a result of these reviews. The 
development schedule remains on track with some risk to completing the 
test schedule on time. The additional funding budgeted in fiscal year 
2010 will help address those risks, and the Department will review the 
progress again in preparation for the fiscal year 2011 budget 
submission. The performance is tracking to projections and meeting all 
requirements. The test aircraft are exhibiting unmatched reliability 
for this stage of testing. Static and durability testing of ground test 
aircraft are providing excellent results and the engine performance is 
providing more thrust than required. By the end of fiscal year 2010, we 
expect to have all of the development and LRIP Lot 1 aircraft 
delivered.
    General Trautman. The Marine Corps has confidence in current 
leadership of the JSF program to manage cost, schedule, and 
performance. PEO JSF has submitted updated cost schedules to OSD and 
the Marine Corps has confidence that these schedules will be met.
    General Shackelford  and General Gibson. Yes, DOD has a good handle 
on the cost, schedule, and performance of the JSF Program. The Services 
have spent considerable time reviewing the program and bringing in 
independent cost experts to develop a joint cost estimate. This joint 
estimate assessed the overall ability to execute the development 
program and identified technical and executing constraints. It 
developed cost and schedule estimates reflecting F-35 performance to 
date and performance of other DOD programs and suggested improvements 
that address cost and schedule issues. Internal JSF Program Office 
estimates are more optimistic based on early, upfront investments made 
in the program. There are significant program milestones that will take 
place this year and in fiscal year 2010 which will determine how well 
the program is doing against the current joint estimate.

    38. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, in light of the size, scope, cost, and importance of 
the JSF program, should DOD release copies of the JSF Program Office 
and DOD JET estimates/reports identified by GAO?
    Admiral Architzel and Admiral Myers. The JET assessment was a DOD 
predecisional, for official use only effort to support the Department's 
development of the yiscal year 2010 President's budget and outyear 
planning. The Department provided briefings last fall to the Government 
Accountability Office (GAO) on the JET's conclusions and assumptions 
and the Program Office's perspectives on the same.
    General Trautman. The JSF Program Office is managing all cost 
estimates and reports and is treating these documents as FOUO 
information. The Marine Corps has confidence in the JSF program 
leadership.
    General Shackelford and General Gibson. No, the JET assessment was 
a DOD predecisional, for official use only effort to support the 
Department's development of the fiscal year 2010 President's budget and 
outyear planning. The Department provided briefings last fall to GAO on 
the JET's conclusions and assumptions and the Program Office's 
perspectives on the same.

    39. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, does there need to be a more open and insightful 
dialogue or debate on the significant challenges confronting the JSF 
program?
    Admiral Architzel and Admiral Myers. Various leadership from DOD, 
Navy, Air Force, Marines, and F-35 International Partners routinely 
convene to review program status, address issues, discuss planning, and 
provide strategic oversight. Standing forums include the following: 
Joint Executive Steering Board (i.e., Configuration Steering Board); 
Senior Warfighter Group; Autonomic Logistics Advisory Council; CEO 
Conference; Training Advisory Council; and Interoperability Advisory 
Council. The annual periodic Defense Acquisition Board (DAB) provides a 
forum for Department leadership to scrutinize all aspects of the F-35 
program. The Services have frequent interaction with the joint program 
office and prime contractors from the working group to senior executive 
level. In these engagements, the challenges of the program are worked 
with all stakeholders present in a collaborative manner. The current 
level of dialogue and debate both within and external to the Department 
is both open and effective.
    General Trautman. The Marine Corps is confronting all challenges 
and looks forward to developing CONOPS for this fifth-generation 
aircraft. The Marine Corps welcome dialogue from both Government and 
Industry as it bridges forward toward the JSF.
    General Shackelford and General Gibson. The Department has briefed 
the GAO on the JET's estimates and the JET briefing has been 
significantly referenced in the GAO report released in March 2009. The 
challenges facing the JSF program are manageable and are overseen by 
the DOD and the Services on a continuing basis.

    40. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, some have speculated that the additional funding for 
JSF announced earlier this month by Secretary Gates may reflect in part 
the restoral of funds that were removed at one time from the program in 
order to manage cost growth. With cost increases and schedule slips of 
this magnitude, do you see any way that this program can or will avoid 
breaching one or more Nunn-McCurdy thresholds?
    Admiral Architzel and Admiral Myers. Funding announced for the JSF 
program in June was intended to address ramp-rate inefficiencies for 
the United States and international partners, not to restore funds 
previously removed. The JSF Program has declared two breaches since 
Milestone B in October 2001. The first breach was reported to Congress 
in March 2004, and primarily resulted from cost and schedule increases 
to weight-driven performance issues. The second breach was reported to 
Congress in spring 2006 as a result of new Nunn-McCurdy provisions in 
the National Defense Authorization Act for Fiscal Year 2006 requiring 
unit cost increases to be compared to the current baseline and the 
original Milestone B baseline. The 2006 breach primarily reflected the 
historical cost increases reported in 2004. Department leadership is 
closely monitoring program cost and schedule challenges and 
mitigations, but is not prepared to speculate on the likelihood of 
future Nunn-McCurdy threshold breaches.
    General Trautman. The Marine Corps believes that JSF program 
leadership is managing cost and schedule to avoid breaching a Nunn-
McCurdy threshold.
    General Shackelford and General Gibson. Funding announced for the 
JSF program in June was intended to address ramp rate inefficiencies 
for the U.S. and international partners, not to restore funds 
previously removed. The JSF program has declared two breaches since 
Milestone B in October 2001. The first breach was reported to Congress 
in March 2004, and primarily resulted from cost and schedule increases 
to weight-driven performance issues. The second breach was reported to 
Congress in spring 2006 as a result of new Nunn-McCurdy provisions in 
the National Defense Authorization Act for Fiscal Year 2006 requiring 
unit cost increases to be compared to the current baseline and the 
original Milestone B baseline. The 2006 breach primarily reflected the 
historical cost increases reported in 2004. Department leadership is 
closely monitoring program cost and schedule challenges and 
mitigations, but is not prepared to speculate on the likelihood of 
future Nunn-McCurdy threshold breaches.

    41. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, in your opinion does it make sense to increase 
concurrency between development and procurement?
    Admiral Architzel and Admiral Myers. The Department has not 
increased program concurrency. By design, the F-35 Program has 
substantial concurrency of development, test and production built into 
the schedule, a fact that the Department acknowledges and has approved. 
That concurrency is designed to provide the warfighters with a fifth-
generation strike fighter to replace aging legacy aircraft as quickly 
as possible, as efficiently as possible, and as affordably as possible. 
The Department acknowledges the risks and benefits of the concurrency 
required to acquire and deliver this critical capability. The 
Department believes the program is well managed, with the proper amount 
of oversight, and well positioned to deliver on its promise. In 
summary, the F-35 acquisition strategy of developing and delivering 
incremental blocks of increasing capability to the warfighter provides 
the best balance of cost, schedule and risk.
    General Trautman. The Marine Corps believes that the proper balance 
between procurement and development is being managed at this time.
    General Shackelford and General Gibson. The Department has not 
increased program concurrency. By design, the F-35 program has 
substantial concurrency of development, test and production built into 
the schedule, a fact that the Department acknowledges and has approved. 
That concurrency is designed to provide the warfighters with a fifth-
generation strike fighter to replace aging legacy aircraft as quickly 
as possible, as efficiently as possible, and as affordably as possible. 
The Department acknowledges the risks, and benefits, of the concurrency 
required to acquire and deliver this critical capability. The 
Department believes the program is well managed, with the proper amount 
of oversight, and well positioned to deliver on its promise. In 
summary, the F-35 acquisition strategy of developing and delivering 
incremental blocks of increasing capability to the warfighter provides 
the best balance of cost, schedule and risk.

    42. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, do you share GAO's concerns over the increasing cost 
risks this program poses for the government?
    Admiral Architzel and Admiral Myers. The Department is concerned 
about cost and schedule challenges for all acquisition programs and the 
JSF Program is no exception. In 2008 the Department did charter a Joint 
Estimate Team to provide an independent assessment of the program cost 
and schedule. The JET identified F-35 development and production risks. 
Through rigorous reviews, DOD leaders (along with our international 
partners) are tracking those risks and crafting mitigation strategies. 
In the fiscal year 2010 budget request, additional development funding 
was added as a result of these reviews. The development schedule 
remains on track, with some risk to completing the test schedule on 
time. The additional funding budgeted in fiscal year 2010 will help 
address those risks, and the Department will review the progress again 
in preparation for the fiscal year 2011 budget submission. The 
performance is tracking to projections and meeting all requirements. 
The test aircraft are exhibiting unmatched reliability for this stage 
of testing. Static and durability testing of ground test aircraft are 
providing excellent results and the engine performance is providing 
thrust required to safely conduct flight test. By the end of fiscal 
year 2010, we expect to have all of the development and LRIP Lot 1 
aircraft delivered. The Department believes the program is well 
managed, with the proper amount of oversight, and well positioned to 
deliver on its promise.
    General Trautman. The Marine Corps is always concerned with finding 
the right balance between cost, schedule and performance and believes 
that the right balance is being struck between these three variables.
    General Shackelford and General Gibson. The Department is concerned 
about cost challenges for all acquisition programs and the JSF program 
is no exception. In 2008 the Department chartered a Joint Estimate Team 
(JET) to provide an independent assessment of the program cost and 
schedule. The JET identified F-35 development and production risks. 
Through rigorous reviews, DOD leaders are tracking those risks and 
making recommendations on how to appropriately address those risks. In 
the fiscal year 2010 budget request, additional development funding was 
added as a result of these reviews. The development schedule remains on 
track with some risk to completing the test schedule on time. The 
additional funding budgeted in fiscal year 2010 will help address those 
risks, and the Department will review the progress again in preparation 
for the fiscal year 2011 budget submission.

    43. Senator Thune. Vice Admiral Architzel, Lieutenant General 
Trautman, Lieutenant General Shackelford, Rear Admiral Myers, and Major 
General Gibson, any thoughts/recommendations on how to better manage 
this risk?
    Admiral Architzel and Admiral Myers. The Department constantly 
monitors the JSF Program's development through an unmatched oversight 
structure, befitting the largest single acquisition program in the 
Department. Through independent estimates and rigorous reviews, the 
Department and our international partners manage risk and make 
recommendations on how to mitigate it. DOD leadership continues to 
believe that the F-35 acquisition strategy of developing and delivering 
incremental blocks of increasing capability to the warfighter provides 
the best balance of cost, schedule and risk. The program is well 
managed, with the proper amount of oversight, and well positioned to 
mitigate risk.
    General Trautman. The Marine Corps has confidence in JSF program 
leadership to manage risk.
    General Shackelford and General Gibson. The Department constantly 
monitors the JSF program's development through an unmatched oversight 
structure, befitting the largest single acquisition program in the 
Department. Through independent estimates and rigorous reviews, the 
Department and our international partners manage risk and make 
recommendations on how to mitigate it. DOD leadership continues to 
believe that the F-35 acquisition strategy of developing and delivering 
incremental blocks of increasing capability to the warfighter provides 
the best balance of cost, schedule and risk. The program is well 
managed, with the proper amount of oversight, and well positioned to 
mitigate risk.

    44. Senator Thune. Admiral Architzel, the Services are planning on 
purchasing approximately 2,450 F-35 JSFs at a cost of over $300 
billion, a sum that reflects a cost growth of nearly 47 percent beyond 
original 2002 estimates. The Department of the Navy is obviously 
relying on the JSF to close the gap that it sees in strike fighter 
capability over the intermediate term.
    But, GAO recently issued a report on the JSF program that was 
critical of its past cost overruns and schedule slips, and predicted 
that development will cost more and take longer than what has been 
reported to Congress. In November 2008, a Pentagon JET reportedly said 
the JSF program would require an additional 2 years of testing and 
would need another $15 billion to cover new development costs.
    If the JSF program costs continue to significantly increase and 
development does not go as well as promised, draining resources from 
other priority programs that are needed by the Department of the Navy, 
what alternatives may be available to the Navy to remedy its projected 
strike fighter shortfall and preserve its limited procurement base?
    Admiral Architzel. The Department has four primary avenues for 
addressing its strike fighter inventory requirements within current 
force structure and force scheduling requirements. These include:

          Maintaining wholeness of the JSF program: 2012 F-35B initial 
        operating capability (IOC), 2015 F-35C IOC with targeted 
        procurement ramp to 50 aircraft per year;
          Making an estimated $3.6B additional investment in POM-12 
        for the service life extension of approximately 295 F/A-18A-D 
        Hornets from 8,600 flight hours to 10,000 flight hours service 
        life;
          Continued sustainment of legacy aircraft; and
          Further procurement of F/A-18E/F Super Hornet.

    Each of these management ``levers'' must be considered in balance 
of the others. With regard to further F/A-18E/F procurement, the Navy 
preserves the option through PR-11--if required--to procure additional 
Super Hornets beyond the current budgeted quantity without any break to 
Boeing's production.
    The challenge that Navy leadership is undertaking during the QDR 
and upcoming budget year, is to determine the necessary balance of 
these options in terms of force requirements, as they become evident 
over this summer's review.

    45. Senator Thune. Admiral Architzel and General Trautman, if the 
JSF costs increase further and its schedule continues to slip, is it 
sound to hedge against further delays in fielding this strike fighter 
by continuing the manufacturing lines of legacy aircraft, such as F/A-
18s, for example?
    Admiral Architzel. Continued procurement of F/A-18E/F is one of 
four areas that the Navy will continue to assess through this summer's 
QDR and into the following year's budget submission. One hedge against 
further delays in the JSF already exists. The option for continued F/A-
18E/F procurement could be exercised in fiscal year 2011, without a 
break in Boeing's production line capability. Other avenues to all be 
considered--each in balance with one another--are: (1) maintaining 
wholeness of the JSF program; (2) making a roughly $3.6 billion POM-12 
additional investment to extend the service life of approximately 295 
F/A-18A-D legacy Hornets from 8,600 to 10,000 flight hour service life; 
and, (3) continued funding for support of our legacy fleet aircraft.
    General Trautman. The Marine Corps has made the decision to bridge 
to fifth-generation JSF. It will manage its legacy fleet of Hornets and 
Harriers in such a way to ensure that no gaps in capabilities exist 
before JSF is fielded.

    46. Senator Thune. Admiral Architzel, what is your view of the 
proposal to commit to the JSF program in light of the development and 
technology risk still associated with that program? In other words, 
what are your views regarding the current risk to the JSF program 
schedule during its SDD phase?
    Admiral Architzel. The Department's commitment to the JSF program 
is steadfast. The development schedule remains on track with some risk 
to completing the test schedule on time. The additional funding 
budgeted in fiscal year 2010 will help address those risks, and the 
Department will review the progress again in preparation for the fiscal 
year 2011 budget submission. The performance is tracking to projections 
and meeting all requirements. The test aircraft are exhibiting 
unmatched reliability for this stage of testing. Static and durability 
testing of ground test aircraft are providing excellent results and the 
engine performance is providing thrust required to safely conduct 
flight test. The test aircraft are exhibiting unmatched reliability for 
this stage of testing. By the end of fiscal year 2010, we expect to 
have all of the development and LRIP Lot 1 aircraft delivered. The 
Department believes the program is well managed, with the proper amount 
of oversight, and well positioned to deliver on its promise.

    47. Senator Thune. General Trautman, the Marine Corps plans to take 
initial deliveries of the B Model, Marine Corps, STOVL variant of the 
JSF beginning in September 2010 at Eglin AFB to support initial joint 
training for pilots and crews on the aircraft. Recently, the Air Force 
has run into potential problems due to environmental litigation in 
establishing the Initial Joint Training Site at Eglin as required by 
the 2005 round of Base Realignment and Closing (BRAC). If the Air Force 
basing action supporting joint training on the JSF at Eglin is delayed, 
does the Marine Corps have a contingency plan?
    General Trautman. The Marine Corps continues to invest in the 
Integrated Training Center at Eglin, AFB. We believe those problems 
encountered to realize the potential of JSF training at Eglin will be 
resolved in time to meet our training requirements. Until then the 
operations allowed and the associated under the Environmental Impact 
study Record of Decision meets our initial training requirements while 
we standup our activities over the next few years. We are looking at 
various options in conjunction with the Air Force and Navy if Eglin 
proves to be unworkable but we are not prepared at this early date to 
give up on our commitment to training both pilots and enlisted 
maintainers at Eglin, AFB.

    48. Senator Thune. General Trautman, are you aware of any potential 
production problems with the B Model of the JSF that could delay the 
schedule for standing-up the training squadron by September 2010 and 
the IOC for the first Marine Corps operational squadron scheduled for 
December 2012?
    General Trautman. At this time we are not aware of any significant 
problems that would delay production. The JSF Program Office, in 
concert with Lockheed Martin, is managing the suppliers as well as the 
other partners of Northrup Grumman, BAE, and Pratt & Whitney. It is 
critical that funding remain as programmed to maintain the stable 
production rate that will ensure we receive our training jets in 2010 
and meet our 2012 IOC.

    49. Senator Thune. General Trautman, if the B Model is delayed and 
the December 2012 IOC for the first Marine Corps operational squadron 
is delayed, what would be the impact on the Marine Corps component of 
the fighter gap?
    General Trautman. The Marine Corps will continue to manage legacy 
fleets of Harriers and Hornets until introduction of STOVL JSF.

    50. Senator Thune. General Trautman, how much life is left in the 
legacy Marine Corps Hornet fleet composed of A+, C, and D models and 
what will it take to extend those aircraft until the F-35B is delivered 
to the Marine Corps?
    General Trautman. The Marine Corps has an aggressive program of 
managing the operation life of all of its Harriers and Hornet models 
while waiting to introduce JSF into the operating forces.

    51. Senator Thune. General Trautman, regarding the acquisition of 
420 F-35Bs, the Commandant of the Marine Corps recently testified to 
the committee that the Marine Corps ``will reach IOC in 2012 with a 
standing squadron ready to deploy.''
    I am concerned that the Department of the Navy and the prime 
contractor have not yet completed testing for the STOVL variant, which 
is intended for the Marine Corps, and yet the F-35B has the most urgent 
demand for first deliveries.
    On June 4, 2009, the Commandant of the Marine Corps testified that 
he understood that there will be a 7- to 9-month delay on the B-variant 
testing. Against that backdrop, I am highly skeptical that the Marine 
Corps will be able to field a deployable squadron in 2012. Please 
describe fully this slip in schedule. What is causing it? What possible 
assurances do you have that this slip will not extend longer than 9 
months?
    General Trautman. While there have been problems encountered with 
the F135 engine, these problems have been rectified and all indications 
show that these engineering changes have been effective. These problems 
concerned the propulsion system and not the air vehicle. The Marine 
Corps has confidence that program leadership will meet 2012 IOC.

    52. Senator Thune. General Trautman, with this slip, why are you 
not highly skeptical that the Marine Corps will be able to field a 
deployable squadron in 2012?
    General Trautman. The Marine Corps understands the challenges 
facing the JSF program and knows that effective leadership is the key 
to success.

    53. Senator Thune. General Trautman, is anything being done to 
expedite responsibly completion of operational testing on the B 
variant?
    General Trautman. The Test & Evaluation Master Plan (TEMP) has been 
verified and Marine Aviation has confidence that this plan will deliver 
a fully operational F-35B.

    54. Senator Thune. General Trautman, when will final data on the 
unique noise and flight characteristics of the STOVL variant be 
available for incorporation into environmental studies and basing 
plans?
    General Trautman. The noise and environmental studies are ongoing 
and results will be published once complete.

    55. Senator Thune. General Trautman, will there be a need to 
construct dedicated facilities to maintain the low-observable surfaces 
of the B variant?
    General Trautman. No. All maintenance performed will be conducted 
at the organizational or depot level and will not require dedicated 
facilities.

    56. Senator Thune. General Trautman, in addition to the slip in 
testing schedule, what other challenges do you face in meeting the 
Commandant's requirement for an operational squadron in 2012?
    General Trautman. Maintaining a steady funding profile as put forth 
in PB10 will be essential to meeting 2012 IOC.

    57. Senator Thune. General Trautman, will new range targets, threat 
emitters, and F-35 flight and weapons delivery profiles require updates 
to the environmental impact statements (EISs) supporting Air Force, 
Navy, and Marine Corps use of established range complexes? If so, when 
will those requirements be developed to support the EISs or 
environmental analyses needed to upgrade the range complexes to support 
pilot training, pre-deployment training, and weaponry for the F-35?
    General Trautman. The Marine Corps will utilize its existing ranges 
for the STOVL variant. In addition we plan to leverage the advancements 
in full mission simulators. With these simulators and our existing 
ranges we believe we will be prepared to train to the full capabilities 
of the JSF.
    It is possible that future Barry M. Goldwater Range (BMGR) upgrades 
will be necessary and the Marine Corps basing EIS will contain 
programmatic language to address any future evolving training needs as 
the platform matures and requirements are refined. For example, the 
U.S. Marine Corps and U.S. Air Force operate threat emitters on BMGR 
that may need to be upgraded to support F-35 training. Any upgrade 
required would be functionally independent of F-35A/B basing and would 
be required regardless of any F-35A/B basing decision. However, no 
requirement to upgrade BMGR threat emitters has been identified at this 
time.
    U.S. Marine Corps and U.S. Air Force have prepared numerous EIS 
documents over the years in support of aviation operations on BMGR. 
Most of the contentious environmental issues involve impacts to 
endangered species, in particular the Sonoran pronghorn. U.S. Marine 
Corps and U.S. Air Force have received Biological Opinions for their 
operations from Federal Wildlife Service (FWS) and are fully compliant 
with all environmental regulations.

    58. Senator Thune. General Trautman, will any of the range 
complexes be used for additional flight training, such as an outlying 
landing field (OLF) or auxiliary field (Aux Field), requiring an update 
to account for the distinct flight characteristics of the F-35 as 
compared to legacy aircraft?
    General Trautman. No. JSF will operate at existing OLFs and 
Auxiliary fields.

    59. Senator Thune. General Trautman, at this point, will Marine 
Corps ranges be ready to support initial operational training in 2012?
    General Trautman. The Marine Corps will utilize our existing ranges 
for the STOVL variant. In addition we plan to leverage the advancements 
in full mission simulators. With these simulators and our existing 
ranges we believe we will be prepared to train to the full capabilities 
of the JSF.
    It is possible that future Barry M. Goldwater Range (BMGR) upgrades 
will be necessary and the Marine Corps basing EIS will contain 
programmatic language to address any future evolving training needs as 
the platform matures and requirements are refined. For example, the 
U.S. Marine Corps and U.S. Air Force operate threat emitters on BMGR 
that may need to be upgraded to support F-35 training. Any upgrade 
required would be functionally independent of F-35A/B basing and would 
be required regardless of any F-35A/B basing decision. However, no 
requirement to upgrade BMGR threat emitters has been identified at this 
time.
    U.S. Marine Corps and U.S. Air Force have prepared numerous EIS 
documents over the years in support of aviation operations on BMGR. 
Most of the contentious environmental issues involve impacts to 
endangered species, in particular the Sonoran pronghorn. U.S. Marine 
Corps and U.S. Air Force have received Biological Opinions for their 
operations from FWS and are fully compliant with all environmental 
regulations.

    60. Senator Thune. General Trautman, what is the current program of 
record for the number of F-35s to be stationed at your first 
operational location?
    General Trautman. We will stand up our first operational squadrons 
at MCAS Yuma, AZ. We are in the process of conducting our environmental 
impact studies, dependent upon the study findings our preferred option 
is to base up to 86 STOVL aircraft.

    61. Senator Thune. General Trautman, are you on track with all 
environmental actions and construction activities to be able to meet 
your deadline?
    General Trautman. Yes, all environmental impact studies are being 
conducted and funding is in place for military construction.

    62. Senator Thune. General Trautman, will you have aviation 
training ranges ready to support the full spectrum of F-35 operations? 
If not, what is the plan for the Marine Corps to get ranges ready?
    General Trautman. The Marine Corps will utilize our existing ranges 
for the STOVL variant. In addition we plan to leverage the advancements 
in full mission simulators. With these simulators and our existing 
ranges we believe we will be prepared to train to the full capabilities 
of the JSF.
    It is possible that future BMGR upgrades will be necessary and the 
Marine Corps basing EIS will contain programmatic language to address 
any future evolving training needs as the platform matures and 
requirements are refined. For example, the U.S. Marine Corps and U.S. 
Air Force operate threat emitters on BMGR that may need to be upgraded 
to support F-35 training. Any upgrade required would be functionally 
independent of F-35A/B basing and would be required regardless of any 
F-35A/B basing decision. However, no requirement to upgrade BMGR threat 
emitters has been identified at this time.
    U.S. Marine Corps and U.S. Air Force have prepared numerous EIS 
documents over the years in support of aviation operations on BMGR. 
Most of the contentious environmental issues involve impacts to 
endangered species, in particular the Sonoran pronghorn. U.S. Marine 
Corps and U.S. Air Force have received Biological Opinions for their 
operations from FWS and are fully compliant with all environmental 
regulations.

    63. Senator Thune. General Trautman, are you concerned that the 
establishment of a joint pilot training base for the F-35 at Eglin AFB, 
which is currently delayed due to litigation over the EIS, will affect 
Marine Corps pilot production by 2012? If so, what actions are you 
taking to mitigate the risk? Are these actions fully supported and 
funded in the budget request for fiscal year 2010?
    General Trautman. The initial standup of training capabilities at 
Eglin is on track. Currently we are experiencing no delays in the 
necessary construction of facilities required to commence training 
activities. We are firmly committed to training aircrew and enlisted 
maintainers at the Integrated Training Center at Eglin, AFB. We believe 
there are synergies to be gained by training aircrew and maintainers at 
the same location with our sister services as well as the current U.S. 
Marine Corps pooling agreement with the United Kingdom.

    64. Senator Thune. General Trautman, could Marine Corps Air Station 
(MCAS) Yuma serve as a permanent location for the training of Marine 
Corps Lightning pilots in case Eglin AFB cannot fully support the 
Marine Corps requirement?
    General Trautman. MCAS Yuma will serve as our first operational 
base as we transition our legacy fleet to the STOVL JSF. We are firmly 
committed to training our aircrew and enlisted maintainers at the 
Integrated Training Center at Eglin, AFB. We are looking at options to 
conduct training elsewhere, if Eglin becomes unavailable, but are 
awaiting the findings of our West Coast EIS to inform any decision.

    65. Senator Thune. General Trautman, what efficiencies can the 
Marine Corps gain by combining training and operational squadrons at 
one location?
    General Trautman. Any efficiency to combine operational and 
training squadrons will have to be studied extensively before any 
decisions could be made. Right now the Marine Corps is committed to 
standing up the first Integrated Training Center at Eglin, AFB, 
followed by our stand-up of operational squadrons at MCAS Yuma starting 
in 2012.

    66. Senator Thune. General Shackelford and General Gibson, a few 
days ago, Air Force Chief of Staff Norton Schwartz signaled that the 
Air Force's requirement for 1,763 F-35 JSFs is being examined during 
the comprehensive QDR now under way. General Schwartz moreover said 
that the Air Force's plan to field a total of 2,250 fighters, both old 
and new, is also under review. He said, ``it could end up being less,'' 
adding, ``if that's the case, we will still have a predominately F-35 
[force].'' Still, General Schwartz said he expects to have well over 
1,500 F-35s. Subject to the completion of the QDR, what is your 
assessment of the Air Force's overall requirement for JSF?
    General Shackelford and General Gibson. Since one of the primary 
outputs of the QDR will be a new force sizing construct, it is 
premature to speculate on the total JSF requirement. Based on current 
joint campaign analysis, General Schwartz's estimate appears to be 
about right. While the total requirement is being evaluated, the Air 
Force is currently focused on ensuring that the F-35 procurement and 
capabilities are on track to recapitalize our aging fighter force. 
Optimized for global precision attack against ever-evolving and more 
advanced enemy threat capabilities, the F-35A remains a crucial element 
of the Air Force's future fighter force structure, and as a decisive 
addition to the Air Force's fifth-generation fighter fleet, the F-35A 
will complement the air dominance capabilities of the F-22.

    67. Senator Thune. General Trautman and General Gibson, a key 
tenant of Secretary Gates' tactical aviation (TACAIR) plan is the F-35 
JSF. If the F-35 schedule slips or the rate of production is less than 
assumed, for example, 35 aircraft per year versus 50 per year, 
alternatives for managing the strike fighter shortfall seem limited. 
Can the Air Force continue to extend the service life of its legacy 
strike fighter aircraft, such as A-10 Warthogs, F-16 Falcons, and F-15 
Eagles as a bridge to fielding the JSF?
    General Trautman. While the Marine Corps can not comment on the Air 
Forces plans to the extend service life of their fighter aircraft 
fleet, Marine Aviation is taking direct and critical measures to manage 
our legacy fleets of Hornets and Harriers. The Marine Corps will manage 
our legacy fleet through positive steps of CONOPS and funding in order 
to bridge the gap to our fifth-generation STOVL JSF. The Marine Corps 
is confidant we can extend the service lives of legacy while bridging 
to a true fifth-generation weapon system.
    General Gibson. Yes, it is possible to extend the service life of 
the legacy strike fighter aircraft. The Air Force Fleet Viability Board 
(FVB) has assessed the long-term viability of the A-10 and F-15C/D 
fleet and determined these fleets can be sustained beyond the original 
planned service life with additional investments. In addition, 
modernization upgrades will be required to provide our legacy aircraft 
improved capability to operate in controlled airspace and against the 
emerging air and ground threats. While the FVB has not yet assessed the 
F-16 or F-15E fleet, we expect similar conclusions for these aircraft.

    68. Senator Thune. General Trautman and General Gibson, what other 
potential alternatives do you see for maintaining sufficient strike 
assets in the face of additional slips in the F-35's IOC?
    General Trautman. The Marine Corps has confidence and will manage 
our legacy fleets of Hornets and Harriers with funding and CONOPS as we 
bridge to the fifth-generation JSF air system.
    General Gibson. Chief of Staff of the Air Force General Schwartz 
has stated on many occasions that the key to the Air Force's fighter 
recapitalization is the F-35. We have invested heavily in the F-35 
program and are closely tracking developments in order to ensure that 
it stays on track. General Schwartz believes it is imperative to direct 
as much funding as possible toward development of the F-35, the 
aircraft designated to replace the F-16 and A-10 for the Air Force. Any 
delay in procurement could increase the cost and further delay the F-35 
for the Air Force, Navy, and Marine Corps. Until procurement of the F-
35 is at full rate, the AF is taking steps to further evaluate the 
sustainability and viability of its legacy fleet, a process which may 
take several years to complete.

    69. Senator Thune. General Trautman and General Gibson, earlier 
this month, Secretary Gates told his Japanese counterpart that the 
United States still has no plans to export the F-22 Raptor. Secretary 
Gates reportedly cited a longstanding congressional prohibition on 
international sales of the F-22. But keeping the F-22 line hot may make 
sense while the verdict on whether the first operationally capable JSF 
will be delivered on time. Should Congress consider lifting that 
prohibition and allow FMS of F-22s, for instance to Japan and 
Australia, which have expressed some interest?
    General Trautman. The Marine Corps has no comment on the question 
of Congress lifting the ban on sales of the F-22 to FMS customers. The 
Marine Corps is committed to the fifth-generation JSF program and we 
look forward to bridging the gap from our legacy fleet of Hornets and 
Harriers to the STOVL JSF.
    General Gibson. Because U.S. law (the Obey Amendment) specifically 
forbids export of the F-22, the Air Force is prohibited from spending 
funds on any activity related to export of the aircraft. If the law did 
allow export, the Air Force would work with the Office of the Secretary 
of Defense, the Interagency, and the Congress to determine if export is 
appropriate and to which countries. Exportability issues, such as 
configuration and technology transfer/foreign disclosure, and related 
political-military matters would need to be addressed before 
considering F-22 sales to Japan, Australia, or any other partner 
nation.

          f/a-18 super hornet procurement and industrial base
    70. Senator Thune. Admiral Architzel and Admiral Myers, in an 
October 2008 Center for Strategic and Budgetary Assessment (CSBA) 
report on the U.S. Defense industrial base, CSBA concluded the 
following:
    In stark contrast to the obvious and proactive steps being taken by 
DOD in an effort to preserve a competitive domestic shipbuilding 
industrial base, DOD appears to be taking a very laissez-faire approach 
to the Nation's tactical fighter aircraft industrial base; an approach 
that could, if not addressed, quickly result in the loss of a 
competitive domestic tactical fighter industrial base.
    The Department of the Navy has recognized a tactical fighter 
shortfall of more than 200 aircraft in the years ahead due primarily to 
delays in the JSF program and the rapid aging of older F/A-18 aircraft. 
However, DOD has not indicated its long-term intentions when it comes 
to the future of the F/A-18E/F program, which is in the last year of 
its second multi-year contract.
    There can be no doubt that the F/A-18E/F is both an operational and 
an acquisition success story and has been cited by DOD as one of its 
few model programs. Yet, if the Navy does not procure additional F/A-
18s, its tactical fighter shortfall will persist and the supplier base 
and production line will shut down. At that point, the Nation will be 
left with only one tactical fighter manufacturer. Please comment on the 
apparent inconsistencies in DOD's management of the shipbuilding and 
tactical fighter industrial base issues.
    Admiral Architzel and Admiral Myers. Continued procurement of F/A-
18E/F alone will not eliminate the strike fighter shortfall. It is 
however, an avenue that continues to be assessed within current force 
structure and force scheduling requirements. The Navy's option for 
continued F/A-18E/F procurement could be exercised in fiscal year 2011, 
without a break in Boeing's production line capability. The point to be 
recognized is that the Department of the Navy has opportunity through 
PR-11 to continue to assess F-35B and F-35C testing, delivery and 
transition into the fleet, before critical decisions regarding further 
Super Hornet procurement must be made. This time allows leadership the 
opportunity to consider the assessments and recommendations of this 
summer's QDR in order to determine the necessary balance between 
Department of Navy JSF programatics, F/A-18A-D service life extension, 
continued support to legacy aircraft, and possible additional F/A-18E/F 
procurement. All four avenues the Department of Navy is pursuing to 
manage its predicted strike fighter trend support multiple sectors of 
the Nation's fighter production and supply base.

    71. Senator Thune. Admiral Architzel and Admiral Myers, referring 
back to the CSBA report, do you see DOD's approach to the tactical 
fighter industrial base as being consistent, thoughtful, long-term, and 
effective?
    Admiral Architzel and Admiral Myers. The Department of Navy's 
current strike fighter inventory trend is due to a combination of 
factors, including utilization of F/A-18A-D Hornets beyond their 
originally designed 6,000 and extended 8,000 flight hour service life, 
as well as past programmatic IOC slips to JSF. Department of Navy has 
made adjustments to these realities and currently preserves the option 
through PR-11--if required--to procure additional F/A-18E/F Super 
Hornets beyond the current program of record quantity of 506. This has 
the benefit of mitigating the risk of a potential slide to JSF IOC, but 
also gives the Department of the Navy additional time to thoroughly 
consider and assess the ramifications of completing production of Super 
Hornets as currently planned, or opting to procure more should that be 
decided upon by Navy leadership during the QDR this summer.

    72. Senator Thune. Admiral Architzel and Admiral Myers, should DOD 
and Congress be concerned with the loss of both design, development, 
and manufacturing skill sets and domestic competition if production of 
F/A-18s is terminated?
    Admiral Architzel and Admiral Myers. The Department of the Navy 
does view with concern the Nation's aviation industrial base as we neck 
down our hot fighter line production to one manufacturer. We are, 
however, starting the analysis process for the next air dominance 
platform. The Navy will need to replace Super Hornets in the 2025 
timeframe. What that platform will be remains to be seen, but industry 
will be gearing up to compete for that platform, which we hope will 
help to sustain the industrial base and those critical skill sets you 
have described.

    73. Senator Thune. Admiral Architzel and Admiral Myers, in light of 
both an operational/inventory requirement (i.e., shortfall) and 
industrial base concerns, do you believe it makes sense for DOD to 
procure additional F/A-18E/Fs over the course of the next 3 to 5 years, 
if not longer?
    Admiral Architzel and Admiral Myers. Based on this summer's QDR, 
which will look at essential capability and required capacity that 
carrier aviation must provide in balance with other DOD requirements 
and priorities, different opportunities will be considered in 
resourcing the Navy's strike fighter requirements. While the Navy 
preserves the option through PR-11--if required--to procure additional 
F/A-18E/F Super Hornets beyond the current budgeted quantity, three 
other complementary avenues are being assessed in resourcing the 
Department of Navy's strike fighter requirements. These avenues include 
attaining the IOC of the Department's JSFs on time (2012 F-35B and 2015 
F-35C) and at planned quantities. The Department of Navy also continues 
to assess and make determinations on investing in the service life 
extension of up to 295 of its F/A-18A-D legacy Hornets. Finally, the 
Department will continue to invest in the sustainment of legacy 
aircraft to keep them viable throughout their increased service life.
    None of the four avenues alone solve the Department of Navy's 
strike fighter requirements and each carries a unique level of 
financial commitment over different returns on investment that need to 
be considered with qualities of combat capability. All of the 
opportunities for resourcing Navy strike fighter requirements are 
interdependent and Department leadership is considering each 
opportunity carefully to achieve the necessary balance of capability 
and capacity as force requirements become evident over this summer's 
review.

    74. Senator Thune. Admiral Architzel and Admiral Myers, based on 
low pricing and projected cost savings, should DOD procure additional 
F/A-18s under a third multi-year procurement contract?
    Admiral Architzel and Admiral Myers. Based on this summer's QDR, 
which will look at essential capability and required capacity that 
carrier aviation must provide in balance with other DOD requirements 
and priorities, different opportunities will be considered in 
resourcing the Navy's strike fighter requirements. The Navy preserves 
the option through PR-11, if required, to procure additional F/A-18E/F 
Super Hornets beyond the current program of record of 506. Three other 
complementary avenues are being assessed in resourcing the Department 
of Navy's strike fighter requirements. Attaining the IOC of the 
Department's JSFs on time (2012 F-35B and 2015 F-35C) and at planned 
quantities is essential. The Department of Navy continues to assess 
investing in the service life extension of up to 295 F/A-18A-D legacy 
Hornets. Finally, the Department will continue to invest in the 
sustainment of legacy aircraft to keep them viable throughout their 
increased service life.
    None of the four avenues alone solve the Department of Navy's 
strike fighter requirements and each carries a unique level of 
financial commitment over different returns on investment that need to 
be considered with qualities of combat capability. All of the 
opportunities for resourcing Navy strike fighter requirements are 
interdependent and Department leadership is considering each 
opportunity carefully to achieve the necessary balance of capability 
and capacity as force requirements become evident over this summer's 
review.
    Historically the F/A-18 multi-year programs have been the most 
effective means of procuring aircraft because they met the criteria of 
a multi-year (3-5 years) timeframe and provided the required 
`substantial' savings. Should the decision to procure additional F/A-
18s be made by Navy leadership during this summer's QDR which meet 
these criteria, then we will look at all appropriate acquisition 
strategies including a potential third multi-year procurement contract.

                     proposed plans for f-22 raptor
    75. Senator Thune. General Shackelford and General Gibson, how 
troubled should we be about the President's proposal to end the 
production of the F-22 fighter aircraft at 187, representing 183 planes 
currently in the fleet plus 4 sought in the fiscal year 2009 
Supplemental?
    General Shackelford and General Gibson. The U.S. Air Force 
continuously reviews the appropriate capabilities and force mix 
necessary to support the National Defense Strategy across the full 
spectrum of conflict. This activity has increased attention now in the 
context of the QDR. Because we're assuming a greater level of risk with 
a reduced F-22 fleet, it will be critical that the U.S. Air Force makes 
appropriate investments to ensure the remaining F-22 airframes are 
upgraded with increments 3.2 and 3.3 to maximize air-to-air and air-to-
ground effectiveness, increase interoperability, and ensure F-22 
aircraft flexibility in employment/deployment. The U.S. Air Force can 
also mitigate risk in the near term by investing in upgraded F-15C 
radar and weapons capabilities (e.g., infrared search and track system 
and APG-63(v)3 active electronically scanned array radar) to aid in 
achieving air superiority. Outside the FYDP, ensuring that an 
appropriate number of F-35s are procured to fulfill both homeland 
defense and expeditionary operations, as a complement to a reduced F-22 
fleet, will also be critical.

    76. Senator Thune. General Shackelford and General Gibson, former 
Air Force leaders have conveyed to the Airland Subcommittee that they 
believe that the number of F-22s required to conduct operations in two 
major regional contingencies against adversaries capable of contesting 
our control of the air is 381, not even 243, as has been proposed by 
some incumbent members of Air Force leadership. Are you concerned that 
the proposed cut to this program may result in insufficient capability 
needed to support two major regional contingencies?
    General Shackelford and General Gibson. With fewer F-22s, we have 
acknowledged that the U.S. Air Force will accept higher levels of risk 
in support of the current National Defense Strategy, especially when 
viewed in the context of time to achieve military objectives. We can 
mitigate those risks with better intelligence and a more flexible 
force. We can also ensure that our legacy platforms are upgraded 
appropriately to ensure maximum lethality and survivability, and that 
our pilots are given the tools (flight hours, training, and munitions) 
to retain the critical skills necessary to enable our battle plans. 
Lastly, some contingencies will require the unique capabilities of 
fifth-generation fighters--we will continue to examine the correct mix 
of our upcoming multi-role F-35 fleet to the reduced air-to-air F-22 
fleet.

    77. Senator Thune. General Shackelford and General Gibson, why is 
the current F-22 program-of-record, and other available tactical 
fighter assets that could be brought to the fight, not sufficient to 
achieve air superiority in two major regional contingencies waged by 
relevant adversaries? What data or analysis supports your position?
    General Shackelford and General Gibson. The Air Force fighter force 
structure has been studied extensively by Major Commands and the Air 
Staff using campaign modeling tools. This body of analysis indicates 
that, combined with the appropriate legacy aircraft modernization in 
the near term and a successful F-35 procurement program for the mid- to 
long-term, the 187 aircraft F-22 program-of-record is sufficient to 
achieve air superiority at higher risk in the current National Defense 
Strategy of two major combat operations against relevant adversaries.

    78. Senator Thune. General Shackelford and General Gibson, are you 
aware of any data or analysis that supports ending the production of F-
22s after 187? If so, please explain.
    General Shackelford and General Gibson. Extensive Air Force 
analysis at the Air Force and Joint campaign level shows that within 
the current force planning constructs, 243 F-22s represent a moderate 
level of risk. A smaller fleet size increases warfighting, training, 
and fleet sustainment risks. Any risk assumes adequate weapons 
availability, no change to programmed upgrades, and F-35 production 
remains on track.

    79. Senator Thune. General Shackelford and General Gibson, why 
shouldn't we conclude that this proposal is only budget driven?
    General Shackelford and General Gibson. All weapons system 
procurements are driven by budget considerations and the F-22 is no 
exception. As Secretary Donley and General Schwartz said in a April 13, 
2009 Washington Post Op Ed: ``We assessed the issue (number of F-22s) 
from many angles, taking into account competing strategic priorities 
and complementary programs and alternatives--all balanced within the 
context of available resources.''

    80. Senator Thune. General Shackelford and General Gibson, do you 
believe that the decision on the F-22 program has been subject to 
sufficient full and open debate, as one would expect of any other 
proposed major change to a force-sizing construct?
    General Shackelford and General Gibson. As Secretary Donley and 
General Schwartz said in a April 13, 2009 Washington Post Op Ed: ``We 
assessed the issue (number of F-22s) from many angles, taking into 
account competing strategic priorities and complementary programs and 
alternatives--all balanced within the context of available resources. 
These assessments have concluded that, over time, a progressively more 
sophisticated mix of aircraft, weapons and networking capabilities will 
enable us to produce needed combat power with fewer platforms.''

    81. Senator Thune. General Shackelford, Secretary Gates has 
testified to this committee that the Air Force does not need any more 
F-22 Raptors and that he proposes to end the line at 187, the stated 
requirement. However, Air Force Chief of Staff General Schwartz has 
reportedly maintained that the Air Force needs 243 F-22 Raptors to 
maintain air superiority. According to one report, he testified that: 
``243 [F-22s] is the right number and 187 is the affordable force.'' 
What is the right number? Why do you believe that's the right number?
    General Shackelford. The 243 F-22s would provide the Joint Force 
with moderate risk in accordance with Defense Planning Guidance. 187 F-
22s will generate higher risk but is the affordable number of F-22s. 
These numbers are consistent with AF/A9 Force Structure Analysis.

    82. Senator Thune. General Shackelford, when the Air Force talks 
about a strike fighter gap are you talking about an Air Force-only 
strike fighter gap or does your analysis capture total joint capability 
required for air superiority?
    General Shackelford. When analyzing the capabilities required to 
gain and maintain air superiority in support of combatant commanders, 
total joint capability is considered, however, the Air Force-specific 
requirements are extracted from postulated joint campaign requirements.
    In light of ongoing assessments such as the QDR and its related 
studies, we are taking a close look at the projected fighter force 
requirements of the coming decade and beyond. The emerging National 
Defense Strategy and its attendant force planning construct will have a 
direct bearing on establishing the requirement for Air Force fighter 
capabilities.

        air force close-air support for marine corps in theater
    83. Senator Thune. General Shackelford, recently, the Marine Corps 
requested approval to reprogram funds to develop and field a modified 
KC-130J tanker that will provide it with, among other things, enhanced 
close-air support in theater. In connection with that request, the 
Marine Corps cited an urgent need for that platform, asserting that 
``Marine Corps ground forces have needed, but have not benefitted from, 
capabilities of aircraft such as the very high demand, low density AC-
130.'' I interpret this to mean that the Marine Corps is saying that it 
has asked for, but not received, close-air support from the Air Force 
in theater. Do you agree with that assertion?
    General Shackelford. No. The Air Force hasn't turned down any 
``Request for Forces'' (RFFs) to support Marines on the ground in 
theater. At the tactical level, CAS requests are prioritized and filled 
daily and there are no requirements we are aware of that haven't been 
filled. Finally, Allied Forces Central Europe (NATO) (AFCENT) has not 
received any negative feedback from Marine Forces Central Command 
(MARCENT) about the lack of Air Force CAS support. The Marines, as well 
as other components, have a liaison officer (LNO) in the Combined Air 
Operation Center (CAOC) to coordinate requests or requirements, and 
maintain a current and relevant picture of the other component 
operations. LNOs work for their respective component commanders and 
works with the Joint Force Air Component Commander (JFACC) and staff. 
The component liaisons serve as conduits for direct coordination 
between the JFACC and their respective component commanders. The 
liaisons have the responsibility of presenting component perspectives 
and considerations regarding planning and executing joint air 
operations.

    84. Senator Thune. General Shackelford, has the Air Force been 
turning down requests for forces to support marines on the ground in 
theater? If so, why?
    General Shackelford. No. The Air Force hasn't turned down any RFFs 
to support marines on the ground in theater. At the tactical level, CAS 
requests are prioritized and filled daily and there are no requirements 
we are aware of that haven't been filled. Finally, AFCENT has not 
received any negative feedback from MARCENT about the lack of Air Force 
CAS support. The Marines, as well as other components, have a LNO in 
the CAOC to coordinate requests or requirements, and maintain a current 
and relevant picture of the other component operations. LNOs work for 
their respective component commanders and works with the JFACC and 
staff. The component liaisons serve as conduits for direct coordination 
between the JFACC and their respective component commanders. The 
liaisons have the responsibility of presenting component perspectives 
and considerations regarding planning and executing joint air 
operations.

    85. Senator Thune. General Shackelford, does the Air Force have its 
own close-air support capability gap? If so, how does your budget 
request address that gap?
    General Shackelford. No, the Air Force is working extremely closely 
with senior Army and Marine Corps leadership, and we are confident we 
can provide today's Ground Force Component Commander (GCC) with 
unmatched responsiveness and mission success. The needs of the GCC will 
be the centerpiece of the direct support concept of employment.
    From a force application perspective, the Air Force has doubled the 
service life of 233 A-10s from 8,000 hours to 16,000 hours by procuring 
new thick-skin wings to replace their aging thin-skin wings. This has 
extended the service life of these aircraft beyond 2030 when the F-35 
can begin to replace them. The Air Force has also increased the number 
of joint terminal attack controllers to match the growth of the new 
modular Army to 73 Brigade Combat Teams. The Air Force has also added 
five Air Support Operation Centers, aligned them with the Army 
divisions, and merged them with the airspace control elements to 
provide a Joint Air-Ground Integration Cell. Finally, the Air Force has 
added additional liaisons at the Army corps and division level to 
bolster the expertise of the many new key enablers that have become 
critical to today's close air support fight.
    In light of ongoing assessments such as the QDR and its related 
studies, we are taking a close look at the projected fighter force 
requirements of the coming decade and beyond. The emerging National 
Defense Strategy and its attendant force planning construct will have a 
direct bearing on establishing the requirement for Air Force fighter 
and attack capabilities.

                  mv-22 reliability and sustainability
    86. Senator Thune. General Trautman, the MV-22 program had a 
troubled procurement history marked by delays and cost overruns, 
efforts by DOD to cancel the program, and early crashes that took the 
lives of good marines. The MV-22 is now operational and full-rate 
procurement is underway with 90 aircraft delivered on the way to a 
procurement goal of 360. The capabilities of the aircraft in comparison 
to the CH-46 helicopter which it replaces are a quantum-level 
improvement. Operational squadrons have deployed to Iraq and conditions 
in Afghanistan with its higher elevations and more dispersed units 
would seem to present precisely the sort of conditions for which the 
MV-22 was designed and created. What have we learned about the 
operational capabilities and reliability and sustainability of the MV-
22 during its operational deployments to Iraq?
    General Trautman. We have learned that the MV-22 is a tremendously 
capable platform. Its unprecedented speed and range are re-writing the 
book on assault support operations. In Iraq, our MV-22 squadrons flew 
almost 10,000 flight hours, carried 45,000 troops and over 2.2 million 
pounds of cargo, without incident or loss. This aircraft is a game 
changer, and we look forward to getting it in the hands of our marines 
in the protracted landscape of Afghanistan, where its operational 
characteristics are precisely what we need.
    As to reliability and maintainability, one factor is the manner in 
which this aircraft has been introduced. The V-22 community has flown 
85 percent of its total flight hours since 2004, with 50 percent of its 
total program flight hours in the past 2 years alone. These numbers are 
high in themselves; they are even more dramatic when one realizes that 
these hours have been flown in some of the world's harshest 
environments, in a combat zone, and in response to urgent operational 
warfighting requirements. Most new aircraft--especially innovative 
technological advances like the Osprey--fly their first years at a slow 
and controlled rate of increasing hours, in a peacetime environment, 
and under highly controlled operational conditions. Like other aircraft 
in the early operational phase of their lifecycles, the MV-22B has 
experienced lower-than-desired reliability of some components and 
therefore higher operations and support costs, but this aircraft has 
experienced them in an acute fashion due to its early employment 
overseas. In effect, the operations and maintenance costs and 
reliability issues which we are addressing are compressed and seem more 
intense because they are happening in a shorter time, to fewer 
airplanes, and in a harsher environment than is normal with new 
technology.
    With the cooperation and support of our industry partners, we are 
tackling these issues head on with aggressive logistics and support 
plans that will increase the durability and availability of the parts 
needed to raise reliability and concurrently lower operating costs.

    87. Senator Thune. General Trautman, do you plan to deploy MV-22 
squadrons to Afghanistan?
    General Trautman. Yes. We will deploy the MV-22B to Afghanistan 
this fall.

    88. Senator Thune. General Trautman, how has engine life and 
maintainability in the field compared with expectations?
    General Trautman. As with any aircraft operating in harsh desert 
climates, the MV-22B's engines have experienced lower time-on-wing than 
we experience when operating from our home bases. However, while 
operating in the desert, MV-22B engine time on wing is comparable to 
our legacy rotorcraft. We are working diligently with our industry 
partner Rolls Royce to make improvements to these engines that will 
raise time on wing. As to maintainability, this engines performance is 
exemplary. With the ``performance-based logistics'' contract with Rolls 
Royce, the MV-22B fleet has yet to experience a ``bare firewall''. When 
its time to replace an engine, we don't have to wait; a new one is 
ready and waiting.

    89. Senator Thune. General Trautman, MV-22 squadrons in Iraq have 
had maintenance provided by a ``power-by-the-hour'' contract in which 
the contractor is paid to perform maintenance. Will this contractor-
performed maintenance continue and will adjustments be made to the 
contract to deal with reliability issues?
    General Trautman. The contractor is paid to provide new engines and 
technical assistance where necessary. The Marines in the squadron 
perform all organizational-level maintenance. We are currently working 
with Rolls Royce to develop a follow on, mid-term contract beginning in 
calendar year 2010 that will carry us through the next 5 years in a 
similarly based performance-based logistics contract, under which the 
vendor will perform all maintenance above the organizational level. 
With respect to engine availability, this construct has served us very 
well and we expect this will continue. However, we do want to see 
improvements that keep the engines on wing longer and ensure our costs 
are fair and reasonable. These improvements will continue to be made 
based on lessons learned in both deployed and continental United 
States-based operations. During execution of this mid-term contract, we 
will continue to gather the data required to determine what the long-
term propulsion system solution for this aircraft will be.

                             tacair basing
    90. Senator Thune. General Shackelford and General Gibson, how long 
has it taken the Air Force to conduct an EIS in connection with the 
decision to possibly base F-35 JSFs, gives rise to concern. So, as you 
might imagine, the Air Force's recent decision to reassess the criteria 
it will use to select where the JSF will be based, and how much 
additional time that will require, is also disconcerting. How much 
additional time will this reassessment add to the selection process?
    General Shackelford and General Gibson. The enterprise-wide look 
(EWL) will not add additional time to the final decisions for F-35 
basing. The EWL is being developed on a timeline to support near-term 
F-35 aircraft deliveries and will be used to facilitate the scoping of 
alternatives for the next two, anticipated EISs.

    91. Senator Thune. General Shackelford and General Gibson, why did 
the Air Force decide that the criteria guiding the selection of bases 
up to the fall of 2008 was insufficient and needed to be reevaluated?
    General Shackelford and General Gibson. Formal criteria involving a 
corporate Air Force review were not used in developing the previous 
``roadmap.'' To ensure the Air Force did not miss potential basing 
opportunities, the Secretary directed the current EWL.
    Prior to fall 2008, the basing process was de-centrally executed by 
our Major Commands. Bringing the basing decision to the Air Force level 
improves the decision making process in two ways. First, Air Force 
corporate requirements can be included in the process. Second, for new 
weapon system basing decisions, the Air Force will be able to 
incorporate new data as the weapon system matures.

    92. Senator Thune. General Shackelford and General Gibson, what 
changes do you expect to make to the criteria?
    General Shackelford and General Gibson. F-35 basing criteria are 
new, and consequently we do not expect to change them once they are 
completed. The Air Force Senior Basing Executive Steering Group (SB-
ESG) oversees the EWL to ensure an unbiased review of a full range of 
F-35 basing options for both operational and pilot training units, 
across all Air Force installations. The SB-ESG is working with both Air 
Combat Command and Air Education and Training Command to finish the 
content and framework for application of the criteria so the 
development of the criteria is open and transparent. The criteria will 
include consideration for, but is not limited to, range and airspace, 
weather conditions, facility capacity, noise, air conformity, 
encroachment and cost factors.

    93. Senator Thune. General Shackelford and General Gibson, will the 
criteria for the selection of bases for the F-35 be different for 
training versus operational basing?
    General Shackelford and General Gibson. Yes. The criteria will be 
different for selecting operational and training bases. Within the next 
few weeks, the Air Force will brief interested congressional members on 
the Secretary of the Air Force-approved F-35 basing criteria.

    94. Senator Thune. General Shackelford and General Gibson, this 
decision to review the criteria has caused a delay in the study of the 
environmental impact of a stationing decision. The Air Force is already 
struggling to meet the statutory BRAC deadline at Eglin AFB for the 
first F-35 JSF stationing due to a challenge to the EIS over noise 
concern. At the same time, the budget request for the Air Force for 
2010 includes funds to accelerate the purchase of F-35s. Is there a 
risk that the aircraft will arrive into the Air Force inventory before 
basing decisions are finalized and facilities are constructed? If so, 
how will you mitigate this risk?
    General Shackelford and General Gibson. The Air Force Record of 
Decision for Implementing BRAC 2005 decisions for the JSF initial joint 
training site at Eglin AFB was signed on 5 February 2009. This resulted 
in the decision to beddown 59 F-35 aircraft at Eglin AFB and conduct a 
Supplemental EIS to analyze the potential beddown of a total of 107 F-
35 aircraft. The first F-35 is scheduled to arrive at Eglin AFB in 
summer 2010 and we expect the facilities to be ready at that time.

    95. Senator Thune. General Shackelford and General Gibson, 
regarding the decision to establish a joint training base for the F-35 
at Eglin AFB, will the Air Force meet the statutory deadline to 
complete the decisions of the 2005 BRAC round by September 15, 2011? 
For how many F-35s?
    General Shackelford and General Gibson. The Air Force will meet the 
statutory BRAC 2005, September 15, 2011 deadline to establish a 59-
aircraft F-35 JSF initial training site at Eglin AFB.

    96. Senator Thune. General Shackelford and General Gibson, will 
this number be enough to meet the total initial training requirement 
for the Air Force, Navy, and Marine Corps? If not, what alternatives 
are being considered?
    General Shackelford and General Gibson. In accordance with the 2005 
Base Realignment and Closure Commission report, Eglin AFB is designated 
as the initial Integrated Training Center used by the Air Force, Navy, 
and Marine Corps, as well as our JSF partner nations, to conduct F-35 
pilot training. Even if Eglin is equipped with the previously planned 
complement of 107 F-35 aircraft, all the Services must pursue 
additional pilot training center (PTC) locations in order to 
accommodate pilot training requirements for the total Department of 
Defense buy of 2,443 F-35s as announced by Secretary Gates. If Eglin is 
limited to 59 F-35s, the Services will likely have to accelerate their 
bed down plans for additional PTC locations.
    The Air Force is conducting an EWL at F-35 basing options, to 
include potential locations for additional PTCs. Once the site survey 
and supplemental Environmental Impact Assessment are completed 
regarding the basing of additional F-35s at Eglin, decisions will be 
made by Air Force leadership on the requirements and timing of 
additional Air Force PTC locations.

    97. Senator Thune. General Shackelford and General Gibson, the 
budget request for 2010 includes $33 million for the first military 
construction project to comply with a 2005 directive from the previous 
Secretary of Defense to posture Anderson Air Base in Guam as a power 
hub for intelligence, surveillance, and reconnaissance; strike; and 
aerial refueling assets. The total cost for all facilities is estimated 
to exceed $1 billion. It is my understanding that no aircraft are 
currently planned to be permanently stationed in these new facilities. 
With all the other budget constraints facing the Air Force and the 
availability of excess facilities resulting from the accelerated 
retirement of 250 fighter aircraft in 2010, is this plan for Guam 
viable and currently supported in the FYDP being developed as part of 
the 2010 budget request?
    General Shackelford and General Gibson. Yes. Although the Air Force 
does not permanently base aircraft at Andersen AFB, Guam, as part of 
the continuing force posture adjustments to address worldwide 
requirements, the United States deploys forces to Guam as part of the 
Pacific's theater security package. Our budget supports continued Air 
Force operations at Andersen AFB, posturing the Department to 
accomplish the National Defense Strategy.

    98. Senator Thune. General Shackelford and General Gibson, will you 
be reviewing this plan as part of the upcoming QDR?
    General Shackelford and General Gibson. Yes. Global posturing of 
U.S. forces is part of the charter for the QDR. The Air Force has 
provided inputs to the QDR team that continues to emphasize the 
strategic value of Guam in support of the U.S. National Defense 
Strategy and the Commander, U.S. Pacific Command's goals and 
objectives.

    99. Senator Thune. General Shackelford and General Trautman, the 
Marine Corps has also included in the budget request for 2010 funds to 
carry out the first phase of similar military construction work on the 
north side of the runway at Anderson AFB to support the stationing of 
aviation assets. It seems to me that the Air Force may be investing in 
infrastructure projects at Anderson AFB that are duplicative to the 
efforts of the Marine Corps. Does the possibility exist for the Air 
Force and the Marine Corps to share hangars and support facilities?
    General Shackelford. Planned facilities are tailored to meet the 
maintenance and operational throughput for the individual aircraft 
mission sets of each Service, and we do not believe there is any excess 
capacity in either program. The Air Force's projects are for fixed-wing 
aircraft and the Marine Corps projects support predominantly rotary-
wing aircraft. The Air Force projects planned for Andersen AFB provide 
the minimum facility and infrastructure requirements to provide 
necessary maintenance and operation capabilities to support the current 
and ongoing tanker task force, continuous bomber presence, and theater 
security package missions. The current and planned Air Force facilities 
support large airframe aircraft operations and maintenance already in 
the south side of the south runway footprint.
    Facilities identified for the Marine Air Combat Element (ACE) 
build-up on the north side of the north runway are programmed to 
support predominantly rotary-wing aircraft. The north side of the north 
runway cannot support the Air Force's large airframe bomber and 
tankers. In addition, as currently configured, the airfield is not 
large enough to support the facilities and aircraft of both the Air 
Force and Marine Corps missions should they be collocated together on 
the north or south side of either runway.
    General Trautman. While there may be some potential to share some 
common administrative facilities, the operational facilities being 
developed at the north ramp of Anderson AFB (Rotary-Wing/Tilt-Rotor 
squadron hangars and aviation support facilities) are not the types of 
facilities that can be shared. The hangars and aviation support 
facilities for the proposed permanently assigned tilt-rotor squadron 
will completely fill the hangar currently in design. The near 
continuous presence of transient rotary-wing and tilt-rotor assets will 
also require hangar space for maintenance and support. The aviation 
logistics squadron hangar requested provides core maintenance and 
supply support to the rotary-wing and tilt-rotor assets. Transient U.S. 
Marine Corps fixed-wing aircraft may be able to use Air Force hangars 
being built on the South Ramp if the Air Force does not have a 
permanent presence in those facilities.
    Existing Air Force hangers are primarily fixed wing and are not 
compatible with MV-22 requirements. The Navy has one rotary-wing 
hanger, but it is not large enough to accommodate the MV-22 aircraft.
    Lastly, the Marine Corps requirements add capacity to the airfield 
that cannot be accommodated with existing facilities. More aircraft 
assigned to the installation drives the need for more parking apron and 
hangars.

    100. Senator Thune. General Shackelford and General Trautman, has 
the Air Force assessed the plans of the Marine Corps to determine 
whether taxpayer funds can be saved by consolidating requirements and 
efforts?
    General Shackelford. Air Force infrastructure projects were 
programmed in advance of the decision to base Marine Corps aviation 
assets on Andersen AFB, are sized to support the Air Force facility 
requirements, and will not have capacity or proximity required to 
support the Marine aviation requirement. Subsequently, in the Naval 
Facilities Engineering Command's development of the Guam Joint Military 
Master Plan, all existing and planned Air Force and Marine 
infrastructure were assessed in terms of their ability to support the 
proposed Marine beddown on Guam and to take into account any shared use 
opportunities. With the exception of a combined air embarkation/
debarkation operation planned for the south ramp of the south runway at 
Andersen AFB, the plan did not identify any other opportunities for 
shared use of facilities to support both Marine and Air Force aviation 
missions. However, we will continue to work through the joint Guam 
master planning construct to look for joint use capabilities and 
efficiencies. For instance, our planned low observable maintenance 
capabilities could be used by the Marine Corps if in the future  they  
look  to  develop  capabilities  within  their  ACE  complex  to  
support  the  F-35 when fielded in the Pacific.
    General Trautman. As the Marine Corps refines plans for relocating 
to Guam, we are working closely with Air Force facilities planners and 
the Joint Region to determine what savings can be made through 
consolidation and reutilization. Joint Basing guidance will be 
fundamental in positioning the Marine Corps on Guam in such a way as to 
maximize use of existing facilities and services.

    101. Senator Thune. General Shackelford and General Trautman, once 
this is done, can you provide a review of that assessment and the 
reasons for the duplicative request for military construction funds?
    General Shackelford. We do not believe the fiscal year 2010 budget 
requests are duplicative as the programmed projects provide the 
necessary infrastructure and efficient operational construct to support 
the very different operational mission set requirements for the Air 
Force and the Marine Corps.
    General Trautman. We continue to look at ways to reduce costs on 
AAFB. However, at this time, we do not foresee any duplicative military 
construction being programmed.

    [Whereupon, at 4:21 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

 ARMY MODERNIZATION AND MANAGEMENT OF THE FUTURE COMBAT SYSTEMS PROGRAM

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Inhofe, and 
Thune.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff member present: Paul C. Hutton IV, 
professional staff member.
    Staff assistants present: Brian F. Sebold and Breon N. 
Wells.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Gerald Thomas, assistant to 
Senator Burris; Lenwood Landrum, assistant to Senator Sessions; 
and Jason Van Beek, assistant to Senator Thune.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The subcommittee will come to order. 
Good afternoon. We particularly welcome General Chiarelli and 
General Thompson. We meet this afternoon for what is our final 
hearing prior to the markup by the Senate Armed Services 
Committee next week of the National Defense Authorization Act 
for Fiscal Year 2010.
    Today's topic, which is Army modernization, merits 
particular concern because of the many changes that are 
underway to reorient and restructure our national defenses. 
There are three particular challenges we face today as this 
subcommittee attempts to carry out our responsibility to 
conduct oversight.
    First, Secretary Gates has announced and the fiscal year 
2010 Army budget implements major program changes that 
restructure the Future Combat Systems (FCS), limit the Army's 
structural growth to 45 instead of 48 combat brigades, start a 
new ground combat vehicle (GCV) program, and direct the 
integration of mine-resistant ambush-protected (MRAP) vehicles 
into the Army's force structure.
    These changes are reflected in the fiscal year 2010 budget 
request, but in a manner that I would say is incomplete. The 
implementation of these decisions will require detailed 
analysis and planning, prioritization, and resource alignment, 
none of which has been done yet. That's why I hope our 
witnesses can help us understand the risks that are faced by 
the Army's modernization program in the absence of such 
analysis.
    Second, the fiscal year 2010 Army budget request does not 
include long-range investment plans ordinarily provided in the 
Future Years Defense Program (FYDP). This is not unusual, of 
course, in the first year of a new administration, but it does 
make our subcommittee's work in Army modernization oversight 
that much more difficult.
    Finally, Secretary Gates has stated that additional major 
decisions for the fiscal year 2011 budget request are 
contingent upon the conclusions of the Quadrennial Defense 
Review (QDR). The QDR is not required until February 2010. 
However, we understand that initial insights will be available 
to Army budget planners as early as the end of July, with final 
budget guidance by the end of September.
    Even as they await this guidance, we hope that our 
witnesses this afternoon will discuss to the extent that 
they're able long-range modernization plans for the Army, 
especially for those programs that may be at risk of reduction 
or restructuring.
    We have two excellent panels of witnesses: the first, 
General Peter Chiarelli, Vice Chief of Staff of the Army; and 
Lieutenant General Ross Thompson, the Military Deputy to the 
Assistant Secretary of the Army for Acquisition, Logistics, and 
Technology, and Director of Acquisition Career Management.
    He has a much longer title than you do, General Chiarelli, 
but I know you're Vice Chief.
    The second panel, immediately following, will include 
witnesses from the Government Accountability Office (GAO) and 
the Office of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics. That panel we will ask to examine 
the management history of the FCS program and the lessons that 
we may learn from it as we go forward with the Army to future 
modernization. I look forward to the hearing.
    Senator Thune.

                STATEMENT OF SENATOR JOHN THUNE

    Senator Thune. Thank you, Mr. Chairman. I want to join you 
in welcoming General Chiarelli and Lieutenant General Thompson 
back to the committee and thank them for their long and 
distinguished service to our Nation. Modernizing the Army is 
necessary to preserve our technological edge over potential 
adversaries, deliver better protection for our soldiers, and 
provide our men and women in uniform with improved capabilities 
to accomplish their mission.
    The success or failure of our efforts to modernize and 
transform the force of the future rests on decisions proposed, 
discussed, and implemented today. There is concern among 
members of the committee, which you will hear, regarding the 
recent history of Army modernization efforts. The challenge of 
delivering capability amidst unrelenting technological change 
and shifting requirements is indeed a difficult one. We are 
eager to understand the Army's vision for the future and the 
strategy to achieve it.
    Last month Secretary Geren and General Casey testified 
that, while the Army remains the best led, trained, and 
equipped army in the world, it is out of balance. General Casey 
outlined for us his plan to bring the Army into balance and he 
emphasized four imperatives: sustain, prepare, reset, and 
transform.
    The committee has heard testimony from inside and outside 
the Army this year on each of General Casey's imperatives, and 
today we hope to explore more closely the Army's plan for 
transformation and modernization. An area of special interest 
is the uncertain future of the Army's recently restructured 
FCS. This multi-year, multi-billion dollar program was at the 
core of the Army's weapons modernization efforts and its 
successor programs will comprise a significant portion of the 
Army's research, development, and acquisition program.
    The witnesses will be asked about the way forward in light 
of restructuring, the implications to current and future 
planning, and continuing technical challenges associated with a 
networked battlefield.
    Also, the witnesses will be asked how the modernization 
program will meet Army Reserve and National Guard requirements, 
about progress toward resetting all components of the Army, how 
Army transformation plans will impact future requirements for 
strategic and tactical mobility, about the Army's aviation 
requirement, the proper mix of vehicles in the tactical wheeled 
fleet, including MRAP vehicles, and what type of future vehicle 
and weapons programs will meet the Army's needs to conduct full 
spectrum operations in hybrid warfare.
    In closing, I'd like to emphasize that, while the focus of 
this hearing may be the weapons systems and processes that 
support the soldier, the center of gravity has and always will 
be the soldiers themselves. Our thanks and gratitude extends to 
all servicemembers at home and overseas and the families that 
support them.
    Mr. Chairman, thank you for convening the hearing. I look 
forward to hearing from our witnesses.
    Senator Lieberman. Thanks very much, Senator Thune.
    Without further ado, General Chiarelli, thank you for being 
here. Thank you for your extraordinary service to our country, 
and we would welcome your testimony now.

 STATEMENT OF GEN PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF 
                          OF THE ARMY

    General Chiarelli. Mr. Chairman, Ranking Member Thune, 
distinguished members of the subcommittee: I thank you for the 
opportunity to appear here today to discuss Army modernization 
and the management of the FCS program in view of the fiscal 
year 2010 budget request. This is my first occasion to appear 
before this esteemed subcommittee and I pledge to always 
provide you with an honest and forthright assessment and my 
best military advice as requested. I have submitted a statement 
for the record and I look forward to answering your questions 
at the conclusion of opening remarks.
    As all of you know, it's been a busy time for our Nation's 
military. We are at war, and we have been at war for the past 
7-plus years. Since the very beginning, this conflict has been 
in many ways different and more complex than past wars. We are 
dealing with less clearly defined and highly savvy adversaries 
in two theaters. In fact, the only thing we can know for 
certain in this new strategic environment is that the enemy 
will purposely go where we are not.
    Therefore, in order to stay ahead of the threat and to 
ensure there are forces prepared and capable to respond to any 
contingency, we have consistently made improvements and 
adjustments to our capabilities based upon lessons learned. In 
every aspect of the Army's modernization strategy, our purpose 
is to improve soldier survivability and ensure they're able to 
maintain a decisive advantage over whatever enemy they face. We 
are adamant, and I know the members of this esteemed 
subcommittee are equally adamant, that we never want to send 
our soldiers into a fair fight.
    The Army is currently transitioning to a brigade combat 
team (BCT) modernization strategy focused on building a 
versatile mix of networked BCTs and enablers so we can leverage 
mobility, protection, information, intelligence, and precision 
fires in order to more effectively operate across the full 
spectrum of conflict.
    As you all are aware, on April 6, 2009, Secretary Gates 
recommended the cancellation of the Manned Ground Vehicle (MGV) 
portion of FCS. The Army now is moving forward to analyze 
operational requirements and lessons learned from 7-plus years 
of war to develop the GCV as a critical capability for the BCT 
modernization.
    Understandably, this platform has received much of the 
attention and focus in recent days following the Secretary's 
recommendation and the release of the President's fiscal year 
2010 defense budget. Some are of the belief that a majority of 
the money previously allocated for FCS now should be 
reallocated elsewhere pending the cancellation of the MGV. With 
all due respect, I must strongly disagree with this position. 
While the platform was a key piece of FCS modernization 
strategy, I believe the most critical component of the new BCT 
modernization strategy is the network, and I am concerned that 
cancellation of the MGV has been misunderstood by some to mean 
cancellation of all things FCS, to include the network.
    Today the situation on the battlefield is increasingly 
complex. Information is collected and shared by various systems 
across the battle space, including platforms, sensors, 
computers, radios, transmitters, and satellites. In the Army's 
new BCT modernization strategy, the network will serve as the 
hub for all these separate nodes, connecting leaders and 
soldiers at all levels and at every echelon of command in every 
formation--Infantry BCTs, Heavy BCTs, Stryker BCTs, and 
ultimately even across the interagency--with the right 
information quickly and seamlessly.
    Simply put, the network is the centerpiece of the Army's 
modernization efforts and any shortfall in funding will put 
that effort at risk. I assure the members of this subcommittee 
that the Army's senior leaders are focused on the Army's total 
modernization efforts and the management of the FCS program, 
and we will continue to coordinate with senior Department of 
Defense (DOD) officials and Congress to identify the best 
possible solutions in order to ensure we never send our 
soldiers into a fair fight.
    In conclusion, on behalf of over 1.1 million soldiers 
serving in the Army today, I respectfully request your support 
of DOD's fiscal year 2010 budget, a budget that in its entirety 
reflects the resources required to grow the network, field 
early spinout technologies to BCTs on the ground in Iraq and 
Afghanistan, and re-start our development of the next GCV.
    Mr. Chairman, members of the subcommittee, I thank you 
again for your continued generous support and demonstrated 
commitment to the outstanding men and women of the United 
States Army and their families. I look forward to your 
questions.
    Senator Lieberman. Thank you, General Chiarelli.
    General Thompson.

STATEMENT OF LTG N. ROSS THOMPSON III, USA, MILITARY DEPUTY TO 
THE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS, 
  AND TECHNOLOGY, AND DIRECTOR, ACQUISITION CAREER MANAGEMENT

    General Thompson. Chairman Lieberman, Senator Thune, and 
distinguished members of the Airland Subcommittee: I want to 
thank you for this opportunity to discuss Army modernization 
and management of the FCS program in view of the fiscal year 
2010 annual budget.
    With all of our programs and our funding requests, the 
Army's highest priority remains the protection of our 
warfighters in an operational environment that is increasingly 
ambiguous, unpredictable, and dangerous. Force protection has 
taken on an even greater importance as we shift major 
operations from Iraq to Afghanistan. We are grateful to the 
members of this subcommittee for your guidance and your 
steadfast support. We continue to meet the equipping demands of 
our soldiers in ongoing overseas contingency operations and in 
other operations worldwide because of the resources and 
guidance provided by this subcommittee and Congress. We 
constantly strive to be good stewards of those resources.
    The Army's comprehensive modernization program is the key 
to ensuring that our soldiers maintain a decisive advantage 
over a diverse array of potential adversaries while 
continuously improving their survivability. In every aspect of 
our Army modernization programs we leverage lessons learned 
from soldiers in the current fight, speed fielding of enhanced 
capabilities to the force, and concurrently develop 
capabilities soldiers will need both today and tomorrow.
    As General Chiarelli stated, our modernization strategy is 
focused on building a versatile mix of networked BCTs. The most 
critical component of the new BCT modernization strategy is the 
network. By growing the network in regular increments, we will 
provide our soldiers and their leaders with a continually 
enhanced common operating picture of the battle space, which is 
a significant advantage in combat.
    The Army and DOD remain committed to the requirement for a 
manned armed scout helicopter capability and in the need to 
deliver this capability to our soldiers in a responsible and 
timely manner.
    We are also committed to extending spinouts of our critical 
war-proven enablers to all of our BCTs and working with the 
Office of the Secretary of Defense (OSD) and Congress to field 
the new combat vehicle as expeditiously as possible, a 
capability that is long overdue.
    In all areas of future commitments, we are planning for 
continued development of systems and technologies to ensure 
that our soldiers maintain a decisive advantage over potential 
adversaries.
    Mr. Chairman and members of the subcommittee, your deep and 
abiding commitment to our men and women in uniform is widely 
recognized throughout our ranks. We thank you for your 
continued support of the outstanding men and women of the 
United States Army and their families, as well as your support 
of the fiscal year 2010 budget.
    This concludes my opening remarks, Mr. Chairman. I look 
forward to your questions.
    [The joint prepared statement of General Chiarelli and 
Lieutenant General Thompson follows:]
  Joint Prepared Statement by GEN Peter W. Chiarelli, USA, and LTG N. 
                         Ross Thompson III, USA
    Chairman Lieberman, Ranking Member Thune, distinguished members of 
the Airland Subcommittee. We thank you for the opportunity to discuss 
Army Modernization and management of the Future Combat Systems (FCS) 
program in view of the fiscal year 2010 annual budget and Overseas 
Contingency Operations supplemental requests. On behalf of Army 
Secretary, the Honorable Pete Geren and our Army Chief of Staff, 
General George Casey, we would also like to take this opportunity to 
thank you for your continued, strong support and demonstrated 
commitment to our soldiers, Army civilians, and family members.
    As all of you know, it has been a busy time for our Nation's 
military. We are at war; we have been at war for the past 7-plus years, 
and that has undeniably put a strain on our people and equipment. We 
have had our share of good and bad experiences; and, we are continually 
making adjustments and improvements to our tactics, training, and 
equipment based upon the lessons learned.
    Since the very beginning, this war has been in many ways different 
and more complex than past wars. We are dealing with less clearly 
defined and highly savvy adversaries in two theaters. In this new 
strategic environment, the only thing we can know for certain is that 
the enemy will purposely go where we are not.
    Therefore, we must ensure that our Force is prepared and capable to 
respond to any contingency. As Secretary Gates has said, ``In all, we 
have to be prepared for the wars we are most likely to fight, not just 
the wars we've traditionally been best suited to fight or threats we 
conjure up from potential adversaries who also have limited 
resources.''
    In recent years, in order to remain dominant we have had to 
simultaneously and swiftly adapt our doctrine and organizational 
structure to effectively span the breadth of operational environments. 
It's all part of a changing strategy we refer to in the Army as Full 
Spectrum Operations (FSO).
    The centerpiece of our efforts has been a shift to a modular 
construct focused at the brigade level that has greatly enhanced our 
ability to respond to any situation, quickly and effectively. We.ve 
also made corresponding changes to our Table of Organization and 
Equipment (TO&E); and, we've expanded our capability by adding Civil 
Affairs, MPs, Special Forces, and other enablers.
                             modernization
    The adage that ``we never want to send our soldiers into a fair 
fight'' is at the core of the Army Modernization Strategy. 
Modernization is the key to ensuring our soldiers maintain a decisive 
advantage over whatever enemy they face, while improving their 
survivability. We are pursuing a strategy that rapidly fields equipment 
to the current force; upgrades equipment for soldiers going into combat 
and modernizes select systems; spins-out technologies; and modernizes 
Brigade Combat Teams (BCTs). In every aspect of modernization, we 
leverage lessons learned from soldiers in the current fight to speed 
fielding of enhanced capabilities to the force, and concurrently 
develop capabilities soldiers need today.
    We are transitioning immediately from a FCS BCT Strategy to a BCT 
Modernization Strategy. With respect to the FCS program, the fiscal 
year 2010 President's budget calls for us to: (1) accelerate fielding 
of spin-outs to all 73 BCTs starting in fiscal year 2011; (2) halt the 
development and procurement of FCS manned ground vehicles; and (3) halt 
the development and procurement of the Non-Line-of-Sight-Cannon.
    We will move from a modernization strategy focused on fielding 15 
FCS BCTs and spin-outs of FCS systems, as mentioned earlier, to a BCT 
modernization strategy focused on building a versatile mix of networked 
BCTs and enablers that can leverage mobility, protection, information, 
precision intelligence and fires to conduct effective FSO across the 
spectrum of conflict. Such an approach will enable soldiers to receive 
key ``high-payoff'' systems that are quickly integrated into BCTs.
    This BCT modernization strategy will continue to integrate valuable 
technological and network advances developed over the course of this 
war (e.g., Ground Soldier Ensemble, WIN-T, remote sensors), including 
those drawn from R&D for the FCS program into our modular formations to 
enhance their full spectrum capabilities.
    To assist us in this regard, the Army recently conducted an after 
action review of the FCS program's development and acquisition 
strategy. The valuable information gathered will assist us in our work 
to develop a ground combat vehicle concept that incorporates the 
lessons of the past 7 years at war and the technological advances from 
the FCS program.
    An Office of the Secretary of Defense Acquisition Decision 
Memorandum (ADM) is forthcoming that will provide the detailed guidance 
for the program going forward. The Army plans to halt the current FCS 
program after the ADM is signed and capture the results from the May 
2009 System of Systems Preliminary Design Review. We plan to field a 
new ground combat vehicle in 5 to 7 years.
    With regard to existing vehicle upgrades, the Army's combat 
platform modernization program is focused on standardizing our Heavy 
Brigade Combat Team (HBCT) sets with two variants of the Abrams tank 
and the Bradley Fighting Vehicle System, two of the Army's highest 
priority combat vehicle recapitalization programs, along with the 
supporting fire support modernization with the Paladin (PIM). This 
program will modernize all HBCTs (both Active and Army National Guard), 
the 3rd ACR, Army Prepositioned Stocks, and the Institutional Training 
Base.
    At present, the Army has nearly completed fielding modularized 
HBCTs, which gives every brigade a common structure. The short-term 
modernization goal is to populate these brigades with only two variants 
of the Abrams and the Bradley--the Abrams M1A2SEPv2 (System Enhancement 
Package) is being paired with its partner the Bradley M2A3 and the 
Abrams M1A1AIM SA (Abrams Integrated Management Situational Awareness) 
is being teamed with the Bradley M2A2ODS SA (Operation Desert Storm 
Situational Awareness). This modernization plan aligns compatible 
combat platforms with common modular formations.
    Stryker has planned procurement of 3,616 vehicles with 2,765 having 
been accepted to date. The Stryker program received a Full Rate 
Production decision on 8 of 10 configuration variants, including the 
Infantry Carrier Vehicle, Reconnaissance Vehicle, Commander Vehicle, 
Mortar Carrier Vehicle, Fire Support Vehicle, Anti-tank Guided Missile 
Vehicle, Engineer Squad Vehicle, and Medical Evacuation Vehicle. The 
remaining variants--the Nuclear, Biological and Chemical Reconnaissance 
Vehicle and the Mobile Gun System--are in Limited Rate Production.
    The Secretary of Defense authorized, and the Army has funded, the 
procurement and fielding of seven Stryker BCTs to fulfill national 
security requirements. This will equip seven brigade-size units 
including maintenance floats, a strategic pool of ready-to-fight 
systems, Institutional Training Base, Test Articles, a Depot Repair 
Cycle Float Pool managed by the U.S. Army Materiel Command, other 
operational requirements, Nuclear Biological and Chemical 
Reconnaissance Vehicles to fill non-Stryker BCT armored Chemical, 
Biological, Radiological and Nuclear requirements, and vehicles to 
support theater operations in Afghanistan.
    The M113 Family of Vehicles (FOV) program was terminated in June 
2007. At present, we have approximately 6,000 vehicles in our inventory 
that fill several mission roles including fire support, command and 
control, medical, chemical, mobility/counter mobility, and others. The 
Army Ground Vehicle Modernization Strategy, coupled with force 
structure and force mix analysis will determine the long term 
replacement strategy for the M113 FOVs.
    With regard to tactical radio procurement, the Joint Tactical Radio 
System (JTRS) is a Department of Defense (DOD) initiative to develop a 
family of software-programmable tactical radios that provide mobile, 
interoperable, and networked voice, data and video communications at 
the tactical edge of the battlefield. For the Army, JTRS will initially 
provide a tactical radio communications network for Spin Outs as well 
as Infantry, Heavy, and Stryker BCTs by providing the tactical 
networking transport capability through scalable and modular networked 
communications. It will also provide the current force a mobile, ad hoc 
networking capability using, new advanced waveforms--Soldier Radio 
Waveform and Wideband Networking Waveform.
    The majority of the radios in the Ground Mobile Radio (GMR) Program 
and the Handheld, Manpack and Small Form Fit Program (HMS) will be 
procured for the Army. GMR will provide the Army a multi-channel (up to 
four channels) operation, allowing full functionality of each legacy 
radio it replaces. In addition, GMR will include an integrated global 
positioning system (GPS) capability based on the Selective Availability 
Anti-Spoofing Module-based GPS receiver with a Precise Time and Time 
Interval output.
    HMS will provide a Scalable and modular Software Communications 
Architecture compliant networked radio frequency communication 
capability to meet Army Handheld, Manpack (Mounted & Dismounted) and 
Embedded Radio requirements. The program will deliver a Handheld (2 
Channel) radio, a Manpack (2 Channel) radio, and various Small Form Fit 
radios for various ground sensors/unattended vehicles/unmanned air 
vehicles.
    Warfighter Information Network--Tactical (WIN-T) is the 
transformational command and control communications system that 
provides the backbone wide area tactical network at echelons from 
theater through company in support of full spectrum operations. 
Following the program's restructure in 2007, the Army plans to field 
the latest networking capability to our soldiers in four increments, as 
advanced technologies for enhanced communications becomes available. At 
present, the Army has already fielded Increment 1 to more than 50 
percent of the total force giving our soldiers a communications network 
that is largely satellite based, allowing for beyond line-of-sight 
communications and commercial Internet networking technology.
    Increment 2 brings initial networking on-the-move capabilities 
embedded in various platforms to allow a fully operational and 
connected communications networking capability for our soldiers (from 
brigade down to the company level). Increment 2 features include 
commercial routers, radios, and antennas that are technologically 
mature, with waveform technology optimized for high-capacity broadband 
networking and support that enables high throughput while the unit is 
on-the-move. Increment 2 is expected to achieve a low rate initial 
production decision this August, with fielding expected to begin in 
2011. Increment 2 is expected to achieve a low-rate initial production 
decision this October, with fielding expected to begin in 2012.
    Increment 3 capabilities bring the full on-the-move capabilities 
that feature a single radio combining the line-of-sight and the 
satellite waveforms from Increment 2 in a military chassis which 
includes Global Broadcast Service receive capability. Air-tier 
development work planned under this increment brings even more robust 
communications, providing three tiers of communications that result in 
less reliance on satellite communications. Network Operations will 
continue to develop in both Increments 2 and 3 to achieve a fully 
integrated capability for planning, initializing, operating, and 
managing the entire on-the-move network.
    WIN-T Increment 4 represents the last of the developmental program 
elements and will provide technology insertions to enable enhanced 
satellite communications protection.
    With regard to Army Aviation, it has been 5 years since the Army, 
with the support of Congress and the Office of the Secretary of 
Defense, terminated the Comanche helicopter program to allow 
modernization of the entire Army Aviation fleet. In just those few 
years, we have seen steady and substantial progress. Today, 9 of the 13 
systems identified for funding at Comanche termination are in 
production. By fiscal year 2011, we will have started fielding all the 
aircraft programs, except the Armed Reconnaissance Helicopter. That 
means 69 percent of all these programs are in some form of production 
today--low, initial, or full rate production, with 54 percent in full 
rate production.
    These programs will contribute directly to overseas contingency 
operations by priority fielding to units preparing to deploy to combat 
operations or currently deployed in support of combat operations. We 
want to emphasize that every one of these programs will be fielded to 
units next in rotation to the warfight or units now supporting the 
warfight. Currently operating in combat operations are the CH-47F and 
UH-60M helicopters, the Sky Warrior Alpha, Sky Warrior Block . . ., and 
Raven Unmanned Aircraft Systems and a pre-production variant of the 
Micro Air Vehicle spun out of the FCS program. The Light Utility 
Helicopter has enabled the return of UH-60s to the warfighting fleet 
and has allowed retirement of UH-1 and OH-58s in both the active and 
Reserve Components.
    The UH-60 Black Hawk is the work horse of Army Aviation. The 
current UH-60 fleet is comprised of 1,748 aircraft, including 951 UH-
60As (produced between 1978 and 1989), 689 UH-60Ls (produced since 
1989) and 108 new UH-60Ms. The Black Hawk helicopter is in its 32nd 
year of production. To date, the Army has employed seven multi-year, 
multiservice production contracts. The current contract extends from 
fiscal year 2007 to fiscal year 2011 and includes Navy H-60 aircraft, 
as well as Foreign Military Sales aircraft.
    The ongoing UH-60A to UH-60L recapitalization program extends the 
service life of the Black Hawk program while providing the improved 
capability and safety margin of the UH-60L. The Army plans to induct 38 
aircraft in fiscal year 2009 and 228 aircraft between fiscal year 2010 
and fiscal year 2015.
    The UH-60M program incorporates a digitized cockpit for improved 
combat situational awareness, lift, range, and handling characteristics 
for enhanced maneuverability and safety. These improvements also extend 
the service life of the aircraft. Additionally, the Army has a Common 
Engine Program shared by the UH-60 Blackhawk and AH-64 Apache fleets.
    The Army and DOD remain committed to the requirement for a manned 
Armed Scout Helicopter (ASH) capability and the need to deliver this 
capability to our Soldiers in a responsible and timely manner.
    As a capability bridging strategy, the Secretary of the Army 
approved a strategy to maintain the Armed Reconnaissance Helicopter 
(ARH) funds within Army aviation and redistribute them into three 
primary efforts: (1) sustaining and improving the OH-58D Kiowa Warrior; 
(2) modernizing the Army National Guard (ARNG) AH-64A Apache fleet; and 
(3) conducting a competition for and procuring the capabilities 
associated with the future ASH. The Vice Chief of Staff of the Army and 
the Army Acquisition Executive jointly signed a Memorandum for the 
Record codifying this strategy.
    To support the potential procurement effort, the Army is conducting 
a bottom-up review of the armed reconnaissance capability requirement 
to include a thorough assessment of the specific requirements 
identified for the initial ARH program, as well as initiating a formal 
``Analysis of Alternatives.'' The analysis will cover the entire 
spectrum of options--from the potential use of UAVs to the use of a 
manned/unmanned aircraft mix to the procurement of a new manned 
platform.
    Due to the time required to complete these assessments, the Army is 
currently evaluating what additional enhancements and life extension 
work, if any, will be required to continue to safely sustain the Kiowa 
Warrior fleet until a replacement is procured.
    The U.S. Army Audit Agency completed an official after action 
review to identify lessons learned from the termination of the ARH 
program. The results are being evaluated for assimilation into Army 
acquisition programs and for use in developing an acquisition strategy 
to meet the manned ARH requirement.
                 modernization of our reserve component
    Similarly, the ARNG has seen an increase in capabilities through 
modernization. For instance, the UH-1 Huey has long been a work horse 
of the ARNG. Now, with the increased numbers of Black Hawk and fielding 
of the new Light Utility Helicopter, the last Huey is expected to leave 
the ARNG by the end of fiscal year 2009. Another example is the famous 
``deuce and a half,'' or 2\1/2\ ton truck, which has been used for 
decades by the ARNG for a variety of cargo missions. In 2001, the ARNG 
had 16,504, or 62 percent, of these vehicles in the Army. We anticipate 
that the last 2\1/2\ ton truck will leave the ARNG by fiscal year 2011.
                         achieving transparency
    In addition, the Army is diligently working towards transparency. 
Transparency is the process that provides accountability and 
traceability of a specific piece of equipment, from budget submission 
through funding authorization and on to procurement and delivery to 
Army users. One would think that this would be a fairly straightforward 
task; it is not. Today, we have individual financial and acquisition 
systems built to control and track funding and contracted amounts. 
Further, we have property accountability systems designed to keep track 
of property, but are not linked to the funding source. The gaps between 
these disparate systems are wide and difficult to link. However, we are 
on a deliberate path to obtain full transparency. Right now, the Army 
is collecting data manually and through selected systems to gather the 
needed information. Our first full set of data is expected to be 
prepared by July 2009. For the long-term, we will adjust automation 
systems and adapt processes to support transparency reporting. The Army 
is fully committed to mastering the challenge of achieving full 
transparency in the equipping process.
                                closing
    The Army's Modernization program is providing our soldiers with 
leading-edge technologies and advanced capabilities to fight the wars 
we are engaged in today, while simultaneously preparing them for future 
threats. The BCT modernization strategy we are moving to will 
incorporate valuable technological and network advances, developed 
using lessons learned from the experiences of the past 7-plus years of 
war, into our modular formations. This strategy will significantly 
enhance the full spectrum capability of our Force.
    As we continue this process, we will coordinate with senior DOD 
officials and Congress to identify both short- and long-term solutions. 
Your input will continue to be very valuable to us. We know that all of 
you are equally committed to ensuring that ``we never send our soldiers 
into a fair fight.''
    Mr. Chairman, members of the committee, we thank you again for your 
continued and generous support of the outstanding men and women of the 
United States Army and their families. We look forward to your 
questions.

    Senator Lieberman. Thanks, General Thompson.
    We'll have 7-minute rounds of questions.
    Let me say to both of you, who have graciously thanked the 
subcommittee for our support of the men and women in uniform, 
in the Army in this case particularly, I'm sure I speak for my 
colleagues here in saying that really it's our honor, let alone 
our responsibility, to give whatever support we can to the men 
and women in our armed services, in this case particularly the 
Army. To say that the service of the personnel of the Army has 
been extraordinary, whatever the phrase is, it seems to me that 
this is the next greatest generation in service of our country, 
who have been drawn into a battle that in many ways its details 
were hard to foresee. With extraordinary leadership, such as 
represented at the table before us, the Army has transformed 
itself by personal skill, courage, and characteristically 
American goodwill and compassion, and has succeeded in Iraq and 
is on the road to success. Now I think I'm confident we'll turn 
things around in Afghanistan in a way that's really historic 
and very consequential for our country.
    So you evoked that by saying thank you. We don't deserve 
any thanks when I think about what you all are doing.
    Speaking about the service of our troops, General 
Chiarelli, this is about the Army modernization program, but 
you've really given great leadership in a host of areas, 
including as an advocate for Army personnel, which ultimately 
is what the Army is all about. There are a lot of us on this 
committee who are concerned that the end strength of the Army 
now, the statutory end strength, is inadequate to the moment.
    While we talk about a lot of different programs for 
reducing stress on our Army personnel, perhaps the best thing 
we can do is to make sure there are more of them, so that the 
dwell time they have between tours of deployed duty increases 
instead of decreases. I wanted you to know that there will be a 
serious effort in this subcommittee, I've been working with 
Senator Thune on this and others--as there has been, I noticed, 
in the House this week, to increase the authorized end strength 
of the Army by 30,000.
    Do you have a reaction to that?
    General Chiarelli. First of all, Mr. Chairman, I'm in 
complete agreement with your analysis. As the ranking member 
said also, soldiers are at the heart of our formation. We have 
this constant balancing act between things like modernization 
and soldiers, because soldiers cost money. At the same time, 
I'm concerned with dwell time and I know that individual dwell 
is less than unit dwell. We have finally been able to model 
that and show that, and it has tremendous significance.
    As I have worked with the Secretary of the Army on suicide 
prevention and realized this is more about the wellness of the 
entire force and its families, I have come to the point to 
believe the Army is stressed and there may be a requirement for 
us to have a temporary authorization of additional soldiers to 
fill some of the holes we have in our formations and to take 
the stress off the force in what is going to be a critical 12- 
to 18-month period.
    Senator Lieberman. Thank you for that statement. That's 
exactly the terms in which we're seeing it, which is as a 
temporary increase, because, as General Casey said to us when 
he testified before the full committee, this dwell time and 
stress is really a matter of supply and demand. How many troops 
do we have to supply and what's the demand? We know for a fact 
that we're going to be increasing our presence in Afghanistan 
and not drawing down our presence in Iraq immediately. So that 
will mean in the short term there will actually be more people 
deployed, a higher demand.
    To help you increase the dwell time and reduce the stress 
on individual soldiers--as you said, very important 
distinction--we're going to work to increase the authorization 
by 30,000 and hope that together we can find the money for the 
chief and you to do that as circumstances require.
    Let me go on to ask you an overall general question on our 
Army modernization. As you look back over the last decade or 
so, there have been a lot of changes in plans and investment 
priorities and even titles, names. We've gone from Digitization 
to Force XXI to Army After Next to Interim Force to Objective 
Force to FCS and Modularity.
    I understand that part of this is obviously a reflection of 
changes in the battle. I remember General Shinseki said at one 
point that his aim was to see us get to a stable modernization 
strategy in which there was irreversible momentum in favor of 
that strategy.
    I wanted to ask you if you'd comment on, as you look back 
over the last 10 years, whether there were too many changes in 
modernization strategy of the Army and where you see this focus 
going in the chapter ahead of us.
    General Chiarelli. A majority of the last 10 years for me 
have been spent in the operational Army, deployed with combat 
forces. I watched us over a 3-year period in Iraq move from 
soft-skinned Humvees up to Humvees with frag kit 5 and now 
today to the MRAP vehicle, and thought, thank goodness, we were 
able to go ahead and make those kinds of modernization leaps 
forward to protect our soldiers.
    I'd just like to remind everyone that the MGV was a portion 
of the FCS program. FCS is spinouts, and we have now spinouts 
for 73 brigades. That's what we're looking at over time. It is 
that network, and that network is the key and critical piece 
that's going to pull this whole thing together and provide that 
soldier in combat the information he needs when he needs it to 
survive in the fight.
    We are very pleased with the Secretary of Defense's 
commitment to an Army modernization plan and to a GCV. The 
chief and the Secretary of the Army have charged us with moving 
ahead rapidly and fielding something to our forces, fielding 
that vehicle within the next 5 to 7 years. We are well into the 
planning to do that right now.
    We held a very successful blue ribbon symposium yesterday 
at National Defense University, where we brought in people from 
OSD, from the building, from the think tanks, to get their 
ideas on where we should go. But we are committed to this in a 
5- to 7-year period.
    Senator Lieberman. I appreciate your answer. I take from 
that you support the changes in the FCS program as recommended 
by Secretary Gates and ultimately the President. I take it 
that, based on your opening statement, you feel that the most 
important part of FCS, which is the networking capability, is 
being preserved.
    General Chiarelli. We must preserve the network, and we 
must preserve what we need to move ourselves to a GCV in a 5- 
to 7-year timeframe.
    Senator Lieberman. So we obviously need a new GCV, whether 
we call it MGV or GCV. I know that there's been a pledge that 
the funding will be preserved to transition to the new GCV. Are 
you worried about the fact that the pots of money that are left 
unspent in short order tend to be very attractive to Members of 
Congress?
    General Chiarelli. I support the President's budget. The 
President's budget will get us to where we need to be, and we 
are hoping that we will not see that money taken away. That 
money is made available to move ahead. We think that's 
absolutely critical.
    Senator Lieberman. Let me ask one final question on this 
topic about ground vehicles. We've invested a lot of money, 
appropriately so, and bought a lot of MRAP vehicles to deal 
with the situation our troops were facing in Iraq and now in 
Afghanistan. What's the role of that particular ground vehicle 
over the next 5 or 10 years or beyond?
    General Chiarelli. The Army is committed to integrating the 
MRAP vehicles into our formation. General Dempsey is working 
that right now. The MRAP vehicle has saved arms, legs, and 
lives, and I hope one day to be able to show exactly how many 
it has. It's an absolutely amazing vehicle.
    But it cannot be integrated everywhere in our formation. I 
know you know that there are 16,000 MRAP vehicles, but 200,000 
vehicles in the Army inventory. So MRAP vehicles today 
represent 8 percent of the total vehicles in the United States 
Army. They will be integrated into our formations, but in 
places where that vehicle is in fact most suited.
    One of the things that came out of our blue ribbon 
symposium yesterday was noncommissioned officers who told us 
that carrying infantry around in an MRAP vehicle is fine and it 
protects them, but they have to wait 9 seconds from the time 
somebody pushes the button to the ramp coming down. They feel 
very vulnerable in that vehicle as that ramp slowly comes down. 
So it's those kinds of things that make the MRAP vehicles 
better suited for certain places in our formation, and I know 
General Dempsey and U.S. Army Training and Doctrine Command 
(TRADOC) are working to determine that now with our force and 
vehicle mix.
    Senator Lieberman. Of course, the MRAP vehicles play a very 
different role or have a different function than either the MGV 
or the oncoming GCV, correct?
    General Chiarelli. That's correct.
    Senator Lieberman. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I want to come back to the chairman's last question there. 
DOD I understand is currently selecting a scaled-down MRAP 
vehicle which by way of greater off-road mobility would be 
suited for use in Afghanistan. I understand that at least 4,500 
of these MRAP all terrain vehicles (ATVs) would be required for 
use in theater, mostly belonging to the Army.
    The Army has not outlined whether or not or how they plan 
to institutionalize the capability of the thousands of already 
fielded MRAP vehicles. So General Chiarelli, I guess my 
question would be, what does the Army intend to do with the 
MRAP vehicles that are ill-suited for Afghanistan as troops are 
redeployed from Iraq?
    General Chiarelli. Senator, we brought some home. We're 
using them in the training base. As I indicated before, we 
will, in fact, integrate those into our formations in the place 
they're best suited. We are very, very happy with the MRAP ATV. 
We think that is a great step forward. We're also very happy 
that many of the MRAP vehicles, the old MRAP vehicles that 
don't have the independent off-road suspension, can be 
retrofitted for that off-road suspension. We expect to do some 
of that in theater, both the U.S. Army and the Marine Corps.
    I think, Ross, you have some information on that.
    General Thompson. Yes, sir. One of the things that we're 
doing with one of the variants of MRAP vehicles that already 
exist today before we go forward with the source selection 
decision, which is within the next several weeks, on the MRAP 
ATV is to take the suspension system that goes with the medium 
truck for the Marine Corps and retrofit some of the existing 
MRAP vehicles so we get that off-road capability to be able to 
use in Afghanistan and incorporate those vehicles, as well as 
the MRAP ATVs once we start to produce those by the end of the 
summer and begin fielding them in the fall, is the current 
plan.
    Senator Thune. Is the Army experiencing other shortfalls in 
other areas when it comes to equipment and trying to meet some 
of the changing dynamics of operations in Afghanistan relative 
to what we've been dealing with in Iraq? The MRAP vehicle is a 
good example of how you have to adapt that vehicle, either 
through retrofitting it or coming up with a new model. Is the 
Army facing any other of those types of issues with regard to 
the conditions in Afghanistan?
    General Chiarelli. In fact, one of our main efforts is 
lightening the load for the soldier. We have a brigade out of 
the 4th Infantry Division coming out of Fort Carson that'll be 
going into country I believe this month, that's going to be 
going with a set of gear that, depending on the position you 
hold within that unit, is 14 to 23 pounds lighter than what 
soldiers in country have today.
    So this lighten-the-load effort, particularly up in ?????? 
Commons-East in Afghanistan at the high altitudes, is 
absolutely critical. It's something that the field has asked us 
for, and we are constantly working to figure out ways that we 
can lighten-the-load for the individual soldiers. I think that 
is a real need.
    Senator Thune. Coming back to the Future Combat Vehicle, 
the Army has begun working groups to help define the concept 
for the next ground vehicle, which would likely be tracked and 
armored. The Army, as I think you mentioned already, has 
asserted the requirements and forward planning for that will be 
done by September.
    Has the Army been given any further guidance by OSD 
pertaining to the cancellation of the FCS MGV?
    General Thompson. Sir, I'll take that question. One of the 
things that we've been working with OSD since the fiscal year 
2010 budget was submitted is the acquisition decision 
memorandum, which is the formal guidance from the Defense 
Acquisition Executive on that program. We are in the final 
stages of the wording on that to make sure it's exactly right, 
it captures the decisions of the Secretary of Defense, and it 
gives us the flexibility to be able to move forward to 
restructure the program, to cancel the FCS program as we know 
it today, to terminate the MGV portion of that existing FCS 
program, but to keep the other parts of that program that we 
want to move forward with, in particular the network and the 
spinouts to the Infantry BCTs, the modernization efforts beyond 
the first spinouts to the Infantry BCTs, and then to do the 
concept work with TRADOC through the summer, and then begin a 
new acquisition program for a replacement GCV.
    Senator Thune. Is there an operational urgency to develop a 
new ground system, General Chiarelli?
    General Chiarelli. We feel it's critical that we work to 
get something that we can begin fielding into our forces, 
understanding the amount of time that it's going to take to do 
this within 5 to 7 years. We've taken on the Secretary's 
challenge to look at how we can do that. I think you should 
take great solace in the fact that we are working very hard to 
pull all those things we learned in the FCS MGV program, all 
those technologies that we brought from TR level 2, some to 6 
and 7 right now. That is not money that has been wasted. Those 
are all things that we will use and look at for integration 
into the GCV.
    Senator Thune. In the 2010 budget request, there were 
requests for hundreds of millions of dollars for FCS 
termination costs. General Thompson, can the Army say with 
certainly what those termination costs are going to be? Can you 
quantify that?
    General Thompson. Sir, I can't say with certainty. I can 
give you a range, because the actual termination costs that go 
with this program are to be negotiated with the contractor, who 
is Boeing, and then the subcontractors, and there are 25 tier 2 
contractors and around 600 contractors below the tier 2 
contractors.
    So that will be a negotiated settlement, because we are at 
the government's convenience restructuring this contract in a 
major way. So there are termination liabilities that are called 
out for in that contract, the guidance from the Federal 
Acquisition Regulation and the defense supplement to that. I 
don't know what that exact number is, but it's fair to say it's 
in the hundreds of millions of dollars.
    The money that is in the fiscal year 2010 budget we think 
is needed to pay those termination liabilities. If that money 
is not there to pay those termination liabilities, then some 
piece of the work necessary to do the spinouts to the infantry 
brigades or to do the network development will have to be used 
to pay those termination liabilities, because they are 
mandatory. That's work that won't get done and capability that 
won't be provided to the soldiers.
    Senator Thune. Are there lessons, General Thompson, that 
you've learned from the FCS experience and the acquisition 
process that can be applied to future developmental programs?
    General Thompson. Yes, sir, there are many lessons to be 
learned. In addition to the blue ribbon panel that we had 
yesterday at the National Defense University, we conducted a 
full after-action review to look not just at the acquisition 
portion of the FCS program over time, but also to look at the 
requirements process and the modeling and all the work that 
we've done.
    One of the lessons that I take away--and this is a 
challenge not just for the Army, but for DOD--a systems-of-
systems acquisition program and dealing with the challenge to 
look at an integrated acquisition approach is hard to do. I 
don't think either the Army or DOD is well-positioned to be 
able to deal with complicated systems-of-systems acquisition 
approaches, which FCS is.
    FCS was groundbreaking in that approach. To the program's 
credit, we just finished in May a systems-of-systems 
preliminary design review, which is one step on the way to 
begin to do the final integration and the testing and the 
prototypes. That systems-of-systems preliminary design review 
was built on 57 preliminary design reviews of all of the other 
pieces of the program leading up to that, and it shows fairly 
conclusively that we are where we need to be at this point in 
the program, we have the technologies at the right point in the 
technology level to be able to integrate those and to produce 
the capability.
    It's not just MGVs. It's not just network. It's making all 
parts of the material systems work together to give the soldier 
an integrated capability and doing that up front, instead of 
after the fact.
    General Chiarelli. Just one lesson I have learned from this 
entire experience of 2 years in Iraq. The deployability and 
ease of deployability, the expeditionary capability, is always 
more attractive on this side of the next war. But once you get 
into the next war and on the other side of that war, 
survivability and crew protection are key and critical 
elements. We've seen that happen in Iraq, and I think we always 
have to keep that in mind when we're sitting here in 
Washington, DC, as opposed to downrange.
    Senator Thune. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Thune.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me start by saying happy birthday, from one Army 
soldier to two others, and the rest of you back there.
    General Chiarelli. Happy birthday, sir.
    Senator Inhofe. I never looked that good, though. 
[Laughter.]
    General Chiarelli. Don't look a day over 233, sir. 
[Laughter.]
    Senator Inhofe. First of all, let me say, General 
Chiarelli, that during the years that you were the ground 
commander in Iraq, I have said publicly that there has never 
been anyone as capable as you are and the great job that you've 
done. I think on the other side, you probably would say that 
you saw more of me over there in Iraq during the time than you 
did any other Member. So I'm very much concerned about some 
things, and I think you know one of my concerns.
    Most of what I was going to ask has been covered by the 
chairman and the ranking member, except for the cannon. It just 
really bothers me that since 1995, Mr. Chairman, we've been 
trying to replace the Paladin with something that works. Let's 
go back 15 years ago. Even then, four other countries had a 
better cannon than we had: Germany; Russia; South Africa, of 
all places; and the United Kingdom.
    Now, 15 years later, those four countries still have a 
better cannon than we do. We can talk about the Abrams, 1970s 
technology. We can talk about the Bradley Fighting Vehicle, 
1970s technology. But the Paladin is 1950s technology.
    We've talked about it since 1995. We came up with the 
Crusader. We were going to do something with the Crusader. Then 
Bush cancelled that program in 2002. I have to say that he did 
it rather abruptly. We were actually, if you'll remember, Mr. 
Chairman, in our markup at the time they did that. I don't 
think anyone on the committee had any warning.
    After that took place, we started recognizing again that 
we're going to have to do something about the Paladin. That's 
when General Shinseki talked about FCS, that we need to have 
the first major transformation of ground capability in maybe 30 
years.
    So we thought the lead vehicle was going to be that which 
we felt we needed the most, and that is the most antiquated 
platform that we have for ground capability, I believe you 
would agree, is the Paladin.
    So here we are, and now we're saying that, even though 
we've written it into the law--I believe the law says we're 
supposed to have that fielded and out there by 2010? That's 
still in the law, and that still has been the request and what 
we've done in the House and the Senate.
    So I guess I'd just ask, why is it that we don't want to 
send our kids out to battle with the better cannon than 
prospective enemies?
    General Chiarelli. Senator, I know that you know we are 
totally committed to the Paladin Integrated Management (PIM) 
program. We plan to correct many of the deficiencies we have in 
the Paladin with that program, spending $181 million from 
fiscal years 2008 to 2011, and when the program's completed in 
2021, we will have converted over 600 Paladins.
    I am a believer in indirect fire systems and I am pleased 
that the Army is committed in the way that it is to this 
program, which I think is absolutely critical, particularly 
given the loss of the MGV program and the criticality of having 
that upgraded system in our heavy BCTs.
    Senator Inhofe. Haven't we gone through about four 
incarnations now of the Paladin, PIM programs, upgrades?
    General Thompson. Sir, I can answer that question. 
Currently the Paladin system that's out there is version 6. So 
it has six major upgrades.
    Senator Inhofe. Six major upgrades. So now we're going to 
do another one. It was my understanding that we have 900 of 
these vehicles. We were going to do the PIM program on 600 and 
then on the other 300 we were going to jump ahead in terms of 
rate of fire, in all the things that Paladin would still be 
deficient in, so that we're going to have better equipment than 
prospective enemies.
    Wasn't that it, that 600 of the 900 would be upgraded, but 
the other 300 would be the new system?
    General Thompson. Senator, that was the plan with the MGV 
portion and the non-line-of-sight cannon system as a subset of 
the MGV portion. So you'd have the new system of 300 and then 
the other 600. Eventually, when you have a new modern system 
like we've done with a lot of our other systems, you begin to 
replace the older ones.
    So I don't know exactly what we would have done in 2025, 
but I suspect we probably would have made a decision to begin 
to replace the Paladins with the new system if it was a non-
line-of-sight cannon.
    Senator Inhofe. What do you propose to do if the law is not 
changed?
    General Thompson. Sir, one of the things that OSD has to do 
is work with Congress to determine what do we need to do 
because of the law and adjust the law, because it is in statute 
right now. My professional opinion, though, is if we're going 
to terminate the MGV, the non-line-of-sight cannon program is 
highly leveraged and intertwined with the MGV program, and it 
is very, very difficult from an acquisition and contracting 
perspective for us to produce the non-line-of-sight cannon 
system that doesn't have the MGV program wrapped around it. It 
would be prohibitively expensive for us to be able to do that.
    Senator Inhofe. That's when you look at it from what we're 
talking about doing now; I would agree with that. But when we 
went through this change that started when they stopped the 
Crusader, at that time it was all planned out in the future.
    I know I'm a little bit prejudiced, in that Fort Sill is in 
my State of Oklahoma and that's where they do this stuff. I 
don't have a parochial interest in this other than wanting to 
have the best, because we would be doing the PIM work there 
anyway. In fact, we're the only place where you can have these 
capabilities right next to a live range, so it's a logical 
place to do it.
    But I am concerned about not going forward with a 
modernization program that would put us in a position where we 
are--you talk about the fair fight. I was coming back from the 
Air Show and I was reading your statement, and I agree with 
that. The adage that we never want to send our soldiers into a 
fair fight is at the core of the Army modernization strategy.
    It seems to me that if we send our soldiers out with 
equipment that is not as good as the prospective enemy, then 
that's not a fair fight. What am I overlooking?
    General Chiarelli. You're not overlooking anything, 
Senator. We are working very, very hard to work the GCV, and 
that may be an individual vehicle, but it could be a series of 
vehicles. General Dempsey and the team are working, and I would 
not be surprised if we didn't see a family of vehicles that may 
include a vehicle that has an indirect fire capability.
    Senator Inhofe. I would hope that's the case. Thank you 
very much.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thanks very much, Senator Inhofe.
    We'll do a second round, up to 5 minutes, and then we'll go 
on to the second panel.
    That was an interesting answer, General Chiarelli, about 
the follow-on to the MGV, that the GCV might be more than one 
vehicle.
    Senator Inhofe. Mr. Chairman, would you do me a favor, 
because I can't be here for the second panel?
    Senator Lieberman. Yes.
    Senator Inhofe. Would you mind asking a similar question to 
the DOD witness that's on the second panel? I've been pursuing 
this cannon thing. Just so we can get on the record some kind 
of an answer.
    Senator Lieberman. Of course, okay.
    Senator Inhofe. Thank you so much.
    Senator Lieberman. Tell us a little more about that. We may 
have more than one vehicle coming out of that program?
    General Chiarelli. It's entirely possible, sir. I don't 
want to take away any of the options that General Dempsey and 
TRADOC are looking at right now. I haven't been able to have a 
readout of exactly what the blue ribbon symposium told us 
yesterday, but that's entirely a possibility, that it could 
make a recommendation of this vehicle morphing into more than 
one vehicle.
    Senator Lieberman. We'll watch that and follow it with a 
lot of interest.
    I know that the fielding target for the GCV is in the 2015 
to 2017 range. I know it's early, but are you confident that we 
can do that, we can get it ready by then?
    General Chiarelli. I think we have to.
    Senator Lieberman. Yes.
    General Chiarelli. I just absolutely believe we have to.
    Senator Lieberman. The need is there.
    General Chiarelli. The need is there. But also, I just 
think that the technology is moving so quickly that we have to 
find a way, like we have done with the MRAP ATV, to be quicker 
in our fielding of these systems, creating systems that over 
time may be modified, but provide that key base upon which we 
will build over time. I really believe that's where we have to 
go with this particular program.
    Senator Lieberman. I couldn't agree with you more that the 
timeframes for the development of some of the weapons systems 
are so long. It's part of I think why the costs escalate just 
over time. But obviously the relevance is diminished, as you 
said, because of advances in technology and even because of 
changes in the threat environment by the time they get ready.
    I know it's a different kind of vehicle, maybe some would 
say a simpler challenge. But we did show with the MRAP vehicle 
that, under conditions of urgent necessity, the Pentagon, 
working with defense contractors, can turn out an awful lot of 
a particular piece of equipment that is critically necessary to 
protect our troops.
    Obviously, we'll stay on top of that as we go along.
    Let me ask you about the Stryker program, either one of you 
really. What can you tell us about the Army's thinking now with 
respect to the Stryker system and the potential growth in the 
number of combat brigades and plans to modernize and improve 
the capabilities of the current fleet?
    General Thompson. Yes, sir. The Stryker program has been a 
very successful program for the United States Army. About 3,600 
Stryker vehicles are the requirement. Over 2,700 of them have 
been fielded and are in the inventory to date, 7 Stryker 
brigades. One of the things that the Army is looking at from a 
force structure perspective is do we need more Stryker brigades 
to provide a balanced force with different capabilities across 
the spectrum of conflict.
    Senator Lieberman. What are the factors that you will 
consider in making that decision?
    General Thompson. Part of that decision, sir, is going to 
be made as part of the QDR.
    Senator Lieberman. Right.
    General Thompson. It's looking at the force mix of Stryker 
brigades, heavy brigades, infantry brigades, the enabler 
brigades, and the many other types of the BCTs in the Army; 
what is the right force mix? As we look at a balanced force to 
handle things across the spectrum of conflict, it is a 
possibility that we would want to build more of the Stryker 
brigades than the seven that we have today.
    Senator Lieberman. What kind of reaction do you get from 
our troops to the Stryker system as compared to other systems 
that they're using? In other words, are the troops happy with 
the Stryker?
    General Chiarelli. They're very happy with them. If you run 
into a Stryker crewman, he's going to brag on his vehicle like 
any Army soldier brags on their vehicle. But they love the 
Stryker.
    We have some concerns with the current Strykers right now 
in power and in some power and weight issues that we have to 
work our way through. But the Stryker has proven to be an 
amazing addition and the Stryker BCT an amazing addition to the 
United States Army. We're on our ninth deployment. We have 
Strykers in Afghanistan today and we'll have a brigade up and 
operational in Afghanistan this summer.
    So we are looking hard at the Stryker, as General Dempsey 
again wraps his arms around this entire Army modernization 
piece as a force mix issue to determine whether or not we may 
need additional Stryker BCTs.
    Senator Lieberman. So here, as well as in some other key 
decision areas, you're really waiting for the QDR to give some 
guidance about where we go from here? Is that correct?
    General Chiarelli. The QDR is a critical element, Mr. 
Chairman. But in addition to that, it's stepping back and 
relooking at this after cancellation of the MGV and looking at 
where we're going to go. We are working day-in and day-out now, 
between now and Labor Day, and we hope to come out with that 
plan soon after Labor Day that lays out where we're headed.
    General Thompson. Chairman Lieberman, if I could just offer 
some context from my perspective as the senior military 
acquisition officer. But I was also the Army's programmer for a 
number of years, looking at the balanced investments across all 
the capabilities. There's roughly 16,000 combat vehicles in the 
Army's inventory. Abrams, Bradleys, 113s, and Strykers dominate 
those numbers.
    There is a need over time in a portfolio of capabilities to 
have a modernization program. I've been associated with armored 
systems modernization in the late 1980s and early 1990s. Then 
we had the Future Scout Cavalry System. We had the Armored Gun 
System. We had the Crusader, and now we have the MGV. Five 
programs, and every one of those programs got to the point 
where they were pretty far along in the development, getting 
ready to go into testing and production of prototypes, and for 
various reasons all of those programs have been terminated or 
significantly restructured.
    At some point in time, the existing vehicles, even the 
Strykers, as good as they are, will reach their design limits. 
The 113s we are not using at all today in theater because 
they're not survivable and they don't have the capabilities. 
But Bradleys, Strykers, tanks, and the Abrams today, as capable 
as they are, eventually will reach their design limits. They 
reach their design limits in two key areas. One of them is 
survivability because, like the vice chief said, on the other 
side of the deployment you want your soldiers and systems that 
are as survivable as possible.
    We need enough power margin and we need enough electrical 
energy to be able to put the networked systems on the combat 
platforms we put our soldiers in. So eventually we're going to 
need to modernize and replace some of those existing systems. 
The Army needs a stable set of funding across a number of years 
to be able to keep that portfolio of GCVs as capable as 
possible, so that our soldiers are as capable as possible and 
never in a fair fight.
    We are not there today. It's been over 20 years since we 
started the armored systems modernization program and we're now 
going to start our sixth iteration of trying to modernize the 
GCV capability in the Army. That bothers me greatly.
    Senator Lieberman. Me too. Thank you.
    Senator Thune, do you have other questions?
    Senator Thune. Let me just ask, if I might, Mr. Chairman. 
As you all know, the President signaled his intention to move 
away from the use of supplemental spending bills to deal with 
overseas operations and instead to incorporate these costs into 
the regular budgeting process.
    My question, General Chiarelli, is what challenges does 
that change create for the Army?
    General Chiarelli. I believe we've been consistent in 
testimony, not only I have, the chief has, but those that went 
before us, indicating that reset is a critical piece that is 
going to continue in the Army. I believe we have $11 billion in 
this particular Overseas Contingency Operations budget for 
reset. It will continue as long as we're fighting, and it will 
continue 2 years after we complete fighting.
    So it's our hope that everybody will remember that and the 
need to reset this equipment that is going at operating tempo 
rates that are much higher than they would if they were back 
here in the United States.
    General Thompson. Senator, if I could just add to that 
again, what I said earlier about having some responsibility for 
the Army's programming for a number of years. If supplementals 
decrease or go away, the requirements that are covered by the 
supplemental funding in most cases don't. So if the 
supplemental goes away and you don't increase the base program, 
there are things that won't get done. There are probably fewer 
soldiers. The modernization programs are the first things that 
people look at to be able to cut.
    So if we just say there's no more supplementals and you 
don't increase the base program, then something has to change. 
My analogy would be it's like a two-income family and one of 
the income earners no longer is employed. Your lifestyle's 
going to change significantly because you just can't do the 
same things that you were doing with one income instead of two. 
Not that the supplementals and the base program are equal, but 
there's a lot of requirements that are covered with 
supplemental funding, and you just can't say they go away and 
just do it with the base program without increasing the base 
program.
    General Chiarelli. So many of those are Army bills.
    Senator Thune. Let me ask, the Army is in a financial hole. 
You estimated over $2 billion in its personnel accounts. Is 
there a plan for closing that gap right now?
    General Chiarelli. We have a plan. We're hoping to get all 
the help we possibly can, but we have a plan over the next 
couple of years to go ahead and do that. We will have to do 
that. As I indicated and you indicated, Senator, people are 
absolutely critical, and thank goodness we have those people. 
We were able to make 547,400 and a little bit more right now as 
we're rolling that number back, because it's critical when I 
have almost 9,000 soldiers in Warrior Transition Units, another 
10,000 to 11,000 that are currently nondeployable, and then 
individual augmentees. That adds up to a pretty sizable bill 
that I'm not able to put into my formations as they deploy on a 
dwell that's at 1.5 at unit dwell, less on individual dwell 
today.
    Senator Thune. Can we keep up with all those personnel 
costs and still ensure good recruiting and retention?
    General Chiarelli. We are blessed right now, Senator. 
Recruiting and retention are as good as I've ever seen in the 
time that I've been in the Army. We have to be concerned, 
though, and we all pray that the economy turns around, but for 
recruiters that'll make life difficult again, I'm sure. But we 
will have to continue to recruit the best for our Nation's Army 
and we are totally focused on doing that.
    Senator Thune. Thank you. Thank you, gentlemen, for your 
great service to our country, and be sure that you convey that 
same appreciation to your families, too, for the sacrifices 
that they make and for your service. Thanks.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Thune.
    Regarding that last exchange with Senator Thune, we're in a 
most unusual moment, which is, as you said, recruitment is 
going very well, there is a high level of recruits coming in. 
We understand part of it may be the economy, but there's a lot 
of other factors. Reenlistments are very high. So part of what 
originally drew our attention to trying to increase the Army 
end strength is not only the effect on dwell time, but this, as 
I understand it, most unusual and unacceptable phenomenon where 
you may actually have to, because you don't have adequate 
statutory authorized end strength, slow down on recruiting and 
reenlistment, in fact to let some people go, as it were, hoping 
that attrition brings you down. When the demand is so high for 
personnel in active deployment, we ought to protect you from 
that kind of pressure.
    But anyway, we're going to pursue that as we go to our 
markup next week.
    I thank you very much for your testimony. You've been 
extremely responsive. You're two impressive people that our 
country and the Army are very fortunate to have in positions of 
leadership, and I'd really put you up against any group of 
people in any field or corporation or anything else. You 
represent the best of our country. Thank you very much.
    General Chiarelli. Thank you, Senator.
    General Thompson. Thank you, Senator.
    Senator Lieberman. We'll call the second panel: Mr. Ahern 
and Mr. Francis.
    As I indicated, David Ahern is the Director of Portfolio 
Systems Acquisition in the Office of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics. Paul 
Francis is the Managing Director, Acquisition and Sourcing 
Management, at the GAO.
    We thank both of you for being here. Mr. Ahern, I would now 
welcome your testimony.

   STATEMENT OF DAVID G. AHERN, DIRECTOR, PORTFOLIO SYSTEMS 
   ACQUISITION, OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR 
             ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Ahern. Good afternoon, Chairman Lieberman, Senator 
Thune, distinguished members of the subcommittee. Thank you for 
the opportunity to appear before you to discuss Army 
modernization and the management of the FCS program as you 
review the fiscal year 2010 budget. I'll be brief in order to 
move quickly to the panel's questions.
    Senator Lieberman. Good.
    Mr. Ahern. In fiscal year 2010, FCS will remain the Army's 
largest research and development investment. However, we plan 
to transition from the FCS BCT acquisition program to establish 
at least four acquisition programs that will leverage the FCS 
investment to date and deliver realistically defined, cost 
effective, and timely capability to modernize the Army's ground 
forces. These new integrated Army modernization programs will 
include as a minimum: planned early infantry BCT acquisition, 
follow-on BCT modernization, GCV modernization, and incremental 
ground tactical network capability.
    The importance of meeting the Army's modernization needs 
and the magnitude of the investment dictate that we get these 
acquisitions right. We must do it expeditiously. By way of 
background, we established the FCS BCT in 2003. The Army 
contracted Boeing and SAIC to develop a system-of-systems 
design. While the system-of-systems umbrella for the FCS BCT 
acquisition provided a unique opportunity to optimize 
capabilities, the complexity involved in applying the system-
of-systems approach offered many challenges for the acquisition 
community.
    The FCS investment did, however, provide us with a far 
better understanding of the potential for integrated 
capability, with insights for early application of this 
integrated capability across the combat brigades. In addition, 
the technology coming from the FCS investment is a game-changer 
for the Army modernization effort in platforms such as unmanned 
ground and air systems, in sensors such as active protection 
and unattended ground sensors, in vehicles with hybrid electric 
power trains, and lightweight armor, and in the network, with 
integrated battle command, sensor fusion, and enhanced 
situational awareness.
    All these will transition the Army modernization 
acquisition as we move forward. A key transition relative to 
knowledge-based acquisition was a decision in 2006 to 
capitalize on early increments of FCS capability for delivery 
to the current force. We term those spinouts.
    We will continue this incremental acquisition philosophy as 
we transition to multiple Army modernization acquisitions in 
2010.
    Relative to our reporting requirements on FCS, while the 
Army recently completed the FCS system-of-systems preliminary 
design review, decisions leading up to the fiscal year 2010 
President's budget have already addressed the issues identified 
for the Defense Acquisition Board milestone review. However, in 
satisfaction of the National Defense Authorization Act for 
Fiscal Years 2007 and 2009 provisions, we will provide a report 
that reflects DOD's FCS decision to the congressional defense 
committees.
    Regarding the committee's interest in future contracting 
relationships, in the short term the FCS contract will be 
restructured to continue the integration and development 
efforts in network, spinouts, and BCT modernization until the 
new acquisitions are established. Changes in the FCS contract 
will address our concerns regarding fee structure to give the 
government leverage to promote cost efficiency. As acquisition 
plans for the future programs mature, we'll use contracting 
strategies that include competition, fee structures to 
incentivize performance, and fixed price contracts when 
appropriate, all leading to better control of contract costs.
    We have learned much from the FCS acquisition program. Our 
acquisition and program management lessons learned are 
consistent with those learned from other DOD acquisition 
programs. As we move forward with the new modernization 
program, we will seek to match requirements to mature 
technologies, to estimate program costs more realistically, to 
seek budget stability for the programs we initiate, staff 
government acquisition teams adequately, and provide 
disciplined and effective oversight.
    In closing, DOD's fiscal year 2010 budget will facilitate a 
timely, in-stride transition from the previous plan to acquire 
15 FCS BCTs to multiple major modernization programs to deliver 
much-needed sensor, networking, and vehicle capability to the 
Army. We will leverage the FCS development efforts to date and 
deliver that capability.
    We are grateful for the continued support of Congress, 
which has been critical to ensuring our soldiers are the best 
trained and best equipped in the world. Thank you for this 
opportunity to testify on DOD's plans to continue to equip them 
for today's wars and tomorrow's challenges. I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Ahern follows:]
                  Prepared Statement by David G. Ahern
    Good morning Mr. Chairman, Senator Thune, and members of the 
committee. Thank you for the opportunity to appear before you today to 
discuss Army modernization and the management of the Future Combat 
Systems (FCS) program as you review the fiscal year 2010 budget 
requests.
    The FCS program decisions reflected in the President's fiscal year 
2010 defense budget address two priorities of the Secretary of Defense:

        <bullet> Rebalancing the Department's programs in order to 
        institutionalize and enhance our capabilities to fight the wars 
        we are in today and the scenarios we are most likely to face in 
        the years ahead, while at the same time providing a hedge 
        against other risks and contingencies.
        <bullet> Reforming how and what the Department buys, a 
        fundamental overhaul of our approach to procurement, 
        acquisition, and contracting.

    In fiscal year 2010, the FCS budget line will remain the Army's 
largest research and development investment at three billion dollars as 
we rebalance the Army modernization priorities. We will accelerate the 
fielding of early increments of specific FCS capabilities that have 
demonstrated success, such as unmanned ground and air vehicles and 
unattended sensors, to enhance our ability to address counterinsurgency 
and close quarter combat, such as what we are seeing in operations 
today. We will cancel the FCS manned ground vehicle effort as we fully 
assess the Department's ground combat vehicle capability needs for full 
spectrum operations, informed by operations today and analysis on the 
appropriate mix of vehicles.
    In 2010, we will transition the single FCS acquisition program (a 
Major Defense Acquisition Program (MDAP)) into multiple acquisitions 
established on solid capability definition, technology maturity, 
realistic cost estimates, and sound contracting strategies. The 
Department will implement our full complement of acquisition reform 
initiatives as the foundation for establishing these new programs. The 
importance of meeting the Army modernization needs and the magnitude of 
the investment dictate that we get these acquisitions right--and we 
must do it expeditiously.
    The Secretary of Defense has directed that these new modernization 
efforts be fully funded in the outyears as we accelerate FCS spin-off 
capabilities, across the Army's combat brigades. To properly address 
the questions you asked in your letter of invitation, I would like to 
briefly review the history of the FCS program, describe the FCS 
investment as presented in the fiscal year 2010 budget, briefly discuss 
how we plan to implement those changes, and finally address significant 
lessons learned from the FCS program.
             2003-2009 fcs brigade combat team acquisition
    In 2003, the Department approved Milestone B for the FCS Brigade 
Combat Team (BCT) acquisition. This decision approved a baseline for 
development and procurement of 15 BCTs. The Army contracted with 
Boeing/SAIC to develop a ``system-of-systems'' design for the FCS BCT. 
The current contract relationship with Boeing is as a prime contractor 
for the Systems Design and Development phase of the FCS program, 
whereby Boeing, in some cases, is required to perform lead systems 
integrator-type functions as defined by the terms and conditions of the 
contract. Although the FCS contract uses the term ``lead system 
integrator,'' Boeing does not meet the statutory definition of a Lead 
System Integrator as defined by section 805 of the National Defense 
Authorization Act for Fiscal Year 2006, (Pub. L. 109-163). Boeing 
performs a substantial portion of the development work for the program 
by providing the System of System Common Operating Environment software 
and Warrior-Machine Interface.
    The FCS contract is a Cost Plus Fixed Fee/Award/Incentive-type 
contract to develop manned and unmanned ground vehicles, unmanned air 
systems, unattended ground sensors and to integrate these, and a number 
of complementary systems--such as Joint Tactical Radio System and 
Warfighter Information Network-Tactical--into a BCT that delivers the 
capability defined by the FCS Operational Requirements Document.
    Over the 6 years of development to date the program has been 
modified to accommodate changes in the brigade structure (for instance 
reducing the types of unmanned air systems and removing capability that 
was not technologically mature like the unmanned armed reconnaissance 
vehicle) and to ``spin-out'' early increments of FCS capabilities to 
the current force brigades.
    The FCS Spin-Out is illustrative of how we have utilized a 
knowledge based process to inform our acquisition decisions. In 2006 
the Department approved the Army's approach to initiate actions to 
field FCS capabilities such as the unattended ground sensors, Non-Line-
of-Sight Launch System, and an early instantiation of the FCS network 
to other combat brigades. The Spin-Out approach was updated in 2008, 
adding unmanned air and ground systems to capabilities ready for 
consideration for production. The decision was then made to provide the 
initial increments of capability to the Infantry Brigades. A 
Capabilities Production Document has been approved defining the 
expected performance for this initial increment of capability. The 
systems engineering work, to include Preliminary and Critical Design 
Reviews, testing of prototypes to demonstrate capability, and cost and 
technology assessments are all underway to inform a Milestone C 
decision for this Spin-Out Early Infantry BCT this fall.
    While the system-of-systems umbrella for the FCS BCT acquisition 
provided a unique opportunity to optimize capabilities across the 
brigade, the complexity involved in applying the system-of-systems 
approach offered many challenges for acquisition management and 
oversight.
    The FCS contract, initially capitalizing on the early efforts 
undertaken by DARPA, has undergone major changes yearly. It has 
transitioned from an Other Transactions Authority agreement to a 
Federal Acquisition Regulation-based contract, modified to support 
changes in the brigade structure, and also modified to accommodate the 
``spin-out'' of capability to the current force brigades. The means to 
effectively deliver integrated capabilities, particularly in the areas 
of network and battle command, is an area of continued attention for 
the Service and the Department, to include identifying the correct 
balance between contractor and government responsibilities.
    The Under Secretary of Defense for Acquisition, Technology, and 
Logistics (USD(AT&L)) has reviewed the program at least yearly, 
providing acquisition direction to keep the program on track to deliver 
an FCS Brigade capability. Our direction for the FCS BCT focused on 
continued attention to the capability definition, technology maturity, 
and current cost estimates. Additionally, we have provided our 
expectations for spin-out development, exit criteria, and specified 
actions to address concerns regarding the FCS contract fee structure.
    Section 214 of the John Warner National Defense Authorization Act 
for Fiscal Year 2007, as amended by section 211 of the Duncan Hunter 
National Defense Authorization Act for Fiscal Year 2009, required a 
Defense Acquisition Board (DAB) milestone review of the FCS program and 
a report on that review. As a result of the FCS decisions leading up to 
the fiscal year 2010 President's budget we have determined a DAB 
milestone review is no longer applicable. Nonetheless, in satisfaction 
of the Fiscal Year 2007 and 2009 Authorization Act provisions, we will 
provide to the congressional defense committees a report that reflects 
the Department's FCS decision.
                 2010 investment for army modernization
    In fiscal year 2010, FCS will remain the Army's largest research 
and development investment; however, we plan to transition from the FCS 
BCT acquisition program to instead establish at least four acquisition 
programs that will leverage the FCS investment to-date and deliver 
realistically defined, cost effective and timely capability to 
modernize the Army's ground forces. These new integrated Army 
Modernization programs will include, as a minimum, the following:

        -  The planned Early-Infantry BCT acquisition
        -  Follow-on BCT modernization
        -  Ground combat vehicle modernization
        -  Incremental ground tactical network capability
                          implementation plans
    We will continue efforts to-date to further develop, produce, and 
field FCS developed capabilities in the form of early spin-outs to 
seven Infantry BCTs. This MDAP will start with a Milestone C decision 
scheduled in the first quarter of fiscal year 2010 following a Limited 
User Test this summer. Input for this decision will be in accordance 
with Department of Defense Instruction 5000.02, to include an approved 
Acquisition Strategy, a Capability Production Document, a Technology 
Readiness Assessment, and an Independent Cost Estimate. Robust systems 
engineering work ongoing will support the critical design review and 
production readiness review we need to support a low-rate production 
decision. Testing will inform us of both the maturity of the individual 
systems (the small unmanned ground vehicle, the class I unmanned air 
vehicle, the unattended ground sensors, and the Non-Line-of-Sight 
Launch System) as well as network components used to integrate these 
capabilities into the brigade.
    Follow-on BCT modernization acquisition program(s) will follow to 
expand delivery of these capabilities to the remaining Army combat 
brigades by 2025. The Army will develop an acquisition plan to support 
acquiring these capabilities and present that plan for USD(AT&L) review 
in the fall of 2009.
    The acquisition for ground combat vehicles will proceed subsequent 
to a capability assessment by the Army, working with the Marine Corps. 
The assessment will include an evaluation of ground combat vehicle 
missions across the spectrum of operations, a review of the 
capabilities of the current combat vehicle fleet, identification of 
joint capability gaps, and incorporation of any lessons learned from 
ongoing operations. This ground combat vehicle capability assessment 
will support the development of requirements for a new Ground Combat 
Vehicle program, and we are planning for a Materiel Development 
Decision in 2010.
    Incremental delivery of ground tactical network capability is 
another critical element for Army modernization. Initial planning for 
the continued development and delivery of integrated networking and 
battle command capability is ongoing.
    As we move from a single FCS acquisition to these targeted 
modernization acquisitions we will focus on buying the right thing, 
buying it the right way, and managing it effectively.
Buy the right thing:
    A clear understanding of our capability needs will be a focus area 
as we move forward. We will stop development of the current FCS manned 
ground vehicles as we reevaluate the requirements, technology, and 
acquisition approach. We will conduct a thorough capability assessment 
for ground combat vehicles, informed by current operations, full 
spectrum operational needs, existing available capability, and force 
structure changes. Additionally, the Army will identify the sensor and 
unmanned capabilities needed for all combat brigades and will define 
requirements for the incremental delivery of battle command network and 
software. We in the acquisition community will work closely with the 
Joint Staff to expeditiously establish a solid requirements baseline 
for achievable delivery of capability.
Buy it the right way:
    In the short term, the FCS contract will be restructured to address 
concerns with the current fee structure and to continue the integration 
and development efforts in the network until the new acquisitions are 
established. The fundamental issue with the FCS contract structure is 
that there is an insufficient amount of fee associated with objective 
contract performance. Changes in the FCS contract will address the 
Department's concerns regarding a fee structure that gives the 
government little leverage to promote cost efficiency. We will make 
changes to the contract structure to more closely tie fee to 
performance.
    As acquisition plans for the future programs mature, we will employ 
contracting strategies that consider competition, competitive 
prototyping, and fixed-price development. As the Army expands its 
contracting and management workforce, government personnel in the 
program management office will take on an expanded role, particularly 
in contract management and oversight, systems engineering, and 
integration. All these efforts will contribute to protecting the 
Government's interests through the effective use of taxpayer funds to 
deliver to our soldiers the equipment they need.
    Details on plans to modify the contract will be developed over the 
next few months as we prepare to implement the decisions reflected in 
the fiscal year 2010 budget. The near-term contracting approach for 
acquiring the early spin-out systems will also include competition, fee 
structures to incentivize performance, and fixed price contracts when 
appropriate.
Manage it effectively:
    This fall we will conduct a Defense Acquisition Executive-level 
review of the FCS program restructure to address the implementation of 
the fiscal year 2010 budget decisions and transition to multiple 
acquisitions. This will ensure we are appropriately leveraging the FCS 
investment to date. Each new acquisition will be established with a 
solid capability definition, appropriate technology maturity, realistic 
cost estimates, and sound contracting strategies. We will utilize 
Configuration Steering Boards, Independent Cost Estimates, Technology 
Readiness Assessments, and other management tools to ensure capability 
is delivered on time and within budget. We must continuously challenge 
our processes to get to timely, supportable decisions that deliver 
needed capability in a timely, cost effective manner.
                            lessons learned
    There are numerous lessons learned from the FCS BCT acquisition--
spanning the areas of capability definition, system-of-systems 
integration, acquisition and program management, costing, and 
contracting.
Capability definition:
    We must be more disciplined in our desire for more and better 
capability. Successfully defining achievable expectations for emerging 
capability requires our continued, focused attention. Capability 
definition in battle command and control, networking, communications, 
and sensor integration were not of sufficient fidelity when the FCS 
program started. The FCS network development effort has helped frame 
what capabilities are important in a tactical ground network. To ``buy 
the right thing'' requires clear understanding on the part of the 
capability developers of what is realistically possible at what cost. 
As we move forward we in the acquisition community must work closer 
with the capability developers for a shared understanding of 
requirements in these areas. We will use evolutionary acquisition 
strategies to translate these requirements to grow capability 
incrementally for the ground tactical network, sensor systems, and 
vehicles.
System-of-Systems Integration:
    The investment in the FCS acquisition has provided us with 
significant advances in understanding both the boundaries and potential 
for integrated capability. The recently completed System-of-Systems 
Preliminary Design Review highlighted two significant force 
multipliers: (1) a reliable, working tactical ground network over broad 
areas of operation; and (2) sensors and systems providing timely and 
reliable information to that network. These findings are consistent 
with lessons learned in operations in Iraq and Afghanistan. These key 
enablers are the targets of opportunity we will emphasize as we 
transition to multiple Army Modernization acquisitions. Clearly the 
significant research and development investments by the FCS program set 
the stage for fielding a robust integrated capability, beginning with 
early Infantry BCT units.
Acquisition and Program Management:
    The acquisition and program management lessons learned in FCS are 
consistent with those learned from other Department acquisition 
programs. These include ensuring our investments are affordable and 
consistent with warfighter priorities; realizing predictable cost and 
schedule outcomes by accepting and approving requirements based on 
mature, demonstrated technologies; and establishing programs with 
realistic cost and schedule estimates. An Acquisition Program Baseline 
based on achievable performance criteria, an Independent Cost Estimate, 
and a realistic execution schedule are critical to acquisition success. 
During development, the use of rapid prototyping and demonstrations 
provide early and valuable insights to drive effective decision making 
to keep programs on track. Configuration Steering Boards are needed to 
effectively communicate what capability the acquisition program can 
achieve, limit changes in requirements that drive adverse cost and 
schedule impacts, and to provide the basis for effective tradeoff 
decisions. Additionally, as part of the Secretary's initiative to 
revitalize the acquisition workforce, the Department will increase the 
overall size of the government acquisition workforce by 20,000 through 
fiscal year 2015, significantly improving the capability and capacity 
of the Defense acquisition workforce to oversee and execute these 
important defense programs. The objective is straight forward: ensure 
the Department has the right acquisition capability to produce best 
value for the American taxpayer and for the soldiers, sailors, airmen, 
and marines who depend on the weapons, products and services we buy.
Costing:
    The independent cost estimates done for the FCS acquisition were 
invaluable for informing decisions. Executable acquisition approaches 
must be developed to address the cost risks identified in the cost 
estimate. Significant attention to ``descoping'' options is needed for 
properly informed cost-performance trade-off decisions. The ability of 
the requirements community to take into account the cost of capability 
is also an area that needs attention--particularly in the network and 
sensor arenas.
Contracting:
    Contracting for the development of System-of-Systems capability 
proved to be complex and challenging. In the contracting arena, we will 
ensure competition and appropriately incentivize our contractors to 
control costs. A thorough, risk-based analysis of multiple contracting 
approaches for delivery of capability will be undertaken prior to 
approving future contracting strategies.
    With these insights gained from the FCS BCT acquisition, in 
conjunction with the Department's acquisition reform efforts, we will 
ensure the Department effectively and efficiently acquires the 
vehicles, unmanned systems, sensors, and networks needed for Army 
combat brigade modernization.
                               conclusion
    The FCS element of the fiscal year 2010 budget reflects the 
Secretary's priorities. His decisions were based on a combination of 
the currency of requirements given ongoing operations, the maturity of 
the development efforts within the FCS acquisition program, 
modernization priorities, and affordability. The Department's fiscal 
year 2010 FCS development budget will facilitate a timely, in stride, 
transition from the previous plan to acquire 15 FCS BCTs to multiple 
major modernization programs. These new modernization acquisitions will 
deliver much needed sensor, networking, and vehicle capability to the 
Army, and we are intent on expeditiously leveraging the FCS development 
efforts to date to deliver that capability.
    We are grateful for the continued support of Congress which has 
been critical to ensuring our soldiers are the best trained and best 
equipped in the world. Thank you for this opportunity to testify on the 
Department's plans to continue to equip them for today's wars and 
tomorrow's challenges. I look forward to answering any questions you 
may have.

    Senator Lieberman. Thanks, Mr. Ahern. We look forward to 
the questions.
    Mr. Francis.

 STATEMENT OF PAUL L. FRANCIS, MANAGING DIRECTOR, ACQUISITION 
   AND SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Francis. Thank you, Mr. Chairman, Mr. Thune. I 
appreciate your inviting me to participate in this discussion 
of the Army's modernization in a post-FCS context. I'll say a 
few words about what I think are the positive aspects of FCS 
that are worth emulating as we go forward, and then talk about 
some of the difficulties with the program that I think we can 
learn from.
    So, starting with the positive aspects, I think the Army 
really did break with tradition in thinking through FCS and 
came up with a holistic view of what it thought the future 
force ought to look like. It was able to translate that into a 
context and an architecture for a family of systems that it 
would field as an integrated force. I think this is a much 
better approach than developing individual systems and trying 
to integrate them after the fact.
    I also think the Army was innovative in its managerial 
approach. It wanted to break down its stovepiped organizations 
and cut across organizational lines to field an integrated 
force. I think it was very candid about what its abilities were 
to manage that and contracted with a lead system integrator to 
try to fill in some of its own shortfalls. So I think that was 
a courageous approach on the Army's part.
    We do have some concerns with the lead system integrator, 
but I do think the approach the Army used in that approach did 
give it unprecedented insight into subcontractor selection and 
gave it more competition at the subcontractor level. I think 
that was a good idea.
    We heard testimony from the first panel about the network. 
I think it was discerning on the Army's part to observe that it 
needed to deliberately develop an information network rather 
than wait for after the fact and try to cobble it together with 
systems that had already been developed.
    A final thing I would say from a positive standpoint on FCS 
is the decision to spin out or harvest technologies and give 
them to the current forces was a really good idea. I think it 
was even better when the Army developed the evaluation task 
force to vet these technologies before they went into the 
field. So again, a good idea worth continuing as we go forward.
    In terms of some problematic aspects with FCS, I think the 
first thing I would say is I believe that the program--and 
we've reported on this--was not really executable within 
realistic resource bounds. The technology, the software, the 
network, the requirements, and the costs were all on a grand 
scale and we knew very little about them when we got started.
    For example, the MGVs were being developed and their 
performance and their survivability depended on the network, at 
the same time we were inventing the network. So that concurrent 
development was I think a bit too much for a single program.
    FCS I think was moving too fast. Originally it was going to 
be a 5\1/2\-year program. It eventually stretched out to 10 
years, but it was still faster than any single revolutionary 
program had proceeded before, and on FCS we were looking at 14 
to 18 programs in one. I think if the program did continue on 
its existing path it would have put you in a difficult 
position, because I think at least 3 years of production funds 
would have been requested before we had a really meaningful 
demonstration of FCS capabilities. So it was on a really fast 
pace.
    I think the take-away from that is these risks were 
knowable and I think understood at the beginning, but accepted. 
So I think going forward we have to be very careful about 
accepting those kinds of risks. These were not unexpected 
discoveries that occurred along the way, and I would make that 
distinction.
    I think from an oversight standpoint the challenges were 
too great. The scope of the program was such that the 
visibility over cost changes and schedule changes were not 
visible. They were very hard to discern. I think the scope of 
the program was such that it overwhelmed some of our key 
oversight mechanisms. Selected acquisition reports, the earned 
value management system, and even our budget requests weren't a 
good fit for a program of the size of FCS.
    The Army's close relationship with the lead system 
integrator, while it had some advantages, we saw some long-term 
oversight concerns with that, in that we thought there was a 
risk that over time the Army would find it difficult to 
distance itself from the lead system integrator and in fact the 
program itself. We looked to OSD to provide that oversight.
    In the early years, OSD didn't provide that oversight and 
basically allowed the Army to proceed with the program as 
planned. So it proceeded through the start point with 
significant immature technologies, significantly far afield of 
OSD's own policies. OSD had independent cost estimates that 
were much higher than the Army's. Yet they let the Army's 
estimate prevail. I think even though costs and schedules 
doubled over these years, there were no Nunn-McCurdy breaches 
reported on the program.
    Now, we've seen an improvement in OSD's oversight in the 
last 2 years and maybe Dave Ahern here has a large part in 
that. So we've seen that occur, but again OSD oversight early, 
was really an important factor.
    So, going forward, I think we'll see the Army with at least 
three efforts: spinouts in some form, a network program, and 
MGVs. I think each of these will require some different types 
of management approaches, but they need to share some common 
principles. That is, they need to be anchored in knowledge and 
they must adhere to DOD's current acquisition policy. We have 
to have realistic cost estimates that are informed by 
independent estimates and we need to budget to the most 
realistic cost. I think that we have to have programs that are 
transparent and accountable for oversight.
    I think we have to realize that a unique contractual 
arrangement or a bold managerial approach are not a substitute 
for knowledge or sound systems engineering.
    So I would say in conclusion, I think there's no question 
that the Army needs to be well-equipped. I don't think there's 
any debate about that. I think the Army needs to be innovative 
about its approach, but needs to be pragmatic and knowledge-
based when it comes to individual systems.
    I would ask a broader question. If we accept the Army's 
vision of the future and how it wants to equip, I think we can 
all point out things that could be done differently than FCS. 
But I think a real challenging question is: how would we do 
that differently today? I think the burden there is a lot more 
what would have to be done prior to the acquisition phase. The 
question becomes, do we have the people, the organizations, the 
facilities, the transition mechanisms, and so forth in place to 
do that kind of work up front? I don't know that there's a good 
answer for that.
    So I'll conclude with that and be available for any 
questions.
    [The prepared statement of Mr. Francis follows:]
                 Prepared Statement by Paul L. Francis
    Mr. Chairman and members of the subcommittee: I am pleased to be 
here today to discuss the Department of the Army's modernization 
efforts to transform into a lighter, more agile, and more capable 
combat force using a new concept of operations, technologies, and 
information network. For the past 6 years, the Future Combat System 
(FCS), a revolutionary and expansive program, formed the core of Army 
modernization. Earlier this year, the Secretary of Defense recommended 
restructuring the FCS program to lower risk and to address more near 
term needs. His recommendation came a few months before the FCS program 
was scheduled to undergo a congressionally-mandated go/no-go review to 
determine the program's future. Although the Army has not yet 
officially implemented the Secretary's recommendation, the Department 
of Defense (DOD) and the Army have begun to make conforming 
programmatic and budgetary adjustments to FCS.
    My statement today is based on the work we conducted over the last 
several years in response to the National Defense Authorization Act for 
Fiscal Year 2006, which requires the Government Accountability Office 
(GAO) to report annually on the FCS program.\1\ As Congress will be 
asked to make significant funding commitments for Army ground force 
modernization over the next several years, this statement will review: 
(1) aspects of FCS that should be preserved in future efforts, (2) 
aspects of FCS that were problematic and need re-examination, and (3) 
considerations for shaping future Army ground force modernization.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 109-163, Sec. 211.
---------------------------------------------------------------------------
                               background
    With FCS, the Army embraced a new warfighting concept designed to 
replace most of its existing combat systems with a family of manned and 
unmanned vehicles and systems linked by an advanced information 
network. According to the Army, FCS represented the greatest technology 
and integration challenge it had ever undertaken--an FCS-equipped force 
was to be as lethal and survivable as today's force, but significantly 
lighter and thus easier to both move and sustain. The Army determined 
it could not meet the challenges of the FCS scope and schedule with its 
workforce alone and with traditional management approaches. In 2003, 
the Army contracted with the Boeing Company as the lead systems 
integrator (LSI) to assist in defining, developing, and integrating FCS 
systems. Boeing subcontracted with Science Applications International 
Corporation (SAIC) to assist in performing the LSI functions. Over the 
past several years, Congress, GAO, and other organizations have 
expressed numerous concerns about the management and acquisition 
strategy for the FCS program, including significant knowledge gaps, 
questionable costs and affordability, the relationship between the Army 
and the LSI, and the lack of oversight by the Office of the Secretary 
of Defense (OSD).
    This committee has been influential in overseeing the FCS program 
and protecting the government's interests therein. In particular, the 
committee advocated changes to the original contract structure and type 
to incorporate more Federal Acquisition Regulation provisions, 
including those related to the Truth-in-Negotiations Act and the 
Procurement Integrity Act.
    This statement is based on work we conducted over the last several 
years in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe the evidence obtained provides a reasonable basis for our 
findings and conclusions based on our audit objectives.
   aspects of fcs that should be considered for inclusion in future 
                                efforts
    There is no question the Army needs to ensure its forces are well-
equipped. The Army has vigorously pursued FCS as the solution, a 
concept and an approach that is unconventional, yet with many good 
features that should be considered in future efforts. These features 
include a holistic, system-of-systems architectural vision, government 
insight into subcontractor selection and management, a focus on 
leveraging capabilities through an information network, and 
establishing organizations to train with and evaluate FCS-related spin-
out technologies being provided to current forces.
    FCS resulted from Army leadership's vision of how land forces 
should be organized, equipped, and trained to fight in the future. The 
decisions to pursue FCS, along with modular combat units, became the 
centerpiece for realizing this vision. To the Army's credit, these 
decisions were harder than just replacing current combat systems, like 
the Abrams tank and Bradley fighting vehicle, with new versions. 
Rather, Army leadership saw FCS as breaking with tradition. It was to 
be a system of systems--an overall architecture through which the 
collective capabilities of individual systems, both manned and 
unmanned, would be multiplied because of the synergistic effect of 
being linked by an advanced information network.
    Individual systems were to be designed to work within the 
architecture and the network--an improvement over a traditional, 
system-centric design approach that would integrate the systems after 
the fact. Army leadership also chose to cross its own stovepiped combat 
lines, such as infantry, armor, and fire support. The resultant scope 
of the FCS program was overly broad for a single acquisition program. 
Nonetheless, such a holistic view, anchored in a vision of how the land 
force of the future needs to fight, should continue to guide the 
modernization investments the Army makes. A context, it should be 
noted, does not necessarily equate to a program or programs.
    While we have reported a number of risks associated with the LSI 
arrangement on FCS (which are discussed later), the insights the Army 
gained into subcontractors was beneficial. Army leadership set up the 
FCS program and LSI contract in such a way that it would create more 
competition and have more influence over the selection of 
subcontractors below the LSI. Traditionally, once the Army contracted 
with a prime contractor, that contractor would bring its own supplier 
chains, and the Army was not very involved in the choice of the 
subcontractors. In FCS, the Army called for the LSI to hold a 
competition for the next tier of contractors. The Army had veto power 
over these selections. The Army also directed that the LSI contract 
with integrators at lower levels in the program, and the Army was 
involved with these selections. These integrators held competitions to 
select suppliers for those systems. This strategy kept the first tier 
of subcontractors from bringing their own supplier chains, and the 
approach promoted competition and pushed Army visibility down lower 
into the supplier chain. It was also a means for the Army to ensure 
commonality of key subsystems across FCS platforms. Enhanced visibility 
into the selection and design decisions of subcontractors appears to 
have benefited the FCS program and warrants consideration in future 
efforts.
    The Army envisioned an unprecedented information network as the 
backbone of FCS. Inventing such a network while concurrently designing 
vehicles and other systems dependent on it was too grand an approach. 
However, the recognition that an integrated combat network should be 
deliberately designed versus derived or cobbled together from other 
systems was discerning. Since FCS began, the Army has achieved an 
understanding of what the information network needs to be, what may be 
technically feasible, how to build it, and how to demonstrate it. It 
has also consciously endeavored to develop the FCS network and software 
over time in a series of pre-planned blocks. Although work on such a 
network needs to be properly situated within the acquisition process 
and guided by requirements that are technically realistic, the 
deliberate development of an integrated network seems a sound approach.
    The Army initiated spin-out development in 2004, when it embarked 
on an effort to bring selected FCS capabilities, such as the unattended 
ground sensors and the non-line-of-sight launch system, to current 
forces while core FCS development continued. In 2006, the Army 
established the Army Evaluation Task Force to use, evaluate, and train 
with the spin-out capabilities, and the Task Force began its testing of 
the first FCS equipment in early 2008. As noted by both Army and DOD 
officials, the Task Force has proven quite useful in identifying system 
issues and suggesting design changes. Accordingly, the Army should 
continue utilizing the Task Force to better understand and improve its 
systems, spin out and otherwise.
      aspects of fcs that were problematic and need re-examination
    In our work, we found the greatest obstacle to the Army's realizing 
its vision for FCS to be that the program was not executable within 
reasonable bounds of technical, engineering, time, or financial 
resources. The program was very immature when it began, never measuring 
up to DOD's own standards for technology and design. Over time, 
adjustments were made such as adding development time and trading off 
requirements, but nonetheless, vehicle weights and software code grew 
substantially, key network systems were delayed, and technologies took 
longer to mature than planned. By 2009, whether FCS would work as 
planned remained undemonstrated. As we have reported, these 
difficulties do not necessarily represent problems that could have been 
avoided; rather, they reflect the actual immaturity of the program. 
Yet, to a large extent, these difficulties are foreseeable at the start 
of programs that do not apply the standards embodied in DOD's own 
acquisition policies.
    Oversight of FCS was extremely challenging given the program's vast 
scope and the innovative, but close, partner-like relationship between 
the Army and the LSI. OSD did not play an active oversight role, such 
as stringently applying its own acquisition policies, until about the 
past 2 years of the program. Congress intervened by mandating a go/no-
go milestone decision to occur in late 2009. Oversight was further 
challenged by the pace of the program; the schedule for making 
decisions outpaced demonstrated knowledge to the extent that major 
production commitments were to be made before basic designs were to be 
demonstrated. Lessons from this experience should be applied to put 
future modernization efforts on the soundest footing possible for 
execution.
Strategy to Acquire FCS Was Not Executable Within Projected Resources
    Originally, the Army intended to define thousands of requirements; 
mature critical technologies; and develop the network, manned and 
unmanned vehicles, and other systems within about 5\1/2\ years from 
development start--much faster than a single system typically takes. 
When FCS entered development in 2003, the Army had not yet established 
firm requirements that were matched with mature technologies and 
preliminary designs. Although the Army lengthened the development 
schedule to 10 years, it did not plan to demonstrate the level of 
knowledge needed at development start until 2009.
    In 2003, only 40 percent of the FCS critical technologies were 
nearing maturity, although DOD's acquisition policy called for all 
critical technologies to be mature at development start. Originally, 
the Army officials believed it could mature the remaining technologies 
in just 3 years. While the Army has made significant progress, today it 
is still conducting evaluations to demonstrate minimum maturity levels 
for several critical technologies. Also, the Army needed capabilities 
being developed by programs outside of FCS to meet network and other 
requirements. However, these programs were immature as well, and 
synchronizing them with FCS proved elusive. In particular, the Joint 
Tactical Radio System and Warfighter Information Network-Tactical 
programs, the primary enablers of the network, experienced 
developmental delays that adversely affected the FCS schedule. As 
technologies, designs, and requirements evolved, key tradeoffs became 
necessary. For example, the weight of the manned ground vehicles grew 
from 19 tons to 29 tons, and the use of the C-130 as the main transport 
aircraft had to be abandoned.
    The Army set forth an ambitious schedule for software development 
and the program as a whole. Originally, the Army anticipated 33 million 
lines of software code for FCS--which at the time made the program the 
largest software-intensive acquisition program in DOD history. That 
estimate has now grown to over 114 million lines of software code. The 
Army approach to managing the software effort has employed disciplined 
management practices, but these have been impaired by late and changing 
requirements. With such a schedule in mind, the Army allowed the 
program to proceed through developmental and test events without 
sufficient knowledge. Similarly, the Army was poised to begin early 
production without having adequately tested production-representative 
articles.
    In light of these and other risks, the John Warner National Defense 
Authorization Act for Fiscal Year 2007 mandated that the Secretary of 
Defense carry out a Defense Acquisition Board milestone review of FCS 
not later than 120 days after the system-of-systems preliminary design 
review, which occurred in May 2009.\2\ According to the law, the 
milestone review should include an assessment of:
---------------------------------------------------------------------------
    \2\ Pub. L. No. 109-364, Sec. 214 (2006).

          1. whether the warfighter's needs are valid and can be best 
        met with the concept of the program;
          2. whether the concept of the program can be developed and 
        produced within existing resources; and
          3. whether the program should

                  a. continue as currently structured;
                  b. continue in restructured form; or
                  c. be terminated.

    In our March 2009 report on FCS, we concluded that the Army would 
be challenged to convincingly demonstrate the level of knowledge needed 
to warrant an unqualified commitment to the FCS program at the 
milestone review.\3\ We identified a number of knowledge gaps that have 
persisted throughout the development program. Specifically, the FCS 
program has yet to show that critical technologies are mature, design 
issues have been resolved, requirements and resources are matched, 
performance has been demonstrated versus simulated, and costs are 
affordable. Also, network performance is largely unproven. In summary, 
we determined that the FCS program was not executable within Army cost 
and schedule projections.
---------------------------------------------------------------------------
    \3\ GAO, Defense Acquisitions: Decisions Needed to Shape Army's 
Combat Systems for the Future, GAO-09-288 (Washington, DC: Mar. 12, 
2009).
---------------------------------------------------------------------------
    The pace of the program called for key commitments in advance of 
needed information. For example, the Army had scheduled only 2 years 
between the critical design review and the production decision in 2013, 
leaving little time to gain knowledge between the two events. As a 
result, FCS was planning to rely on immature prototypes for making the 
decision to proceed into production. Also, by 2009, the Army had 
already spent about 60 percent of its planned development funds and 
schedule but had only proceeded to the preliminary design stage. That 
would have left only 40 percent of its financial and schedule resources 
left to complete what is typically the most challenging and expensive 
development work ahead.
    The timing of planned commitments to production funding put 
decision makers in the difficult position of making production 
commitments without knowing if FCS would work as intended. 
Facilitization costs were planned to begin in fiscal year 2011, the 
budget for which would have been presented to Congress in February 
2010, several months prior to the planned FCS critical design review. 
Further, in February 2011, when Congress would have been asked to 
approve funding for initial low-rate production of core FCS systems, 
the Army would not yet have proven that the FCS network and the program 
concept worked.
Oversight Challenges Were Too Great
    The relationship between the Army and the LSI was shaped by the 
ambitious scope of the FCS program and limitations in the Army's 
ability to manage it. The relationship is complex; on one hand, the LSI 
has played the traditional contractor role of developing a product for 
the Army. On the other hand, the LSI has also acted like a partner to 
the Army, ensuring the design, development, and prototype 
implementation of the FCS network and systems. The Army believed this 
relationship would offer more real-time, better informed decisions; 
reduce rework; and provide increased flexibility to adjust to new 
demands. While a close partner-like relationship offers benefits, such 
as the government and the contractor working together on a continual 
basis to decide what work is to be done, the partner-like relationship 
between the Army and the LSI broke new ground. As such, it posed 
oversight risks such as the government becoming increasingly vested in 
the results of shared decisions and being less able to provide 
oversight, especially when the government is disadvantaged in terms of 
workforce and skills. The Institute for Defense Analysis has also 
reported on the risks of the Army and LSI relationship, noting that the 
government cannot expect contractors to act in the best interest of the 
government as that could potentially conflict with their corporate 
financial interests. The Institute recommended that the Army take steps 
to ensure that it has, and continually uses, a competent internal 
capability to develop a corporate Army position on key FCS issues such 
as measuring program status and trends as well as independent 
operational testing.
    Part of the Army's original rationale for using an LSI was to keep 
the contractor's efforts focused on development, rather than on 
production. Early on in the FCS program, steps were taken to reinforce 
this focus, such as strengthening organizational conflict of interest 
provisions. While the original Other Transactions Agreement for FCS 
development and demonstration contained an organizational conflict of 
interest clause that required certain safeguards be put into place if 
and when Boeing and SAIC competed for FCS subcontracts, the 2006 
Federal Acquisition Regulation-based contract precluded the Boeing/SAIC 
team from competing for any FCS subcontract awards. By this time, 
Boeing already had prime responsibility for two critical software 
efforts. As the program evolved however, the LSI's role in production 
grew. In 2007, the Army decided that the LSI should be the prime 
contractor for the first spin outs as well as low-rate production of 
FCS core systems. This was a significant change from the early steps 
taken to keep the LSI's focus on development.
    The Army structured the FCS contract consistent with its desire to 
incentivize development efforts and make it financially rewarding for 
the LSI to make such efforts. In general, contracts are limited in that 
they cannot guarantee a successful outcome. As with many cost-
reimbursable research and development contracts, the LSI was 
responsible to put forth its best effort on the development of the FCS 
capability. If, given that effort, the FCS capability falls short of 
needs, the LSI would not be responsible, would still be entitled to 
have its costs reimbursed, and may earn its full fee. Specific aspects 
of the contract could make it even more difficult to tie the LSI's 
performance to the actual outcomes of the development effort. Under the 
terms of the FCS contract, the LSI could earn over 80 percent of its 
$2.3 billion fee by the time the program's critical design review is 
completed in 2011, and the Army would have paid out roughly 80 percent 
of contract costs by that point. Yet the actual demonstration of 
individual FCS prototypes and the system-of-systems would have taken 
place after the design review. Our work on past weapon system programs 
shows that most cost growth--symptomatic of problems--occurs after the 
critical design review. The Army shared responsibility with the LSI for 
making some key FCS decisions and to some extent the Army's performance 
could thus affect the performance of the LSI.
    OSD's oversight did not compensate for these risks early in the 
program. OSD has largely accepted the program and its changes as 
defined by the Army, even though it is at wide variance from the best 
practices embodied in OSD's own acquisition policies. Until recently, 
OSD had passed on opportunities to hold the FCS program accountable to 
more knowledge-based acquisition principles. Despite the fact that the 
program did not meet the requisite criteria for starting an acquisition 
program, OSD approved the program's entrance into system development 
and demonstration in 2003. OSD later reevaluated the decision and 
decided to hold a follow-on review with a list of action items the 
program had to complete in order to continue. However, this review 
never occurred and the FCS program continued as originally planned. 
Furthermore, OSD did not plan to conduct another review and decision 
point until the 2013 production decision, when it would be too late to 
have a material effect on the course of the program. In addition, OSD 
has allowed the Army to use its own cost estimates rather than 
independent--and often higher--cost estimates when submitting annual 
budget requests.
    Over the last couple years, the Under Secretary of Defense for 
Acquisition, Technology, and Logistics has taken steps to improve 
oversight on the FCS program. For instance, in 2007, the Under 
Secretary deemed the non-line-of-sight cannon program as being in need 
of special attention, so he designated the program as special interest 
and declared that his office would be the decision authority on 
production. Also, in 2008, the Under Secretary issued a directive to 
pursue alternate arrangements for any future FCS contracts. The Under 
Secretary found that the fixed fee was too high and the fee structure 
allows industry to receive most of the incentive fee dollars prior to 
demonstrating integrated FCS system-of-systems capability. The Under 
Secretary also directed that the Army conduct a risk-based assessment 
to examine contracting alternatives for FCS capability. This assessment 
is to evaluate opportunities for procurement breakout of the individual 
platforms and systems that comprise FCS and how the government's 
interests are served by contracting with the LSI as compared to 
contracting directly with the manufacturers of the items.
   considerations for shaping future army ground force modernization 
                                efforts
    In April, the Secretary of Defense announced plans to cancel the 
FCS manned ground vehicle and non-line-of-sight cannon development and 
initiate a new ground combat vehicle program that leverages successful 
outcomes from FCS investments and incorporates lessons learned from 
current combat operations. Explaining the rationale for his decision, 
the Secretary noted that FCS vehicle designs did not reflect lessons 
learned from combat in Iraq and Afghanistan and that the contract fee 
structure provided little leverage to promote cost efficiency.
    As the Army proceeds to modernize and ensure its ground forces are 
well equipped for current and future operations, there are several 
important factors to consider, and some questions to answer. While the 
Army and DOD are in the early stages of deciding how to proceed with 
modernization, it appears likely that rather than a single program like 
FCS going forward, several programs with more targeted objectives will 
emerge. For example, the spin-out program may continue in an 
accelerated form and a program to develop a new family of manned ground 
vehicles will likely be pursued per the Secretary of Defense's 
direction. It is also conceivable that a program focused on developing 
an information network would also be considered.
    Regardless of how the Army's ground force modernization program is 
structured or managed, some key principles will have to be embodied. 
These include:

        <bullet> Knowledge-based acquisition: any emergent 
        modernization programs should be put on the soundest footing 
        possible for success, by following DOD's latest acquisition 
        policy that spans the initial decision to pursue a material 
        solution, analysis of alternatives, concept formulation, 
        technology maturation, requirements definition, incremental 
        system design and development, production, and fielding. Sound 
        systems engineering practices should be the guide throughout 
        these phases.
        <bullet> Sound cost estimating: Any emergent program following 
        a knowledge-based approach should be well understood and 
        defined sufficiently to facilitate realistic cost estimates 
        with reasonable levels of confidence. In order to ensure the 
        accuracy, completeness, and reliability of these estimates, 
        independent cost estimates should be completed and assessed 
        before approval into the product development phases.
        <bullet> Transparency and accountability for oversight: The 
        emerging programs need to include sufficiently detailed and 
        transparent reporting approaches to facilitate oversight. Those 
        should include an acquisition strategy that features 
        demonstrations of knowledge before planned commitments to 
        future phases and additional funding; a contracting strategy 
        that features as much competition as possible and protections 
        for the government's interests; complete justification 
        materials to support budget requests; and a clear and 
        understandable framework for selected acquisition and earned 
        value management reporting.

    Beyond these principles, the Army will have to tailor its 
approaches to the needs of the individual programs that emerge, 
allowing for the different challenges they represent. For example, the 
current spin-out program is in the late stages of development, 
approaching production. The Army now plans to field at least some FCS 
equipment and some portion of the FCS network to its current 73 Brigade 
Combat Teams. We have reported that the pace of the spin-out program 
has been hurried, not allowing enough time to test and evaluate 
production-representative prototypes before beginning production. 
Specifically, it is unclear whether the Army will be testing with the 
specific equipment it plans to produce and use. To date, that has not 
been the case. Testing thus far has employed spin-out systems that are 
surrogate and non-production representative, and are thus not in the 
form that will be fielded. Using such systems is problematic because it 
does not conclusively show how well the actual systems perform. 
Additionally, we do not know how the Army plans to determine the 
content and schedule of future FCS spin-out phases.
    Notional plans for the new ground combat vehicle program include a 
goal of fielding the new vehicles within 5-7 years, with concept 
development efforts underway. This program will likely revert back to a 
pre-acquisition phase. This effort will involve different 
organizations, such as those involved with science and technology, 
different strategies, and different contracting approaches than the 
spin-out program. The risks for the ground combat vehicle program will 
be different and will have to be addressed differently. For example, 
under FCS, vehicles were being designed as network-dependent, a risky 
approach as the network has not yet been developed. In addition to the 
Secretary of Defense's direction that the new program incorporate 
lessons learned from current operations, the Army may have to consider 
whether the vehicle designs should be network-enhanced versus network-
dependent. An incremental approach would allow the vehicle designs to 
incorporate increasing network capabilities as they became available.
    While we do not know at this point how the Army plans to approach 
the development of an information network, its acquisition approach may 
also have to retrench to a pre-acquisition phase to reconsider how best 
to proceed to manage risks in line with DOD acquisition policy and to 
meet the direction of the Secretary of Defense. While some elements of 
the network may be further advanced than some of the vehicle work, the 
concept itself and how to test and evaluate its performance in large 
scale may present greater challenges than the vehicle program. Again, 
the network may need a different acquisition and contracting approach, 
as well as involvement from different organizations, than either the 
spin out or manned ground vehicle program.
    In proceeding forward with a different modernization approach, 
there are several questions or issues that will have to be addressed. 
These include:

        <bullet> Closing out or restructuring current contractual 
        arrangements: Depending on what the Army decides to do with the 
        new ground vehicle program, it will have to restructure or 
        possibly terminate the existing FCS contract. To help in that 
        process, it would be useful for the Army to have a more 
        detailed understanding about the factors that influenced the 
        Secretary of Defense's recommendation to cancel the current FCS 
        vehicle development effort. Whereas the Secretary's decision 
        could be interpreted as a determination that the FCS concept 
        would not meet current needs, it is not clear at this point 
        what is required to satisfy current military needs.
        <bullet> Transferring knowledge from current FCS efforts to 
        emergent programs: The Army should carry forward knowledge 
        already gained from the significant investments in FCS systems 
        development. While the Army plans to capture and use what has 
        been learned, doing so depends in large part on whether that 
        knowledge can be transferred to a follow-on program. For 
        example, the Army and LSI have been jointly managing the 
        development of FCS software centrally. That effort included 
        software for the information network, manned ground vehicles, 
        and other individual FCS systems. As the Army proceeds to 
        structure the multiple programs, it will need to coordinate 
        what may be multiple separate software development and 
        demonstration efforts.
        <bullet> Transition of FCS information network to current Army 
        forces: Depending on how the Army proceeds with an information 
        network, there are questions as to how it can be transferred to 
        the current forces. None of the existing equipment in the 
        current forces has been developed with such a network in mind. 
        As part of the spin-out evaluation process, the Army 
        encountered difficulties last year in trying to integrate even 
        a small portion of the FCS network. Furthermore, the Abrams and 
        Bradley vehicles have space, weight, and power constraints that 
        may limit their ability to be integrated with an FCS-like 
        network. Additionally, it is not clear whether the Army will be 
        developing and fielding vehicles like the proposed FCS command 
        and control vehicle and reconnaissance and surveillance 
        vehicle, which were to be key components of the FCS network.
        <bullet> Early emphasis on key development and design 
        considerations: Previously, we have commended the Army's 
        efforts to break from traditional thinking with its early 
        emphasis on key development and design considerations. 
        Specifically, the Army defined the larger context within which 
        it wanted its new assets and capabilities to work, emphasizing 
        open system designs and interoperability early in development, 
        rather than as an afterthought. Further, we have noted the 
        productive nature of the Army's early consideration and focus 
        on challenging issues like sustainability. As the Army ground 
        force modernization effort goes forward, the Army will need to 
        find ways to retain this broader focus across multiple 
        programs.
        <bullet> Moving from a single program structure to multiple 
        programs: The Army's preliminary plans for the FCS 
        restructuring call for several separate programs, including 
        those for the new ground combat vehicles, the information 
        network, and the FCS spin-out effort. As it shaped the original 
        FCS program, the Army made a concerted effort to reduce the 
        influence of the various ``stovepipes'' within its user 
        organization and set up a unitary management structure. 
        Separate programs may differ greatly from the centralized 
        structure of the FCS program to date and would have 
        consequences that need to be considered. On the one hand, 
        separate structures might lend themselves more readily to 
        better oversight within each area. On the other hand, multiple 
        programs may require more staffing and might introduce various 
        and competing objectives rather than maintain singular focus on 
        interoperability and other key objectives.
        <bullet> Balancing investments between future capabilities and 
        keeping fielded systems as capable as possible: The Army will 
        have to strike a balance between near-term and long-term needs, 
        realistic funding expectations, and a sound execution plan as 
        it moves on the new FCS path forward. The Army's FCS budget 
        material for fiscal year 2010, which includes the new ground 
        combat vehicle program, provides little detail and no long-term 
        perspective. DOD, Army, and Congress will eventually have to 
        agree on the magnitude of funds that can be devoted to ground 
        force modernization and how that money should be allocated 
        among near-, mid-, and long-term needs.
                           concluding remarks
    The Army's experience with FCS has been productive. Its vision, 
holistic context, recognition of network potential, and penchant for 
innovative managerial and experimentation techniques, are worthy of 
emulation. On the other hand, the difficulties in executing and 
overseeing the program were apparent at the outset of the program--they 
were not unexpected discoveries made along the way. The key in going 
forward is to take the best from both kinds of lessons and applying 
them, in a tailored way, to the different modernization efforts that 
will succeed FCS. The Army and DOD should continue to be innovative as 
to concepts and approaches, but anchored in knowledge-based strategies 
when it comes to proposing a specific system development effort. 
Differences in the task at hand should warrant different approaches. At 
one end of the spectrum, spin outs are in late development, where the 
focus should be on testing and production preparations. At the other 
end of the spectrum are efforts to develop a new family of manned 
ground vehicles and an information network. These would be in early 
stages of development, in which informed decisions on technologies and 
requirements will be key. Even within these two developmental efforts, 
different technical and managerial approaches may be necessary, for 
more is known about developing and projecting the performance of 
vehicles than is known about a network.
    Mr. Chairman, that concludes my prepared statement. I will be happy 
to answer any of your questions.
                  contacts and staff acknowledgements
    For future questions about this statement, please contact me on 
(202) 512-4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4721352629242e3437072026286920283169">[email&#160;protected]</a> Individuals making key 
contributions to this statement include William R. Graveline, Assistant 
Director; Marcus C. Ferguson; William C. Allbritton; Noah B. Bleicher; 
Helena Brink; and Tana M. Davis.

    Senator Lieberman. Thanks, Mr. Francis. That was very 
interesting testimony.
    We're at a point where significant changes are being made 
in the FCS program. One explanation of that is that it is 
totally the result of budgetary constraints. But I would take 
it that neither of you would agree with that. Am I right? It's 
not totally because of budget pressure?
    Mr. Ahern. No, sir, I would not agree with that. No, sir, I 
don't think that that was the issue at all.
    Senator Lieberman. Mr. Francis?
    Mr. Francis. Yes, Mr. Chairman. Congress had mandated that 
go/no-go decision in 2009, and I don't think FCS was going to 
measure up to that.
    Senator Lieberman. Yes. So this leads us to the conclusion 
that if it wasn't just the shortage of money that something was 
wrong with the program, at least as it was going forward. Now 
the Secretary has come in, and the President, with a 
restructuring of it.
    Mr. Francis gave us some negatives. It's an interesting 
question--I made notes on your positives and negatives from the 
FCS experience--whether the negatives were inherent and 
unavoidable in the positives or whether they were avoidable. In 
other words, if you have, on the positive side, a holistic 
program that's a breakthrough, where you have an innovative 
managerial approach, were the shortcomings that you then see 
about the program not being executable within resources 
available, oversight challenges too great, et cetera, were 
those inevitable or was it possible to achieve the positives 
here without incurring the negatives?
    Mr. Francis. I think it was, Mr. Chairman. If we look at 
where the program is now, after I think an extraordinary effort 
to develop the requirements, the software, the technologies, 
and so forth, the program's at the point where the Army could 
now start a MGV program based on a solid basis of technology 
where it knows what it can and can't do.
    I think I agree we have to be thinking in terms of systems-
of-systems, but there are different sizes and perhaps that was 
a bit too large to manage. But I think if you took that 
managerial approach and took a system-of-systems perspective 
and pushed very hard in the pre-acquisition phases, then I 
think when you came up for a decision on whether to start an 
acquisition program you would then allow the requirements to be 
tempered by what you can do technically, be technically 
realistic.
    So I think the start point was really the problem.
    Senator Lieberman. Mr. Ahern, let me ask you to respond to 
some of Mr. Francis's comments, just in terms of lessons 
learned and where we go from here. You made an interesting, I 
thought significant, statement that at different times OSD 
actually had higher cost estimates for the FCS system than the 
Army did, but essentially let the Army go ahead. I think I've 
heard it correctly.
    How do you respond to that?
    Mr. Ahern. Yes, sir, that's what Mr. Francis said. I was 
not aware of that. There are always program office estimates 
and OSD or Cost Analysis Improvement Group estimates. 
Typically, we try to reconcile the differences between them to 
get the right cost estimate going forward. I would have to go 
back in history and ask a question about that specifically. I 
don't have that.
    Senator Lieberman. Okay, good enough. Why did that happen, 
do you think? Why did OSD yield to the Army?
    Mr. Ahern. Mr. Chairman, I don't think there's a 
requirement that the OSD estimate be adhered to. But I think 
the big difference was over software and the OSD estimate 
forecast a much larger software effort than the Army had 
programmed. I'm not sure why they deferred to the Army, but I 
do know that was the main difference between the two estimates.
    Senator Lieberman. How about, Mr. Ahern, the conclusion 
that Mr. Francis presented that the Army had in some senses or 
cases too close a relationship with the lead systems 
integrator?
    Mr. Ahern. Yes, sir. The relationship between Boeing, SAIC, 
and the Army. The Army depended upon Boeing to a greater degree 
going forward. I'm not sure of the characterization as too 
close a relationship with them. It is a government-contracted, 
Federal Acquisition Regulation-contracted relationship with 
them, with the standard clauses and structure to it. So I'm not 
sure where he's referring to.
    I do understand, initially anyway, there was a perception 
that Boeing was undertaking some of what had been government 
jobs or normal government positions. But of late, at least to 
my knowledge, it's a standard government and prime relationship 
between Boeing and the government.
    Senator Lieberman. Do you want to flesh out that conclusion 
just a bit, about why did you conclude that in some cases the 
Army was too close to the lead systems integrator? In other 
words, what was the basis of that conclusion?
    Mr. Francis. A few things, Mr. Chairman. One was the 
immaturity of the program when it started. So requirements were 
very soft, technologies weren't well-defined. So the lead 
system integrator was involved in decisions both on what was 
required as well as what the solution was.
    I think a second thing is the level. In this case, the lead 
system integrator, rather than in a traditional prime 
arrangement, where you have, say, a contractor who's developing 
a platform and integrating subsystems, in this case you had a 
contractor developing a system-of-systems where the 
subcontractors had major platforms.
    The third thing was, the lead system integrator was to act 
as the Army's agent in a lot of these decisions. Initially when 
the contract was set up, the Army was careful and this 
subcommittee in particular made it emphatic that the lead 
system integrator was to focus on development. There was a 
pretty high fee on development and there was an attempt to keep 
the lead system integrator financially disinterested in 
production, so it could focus on the Army's interests.
    Over time that focus was lost and in 2007 the Army decided 
it would allow the lead system integrator to be the prime for 
the spinout production and low rate initial production of FCS 
core systems. So it did develop a financial interest in 
production. Given the size of the FCS program and it being 
almost synonymous with the future Army, we could see that 
developing naturally. I'm not saying it was necessarily 
improper, but you did then need another layer of oversight to 
make good decisions about the program, which is where we are 
looking to OSD.
    Senator Lieberman. That was not there?
    Mr. Francis. That was not there, yes.
    Senator Lieberman. You listed the innovation in the 
managerial approach, which is to say the lead system 
integrator, as one of the positive take-aways as well. So am I 
correct in putting these two together and saying that you would 
go with something like that again with the lead system 
integrator, but provide the greater oversight that was not 
there this time?
    Mr. Francis. I wouldn't rule it out.
    Senator Lieberman. But you apparently don't favor it, 
really, on balance?
    Mr. Francis. There are a number of risks with it, and it 
hasn't worked out in other programs. The Coast Guard has tried 
it with the Deep Water Project. There was an attempt in missile 
defense, and I think there are some problems with it on the 
Secure Border Initiatives. So it's unproven. If we're going to 
try it, maybe it needs to be tried on a smaller scale.
    Senator Lieberman. Thank you very much.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    FCS as a system of systems was enormously complicated to 
develop and acquire. What steps has the Army taken to increase 
the capacity of its acquisition workforce to develop and buy 
these complicated systems?
    Mr. Ahern. The Secretary of Defense has articulated his 
intent to grow the acquisition community over the next couple 
of years, the next FYDP period of, I believe, 20,000 
individuals, of which 5,400 are intended to go to the Army. 
There's a split in that. I believe 10,000 are actually growth 
in strength and the other 10,000 in round numbers are 
transition from contractor to government individuals. Again, 
the Army will be growing 5,400 of those.
    Senator Thune. In recent years the Army has had difficulty 
both in developing a holistic modernization strategy and in 
executing particular modernization programs. The Comanche, 
Crusader, Armed Reconnaissance Helicopter (ARH), and of course 
FCS probably come to mind as the most notable examples of 
programs that were cancelled or restructured after large 
investments of time and money.
    You've touched on this, Mr. Francis, in your testimony and 
in response to questions from the chairman. But just if you 
could again lay out what, in your view, are the key principles 
to improving the force modernization programs.
    Mr. Francis. I think as you look back on those you can 
identify flaws in what we would call the business case at the 
start. I think in the case of the Comanche, I worked on that 
program back in 1983 when it was called the Light Helicopter 
Experimental, the original concept was for it to be like the 
Humvee, just a universal airframe that you could equip to 
perform different missions.
    When it exited the requirements process, it became the Next 
Generation Reconnaissance Helicopter Tank Killer. It was 
actually more capable in many ways than the Apache. At that 
point then, the requirements outstripped the technology. So we 
had to go through a significant technology development effort 
to meet the requirements.
    By the time the program really got on a sound footing, the 
threat had changed, and I think that's the reason the 
helicopter was cancelled. So again, I'd look at the business 
case there.
    I think on the ARH, it was a little bit different scenario 
in that most of the technologies were mature. So the idea was 
to take different technologies off the shelf and bundle them 
together in a single airframe. But in that case the Army didn't 
allow enough time for the integration and presented a program 
that was going to move really fast. For those of us who were 
around when the OH-58D was equipped with a mast-mounted sight, 
we knew how long that integration effort took. So again, I 
think the business case for the ARH wasn't a technology issue, 
but a schedule issue.
    I think in FCS, we've seen both. On the one hand why you 
can be a bit frustrated with that, I think these are all take-
aways. I think really tightening down on what we need to know 
about requirements and technology and costs and schedule when 
we launch a new system is somewhere where the Army can get real 
payoff here and some real help from OSD.
    Senator Thune. Mr. Ahern, OSD is charged with overseeing 
major defense acquisition programs, including FCS. Yet with all 
that oversight, the recommendation to restructure FCS came very 
abruptly. My question is, should the challenges that were noted 
by Secretary Gates in his recommendation have been addressed 
sooner by OSD?
    Mr. Ahern. As I noted in my statement, sir, we were 
beginning to move toward the spinouts and focusing on the early 
spinouts as early as 2007 and 2008, and breaking them out with 
an entire set of documentation, the capability production 
document, an acquisition strategy, and a test and evaluation 
master plan. So I think we were moving in that direction.
    In regards to the networking and the additional BCT 
modernization the Secretary called for, I think we were on top 
of that and working in that direction. The Secretary's work on 
the MGV, his concern that it did not address some of the 
lessons learned and that perhaps it needed to, as Mr. Francis 
indicated a couple of minutes ago, were other areas that he 
looked at, I think is the way for me to say it.
    It wasn't a question of the need, and the Secretary's been 
very clear about that. It was whether the Army program was the 
right program at the time going forward, recognizing lessons 
learned out of Iraq and the incorporation of some of the other 
vehicles, as the MRAP vehicle, that had been put into the 
field.
    Senator Thune. Mr. Francis, how would you characterize 
OSD's oversight of FCS?
    Mr. Francis. I think that early on OSD was rather passive 
about FCS and the program proceeded in 2003 even though it was 
by any measure of DOD's acquisition policy not ready for a 
start. Yet it did go ahead. There have been a number of 
occasions, I think, where OSD could have stepped in and taken 
some action.
    For example, after that initial decision in 2003, OSD said 
in 18 months it was going to have a second milestone decision 
to clean up the issues that it hadn't covered in the first one, 
and then never held that milestone decision. So I think early 
on OSD could have done a lot more. We talked about cost 
estimates before. I was thinking about the question that you 
just asked, about the Secretary of Defense's intervention. I 
know this committee had a leadership in the acquisition reform 
legislation that just went through. I think it's a question 
that a taxpayer would ask or anyone here, which is, with all 
the processes that were in place at the time and all the 
policies, why did it take an extraordinary action on the part 
of the Secretary of Defense to right-size the modernization? 
Why didn't all the standards work?
    I think going forward we have to think in terms of 
acquisition reform, if we don't stay true to those standards 
and those reforms and allow programs to go through that don't 
abide, then we're actually rewarding programs with money that 
fly in the face of all the hard work on policy. So I think it's 
a really good question to ask and something that will provide 
some instruction for going forward.
    Senator Thune. Mr. Ahern, would you agree that the 
requirements that FCS was developing toward were unrealistic?
    Mr. Ahern. No, sir. Holistically, the requirements they're 
working for, no, sir. I think in terms of the system-of-
systems, of the networking of the sensors that they intend to 
have, of the vehicles that they're going to be utilizing, the 
incorporation of those is valid, and I think that the recently 
completed preliminary design review indicates that the 
requirements are stable for the individual capabilities and 
that as a system-of-systems that they've taken it under 
configuration management and that it is a valid set of 
requirements going forward.
    Senator Thune. Mr. Francis, do you agree?
    Mr. Francis. I don't think we know if they're realistic 
yet. I think the requirements were set before we knew what was 
technically feasible. So I think there's been a lot of work to 
rationalize or reconcile the requirements and technologies. I 
would agree on the MGVs a lot is understood now, but, for 
example with the network, the network is quite a revolutionary 
network. There's nothing like it today. It's mobile. It's ad 
hoc. It'll handle a huge volume. There are requirements for it 
that we don't know whether it will meet yet.
    So I think a lot of the feasibility of the requirements is 
to be determined yet.
    Senator Thune. Thank you. Thank you, gentlemen, very much 
for your testimony.
    Mr. Chairman, thank you.
    Senator Lieberman. Thanks, Senator Thune.
    Just one more wrap-up question and then one on behalf of 
Senator Inhofe. Bottom line, can we say that the taxpayers have 
gotten or will get their money's worth out of what we've 
invested in the FCS?
    Mr. Ahern. Yes, sir. I think that the payoff, what we've 
learned, the technologies that have been developed, matured, in 
the 5-year period of time that the program has been under way, 
that will be implemented initially in the spinouts and then in 
the generation to follow of the vehicles, there isn't any 
question in my mind that, with the right discipline in the 
acquisition system--and that's what I think we've been talking 
about for the last few minutes, the discipline that's needed as 
we go forward with the four or five separate programs, whether 
it's the network or the vehicles or the sensors--yes, sir, I am 
sure that we will achieve that capability.
    We're going to be working to modernize the Army for a 
number of years holistically across it. Yes, sir, I think it 
was the right approach, the discipline. We will realize the 
investment that's been made in FCS, as evidenced by the 
preliminary design review, which I take it was quite 
successful.
    Senator Lieberman. Mr. Francis, how would you answer that?
    Mr. Francis. Mr. Chairman, I'd say the FCS program has been 
very productive. I think what has been accomplished has been 
phenomenal in terms of understanding the software, the 
requirements, moving all the technologies, developing the 
concepts for employment, and so forth.
    But the question of value is a very good one, and I don't 
know quite how to answer that, because I would hypothesize that 
had we attempted to do this, say, in a pre-acquisition phase 
with a smaller workforce, perhaps focusing first on the network 
to see what we could do there and then allow that work to 
inform what we could do on the vehicles, it's possible we could 
have been nearly as productive for a smaller investment. I'm 
hypothesizing there, but I think that's the question.
    Senator Lieberman. I hope we've all learned. I agree with 
you, we're going to get a lot out of it, we've already gotten a 
lot out of it, some of it quite amazing really in technological 
advances. Hopefully, we've learned a lot about how to better 
manage a program like this. Your word, Mr. Ahern, is a good 
one: discipline.
    Let me finally, on Senator Inhofe's behalf, ask you the 
question. I think you were here, but I gather that he wanted me 
to follow on that he has asked Secretary Gates for his comments 
on DOD's plan or recommendation for accommodating existing law 
on the non-line-of-sight cannon, but has not yet received a 
reply. What is your reply? What is DOD's plan there?
    Mr. Ahern. Yes, sir. As General Thompson said, we're 
working through the language, the precision to ensure that we 
get it right, to represent the direction that we have as well 
as the statutory requirements. We will be communicating with 
Congress--I am confident of that--in order to get it right, 
straight across the board.
    Senator Lieberman. One thing I'm confident of is that 
Senator Inhofe will stay on this until he gets that answer.
    Mr. Ahern. Yes, sir.
    Senator Lieberman. So the sooner the better.
    Mr. Ahern. Yes, sir.
    Senator Lieberman. I thank you both. It's been a very 
constructive panel and it helps to guide us as we go forward to 
our markup next week, but really more to the point, to guide 
you and us, DOD and Congress, about how better to oversee the 
expenditure of large sums of taxpayer money to achieve the 
result that we want for our soldiers.
    Thank you very much. The record of the hearing will stay 
open until Thursday at 5 p.m. for additional statements or 
questions, and if you get additional questions we hope that 
you'll answer them as soon as possible.
    Senator Thune, do you want to add anything?
    Senator Thune. No, thank you, Mr. Chairman.
    Senator Lieberman. Thank you both for your service.
    The hearing is adjourned.
    [Whereupon, at 4:06 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
